                                         United States Army
Two thousand Twelve




                      Fiscal Year 2012 United States Army Annual Financial Report
             Fiscal Year 2012 United States Army Annual Financial Report




On the Cover (From Left to Right, Top to Bottom): Combat engineers prepare to maneuver sections of an improved ribbon bridge in a bridge erection
boat / Two U.S. Army Soldiers breach a wire obstacle during a situational training exercise. (U.S. Army Photo by Visual Information Specialist Gertrud
Zach, Released) / A Soldier performs a foot march during a training event. (U.S. Army photo by Visual Information Specialist Gertrud Zach/Released) /
A U.S. Army AH-64 Apache attack helicopter prepares to depart Bagram Air Field, Afghanistan. (U.S. Air Force photo, Tech. Sgt. Matt Hecht) / A
paratrooper provides overwatch security to fellow paratroopers. (U.S. Army photo by Sgt. Michael J. MacLeod) / A combat engineer places a Bangalore
torpedo during a platoon concertina wire breach. (U.S. Army photo by Sgt. Heather Denby) / An Afghan company executive officer suggests a route
of approach into a village to a platoon leader. (U.S. Army photo by Sgt. Michael J. MacLeod) / A U.S. Army sergeant goes across the rope bridge at an
obstacle course. (U.S. Army photo by Visual Information Specialist Markus Rauchenberger/Released)
*Unless otherwise noted, all photos on the cover and inside pages are courtesy of the U.S. Army. (www.army.mil)
                                                                                 United States Army
                                                      Two thousand Twelve




FY 2012 Contents
Message from the Secretary of the Army  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .             iii

Message from the Assistant Secretary of the Army
(Financial Management and Comptroller)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .           v

Management’s Discussion and Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .          1

Army General Fund
Principal Financial Statements, Notes,
Supplementary Information and Auditor’s Report .  .  .  .  .  .  .  .  .  .  .  .  . 31


Army Working Capital Fund
Principal Financial Statements, Notes and Auditor’s Report .  .  .  .  .  .                           95
ii   Fiscal Year 2012 United States Army Annual Financial Report




                                          “Our Army is built on strong bonds of
                                           trust. We trust in our Soldiers who
                                           make up our high-quality, all-volunteer
                                           force. Those Soldiers in turn trust in
                                           the Army and their Families to be their
                                           champions in providing a foundation of
                                           support needed to succeed.”
                                                                    – John M. McHugh, Secretary of the Army
                                                                              Message iii
                                                                          Secretary of the Army


During this past year, the Army has confronted simultaneous challenges to reshape our
force, address declining budgets, and continue to defend our national security interests.
Our Army and its Soldiers—more than a million strong—have met these challenges,
defending and serving our nation with courage and distinction. They are devoted to
duty, committed to their missions, and sacrifice on our behalf each and every day.

Our Army is built on strong bonds of trust. We trust in our Soldiers who make up our
high-quality, all-volunteer force. Those Soldiers in turn trust in the Army and their
Families to be their champions in providing a foundation of support needed to succeed.
The Army is committed to improving its support systems, from enhancing Wounded
Warrior programs to sustaining high-quality housing, child care, and recreation services.

Of course, the Army must have the trust of the American people and confidence in how
we use their tax dollars. The Army fiscal year 2012 financial statements are a testament
to our strong commitment to accountability and effective management of financial
resources. These statements demonstrate our stewardship in how these resources were
used to lead, maintain, train, organize, and equip America’s Army.

Though our financial resources are declining, we must continue to provide a highly
capable force that can preserve the President’s strategic options. It is our responsibility
to maximize the Army’s overall efficiency by identifying and eliminating duplicative or
unnecessary programs while still responsibly winding down our commitments abroad
and ensuring we can meet emerging threats around the world.

We are moving towards a leaner, more capable and adaptable Army. We will continue
to scrutinize budgets as we transition to a smaller yet effective force. We must rebalance
force structure and make investment decisions that will shape an Army of 2020 that is
prepared for missions across a full range of military operations. This vision focuses on
developing adaptive leaders and organizations, modernizing equipment and systems, and
revolutionizing training.

I am confident the Army will overcome these challenges and come out stronger. With
your continued support and partnership, we will shape the Army not just to come to
terms with the constraints of today, but to meet the challenges of tomorrow. We are, and
will continue to be, the Strength of the Nation.




		                                      John M. McHugh
		                                      Secretary of the Army
iv   Fiscal Year 2012 United States Army Annual Financial Report




                                         “We are building on the momentum
                                          achieved through these
                                          accomplishments and advancing a
                                          culture of accountability across the
                                          Army. By implementing efficient and
                                          adaptive processes, we are making the
                                          Army a more agile and cost-effective
                                          organization.”
                                                                   – Dr. Mary Sally Matiella, CPA, Assistant Secretary of the Army
                                                                                        (Financial Management and Comptroller)
                                                                                 Message v
                           Assistant Secretary of the Army (Financial Management and Comptroller)


The Army has experienced dramatic advances in its business and financial operations
in the last three years and more are coming. The end result will be an Army that can
produce timely, reliable, and accurate financial information that supports the highest
standards of military readiness and accountability.

Changes to the business environment come at a time of great challenge to all of the
military services. In addition to the strain of war, we are challenged by the reduction of
defense budgets and spending caps established by the Budget Control Act of 2011. These
constraints make improved financial operations and strengthened fiscal stewardship top
priorities throughout the enterprise.

One of our proudest achievements this last year is completing the deployment of the
General Fund Enterprise Business System (GFEBS) in July 2012. The system has more
than 52,000 users at more than 200 locations across the globe. GFEBS, now one of the
largest enterprise resource planning systems in the world, brings automated processes and
controls to the Army’s business that result in more timely, reliable, and accurate business
and financial information.

In addition, this past fiscal year marked many milestones that demonstrate Army’s
financial improvement progress. First, in November 2011, an independent public
auditor issued a qualified audit opinion on the first of three examinations, we call
“mock audits,” of business processes related to the Statement of Budgetary Resources
(SBR). This is a major achievement and helped us pinpoint areas of improvement and
highlighted the consistency of processes across the three installations examined. Second,
in August 2012, we initiated the second examination, which covers 10 installations, plus
our major service provider, Defense Finance and Accounting Service, as well as an IT
audit of GFEBS. Finally, we have begun an audit of three missile programs—the Javelin,
Hellfire, and Tube-launched, Opticallytracked, Wire-guided (TOW)—to demonstrate
our missile property records are accurate and auditable; this represents one of the first
major milestones in demonstrating progress toward audit readiness of our assets and
progress towards achieving auditability on our complete Financial Statements in 2017.

We are building on the momentum achieved through these accomplishments and
advancing a culture of accountability across the Army. By implementing efficient and
adaptive processes, we are making the Army a more agile and cost-effective organization.
Holding ourselves to the highest standards of accountability in our business operations is
essential—we owe it to Congress, the American taxpayers, and our very own Soldiers.




		                                     Dr. Mary Sally Matiella, CPA
		                                     Assistant Secretary of the Army
		                                     (Financial Management and Comptroller)
vi    Fiscal Year 2012 United States Army Annual Financial Report




                                                          Soldiers board a C-130 Hercules
                                                          aircraft. DoD photo by Senior Airman
      “The strength of                                    Asha Kin, U.S. Air Force.


         our democracy
     has always rested
     on the willingness
           of those who
           believe in its
                                                          Members of a UH-60 Black Hawk
           values and in                                  helicopter crew come in for a dust
                                                          landing during an air assault training
     their will to serve,                                 mission. DoD photo by Sgt. Daniel
                                                          Schroeder, U.S. Army.
     to give something
            back to this
       country, to fight
       and to sacrifice;
         above all, to do
        that in times of
                  crisis.”
 – The Honorable Leon E. Panetta (Secretary of Defense)
                                                                                Army General Fund and Working Capital Fund 1
                                                                                                             Management’s Discussion and Analysis




A National Guardsman provides security for fellow members of Kandahar Provincial Reconstruction Team. Photo courtesy of the U.S. Army.



Overview
The past decade of conflict has been a period of significant                 addition to meeting critical homeland defense requirements. In
challenge and high operational tempo (OPTEMPO). The Army                     FY 2012, the Army exceeded its ground OPTEMPO goals for
has emerged as a transformed and highly-capable force that                   the AC and the Army National Guard (ARNG) and exceeded
remains the world’s preeminent land power. Stress on the force               air OPTEMPO goals for the ARNG and the U.S. Army Reserve
began to ease in Fiscal Year (FY) 2012, when, in December                    (USAR). Due to limited dwell times between rotations, the
2011, it concluded combat and stability operations in Iraq. The              impact of equipment reset requirements, and changes in unit
Army remains focused on accomplishing current missions, with                 deployment schedules that were not programmed, the AC met
approximately 179,000 Active Component (AC) and Reserve                      98 percent of its air OPTEMPO goal in FY 2012. The USAR
Component (RC) Soldiers1 deployed or forward-stationed. This                 met 89 percent of its ground OPTEMPO goal.
includes more than 59,000 Soldiers in Afghanistan who continue
to conduct combat operations while transferring security                     The Army is also committed to providing the best available
responsibilities to the Afghanistan National Security Forces.                equipment to deploying Soldiers. The Rapid Fielding Initiative
                                                                             (RFI) continues to enhance warfighting capabilities to address
The Army continues to maintain the quality and viability of the              immediate Soldier requirements. A total of 61 brigade combat
all-volunteer force and has met FY 2012 recruiting requirements              teams (BCT), 20 combat aviation brigades (CAB), and numerous
in all components. The Army is committed to sustaining the                   other deploying units, totaling 230,454 Soldiers, received RFI
optimum levels of support that Soldiers and families deserve by              equipment during FY 2012. In addition, the Army’s Rapid
ensuring they receive the right programs and services, at the right          Equipping Force (REF) introduced more than 170 different types
times, in the right venues. The Army Family Covenant, now                    of equipment (over 38,982 individual items of equipment) to
entering its fifth year, represents an overarching commitment to             meet the urgent operational requirements of deployed units in
provide quality-of-life programs to Soldiers, and their families,            FY 2012.
regardless of component or geographic location. The Family
Covenant is twofold in purpose: It recognizes the strength and               As it enters a period of transition, the Army is applying lessons
commitment of Soldiers and their families, and, it establishes               learned in recent combat operations to prepare for evolving
an enduring partnership with Army Families to enhance their                  threats. It also continues to rebalance force structure and is
strength, readiness, and resilience.                                         making investment decisions to shape an Army that will remain
                                                                             adaptive, innovative, versatile, and ready as part of Joint Force
Warfighting remains the Army’s primary mission. To prepare                   2020. Over the next five years, the Army will decrease its end
Soldiers, units, and equipment, the Army must maintain a high                strength from peak authorized levels of approximately 570,000 to
level of training and readiness. During the past year, it provided           490,000 AC Soldiers; 358,000 to 353,500 ARNG Soldiers; and
trained and ready forces to commanders around the world in                   206,000 to 205,000 USAR Soldiers.


1
 	 It is Army policy to capitalize the word “Soldiers” when referring to a
   member of the U.S. Army.
2   Fiscal Year 2012 United States Army Annual Financial Report



Mission and Organization of the Army
The mission of the United States Army is to fight and win the                              (Secretariat) and the Army Staff (ARSTAF). The HQDA Staff
nation’s wars through prompt and sustained land combat, as                                 supports the Secretary by:
part of the joint force. To do this, the Army organizes, equips,
and trains Soldiers for rapid, sustained land combat operations;                                     ÂÂ Developing policies, plans, and programs.
integrates Army capabilities with those of the other armed
services; accomplishes all missions assigned by the President,                                       ÂÂ Establishing and prioritizing requirements.
Secretary of Defense, and combatant commanders; and remains                                          ÂÂ Providing resources to organize, man, train, and equip
ready while preparing for the future.
                                                                                                        Soldiers to meet the combatant commands’ current
                                                                                                        and future operational requirements and other needs as
The Army is organized to support and sustain the mobilization,
                                                                                                        defined by the President, the Secretary of Defense, and
training, and deployment of its Soldiers anywhere in the world.
                                                                                                        the Secretary of the Army.
Headquarters, Department of the Army (HQDA) (Figure 1),
under the direction of the Secretary of the Army and the Army
Chief of Staff, lead and manage the entire Army. The HQDA
Staff is composed of the Office of the Secretary of the Army

Figure 1. Headquarters, Department of the
Army (HQDA)
                                                                                                                              The Army                   Deputy Under          The Inspector
                                                                                                                            Auditor General          Secretary of the Army       General



                                                                                                                             Administrative                                       Chief of
                                                                                                                           Assistant to the SA                               Legislative Liaison



                                                                                                                                                                               Office of Small
                                                                                                                                                                             Business Programs
              Office of the Secretary of the Army
                                                                                                                                                  Secretary                  Chief Information
                                                                                                                                                 of the Army
                                                                                                             Synchronize




                                                                                                                                                                                Officer/G-6
                                                                         ASA
            ASA             ASA                           ASA
                                                                       Financial                                                            Under Secretary
         Manpower       Installation,      ASA        Acquisitions,                  General
                                                                      Management
         & Reserve        Energy &      Civil Works    Logistics &
                                                                           &
                                                                                     Counsel                                                  of the Army                        Chief of
          Affairs      Environments                   Technology                                                                                                               Public Affairs
                                                                      Comptroller

                                                                                                                                       SENIOR ARMY LEADERS
                                                                                                        Director
                                                                                                       Army Staff
                                                                                                                                                                                  Chief of
                                                                                                                                                 Chief of Staff                  Chaplains
                                                                                                                                                 of the Army
                                                                                                             Integrate




                                                                                                                                                                               The Surgeon
                                                                                                                                          Vice Chief of Staff                    General
              Army Staff                                                                                                                     of the Army

                       Army Chief                                                                                                                                             Provost Marshal
                                                                          G-8                                                                                                     General
             G1         of Staff for      Chief of         G-4                           G-2            G-3/5/7
                                                                       (Financial
         (Personnel)    Installation     Engineers      (Logistics)                 (Intelligence)    (Operations)
                                                                      Management)
                       Management
                                                                                                                                                                               Chief National
                                                                                                                                                                               Guard Bureau


                Defined responsibilities to ASAs                                                                             Sergeant Major           The Judge Advocate        Chief Army
                Oversight                                                                                                     of the Army                   General              Reserve
        ASA     Assistant Secretary of the Army



The Army’s command structure (Figure 2) consists of two                                    The operational Army consists of numbered armies, corps,
interdependent elements: the warfighting or operating force, and                           divisions, brigades, and battalions that conduct the full range
the generating force. Organizations reporting to HQDA include                              of global military operations. The institutional Army supports
Army commands, Army service component commands, and                                        the operational Army by providing the infrastructure necessary
direct reporting units.                                                                    to raise, train, equip, deploy, and ensure the readiness of all
                                                                                           Army forces.
                                                                                    Army General Fund and Working Capital Fund 3
                                                                                                                      Management’s Discussion and Analysis


Figure 2. Army Command Structure


                                                            Headquarters
                                                       Department of the Army



                                                                                                                                        SMDC/
                        FORSCOM       TRADOC           AMC                               USARCENT          SDDC         USASOC         ARSTRAT

                                                                                        USARNORTH

                                                                                   USARSOUTH

                                                                                  USAREUR

                                                                                USARPAC

                                                                           USARAF/SETAF




    USAASC             ATEC        USACIDC     USMA           ANC          MDW           USACE      MEDCOM        NETCOM/        INSCOM       IMCOM
                                                                                                                  9TH SC(A)

  LEGEND
                                   FORSCOM     Force Command                               MDW              Military District of Washington
    Army Command                   TRADOC      Training and Doctrine Command               USACE            US Army Corps of Engineers
           Army Service            AMC         Army Materiel Command                       MEDCOM           Medical Command
    ASCC   Component Command       USARCENT    Army Central                                NETCOM/9th SC    Network Command/9th Signal Command
    DRU    Direct Reporting Unit   USARNORTH   Army North                                  IMCOM            Installation Management Command
                                   USARSOUTH   Army South                                  SMDC             Space and Missile Defense Command
                                   USAREUR     US Army Europe                              ARSTRAT          Army Strategic Command
                                   USARPAC     US Army Pacific                             USAASC           US Army Acquisition Support Center
                                   USARAF      US Army Africa                              SDDC             Surface Deployment and Distribution Command
                                   SETAF       Southern European Task Force                ANC              Arlington National Cemetery
                                   USASOC      US Army Special Operations Command          INSCOM           US Army Intelligence and Security Command
                                   USACIDC     US Army Criminal Investigation Command      ATEC             US Army Test and Evaluation Command
                                   USMA        US Military Academy




The Army’s AC consists of full-time Soldiers assigned to the                    The USAR is the primary federal reserve force of the Army. The
operational and institutional organizations that perform day-                   USAR provides specialized units and resources to support and
to-day Army missions. The RC consists of the ARNG and the                       sustain the deployment of Army forces around the globe. In
USAR. The Congress annually reviews and mandates the number                     addition, it is the primary source for individual Soldiers needed
of Soldiers that the Army may maintain.                                         to augment headquarters staff and fill vacancies in the AC.

The ARNG has a dual role. Its first role is that of a state military            The Army has been meeting the nation’s challenges for over
force to train for, and respond to, domestic emergencies and                    237 years, and it remains positioned to defend America regardless
other missions required by state law. The ARNG can also serve                   of future challenges.
a federal role as part of the operational force, providing trained
and ready forces for wartime, national emergencies, and other
contingencies. Unless federally-mobilized, ARNG units are
commanded by their state executive, usually the governor.


Performance Goals, Objectives, and Results
The Army is poised to meet its performance goals by the end of                  and affordable manner. The Army will make fiscally-informed
FY 2013. The Army will continue to strengthen the profession of                 investments, thoroughly reviewing costs, benefits, risks, and
arms and preserve the all-volunteer force. It will build a versatile            potential areas for trade-offs. It will fully align requirements,
mix of capabilities, formations, and equipment; and continue                    acquisition, resource, and sustainment processes to ensure they
efforts to enhance the capabilities of its Soldiers by maintaining              are collectively focused on a common goal. Finally, the Army
a sharp focus on Army Families. In this regard, it is critical that             will develop, field, and sustain the right equipment to provide
the Army implements a modernization plan that enables it to                     Soldiers and units the capabilities they need to be successful.
develop, field, and maintain equipment in a more responsive
4     Fiscal Year 2012 United States Army Annual Financial Report




Soldiers part of an expeditionary sustainment command                               A Soldier makes the commitment to reenlist. Photo courtesy of the
prepare to perform sling load operations. U.S. Army Photo by                        U.S. Army.
Army Sgt. Peter J. Berardi.

                                                          Sustain
                                                          The Army must maintain the quality and viability of the all-volunteer force, as well as
                                                          the many capabilities it provides the nation, in order to sustain Soldiers, Families, and
                                                          Army Civilians2 in an era of persistent conflict. Sustainment ensures that Soldiers and
                                                          their families have the quality of life they deserve, leading to improved retention rates.


                                                          Manning the Force—Recruiting and Retaining Soldiers
                                                          While the recruiting environment is challenging, the Army remains committed to
                                                          bringing only the very best into its ranks. The Army’s goal is to achieve no less than
                                                          a 90 percent rate of new recruits with Tier 1 educational credentials, i.e., high school
                                                          diplomas or above. The Army achieved over 95 percent Tier 1 recruits in FY 2012,
                                                          down slightly from FY 2011 due to a pilot program that attempts to identify the
                                                          motivation level of General Equivalency Diploma or alternative credential Tier II
                                                          applicants. Without the pilot, the Army would have achieved 99.9 percent Tier 1
                                                          accessions. The overall attrition rate remained virtually unchanged over the last three
                                                          years. The static rate and overall quality of recruits are positive signs that the Army is
                                                          recruiting, training, and retaining a highly-qualified force.

Table 1. Quality – Percent Tier 1                                  TIER 1              FY 2008          FY 2009           FY 2010       FY 2011        FY 2012
Educational Credential Holders
                                                                              Goal             90%             90%            90%             90%             90%
(Active Component)1
                                                                            Actual             83%             95%            98%             99%             96%

                                                          Note 1: Performance Measure. The Army met its recruiting requirements in all components. A weak national
                                                          economy in FY 2013 is also expected to yield high-quality recruits.




2
 	 It is Army policy to capitalize the words “Families” and “Civilians” when used in a series with the word “Soldiers.”
                                                                                Army General Fund and Working Capital Fund 5
                                                                                                                     Management’s Discussion and Analysis


Table 2. Accessions                                                         FY 2008       FY 2009       FY 2010        FY 2011      FY 2012        FY 2012
                                                                             Actual        Actual        Actual        Actual        Goal           Actual

                                                 Active Component              80,517        70,045        74,577        64,019        58,000        53,324

                                                                Army
                                                                               62,397        52,014        57,204        47,206        43,000        39,796
                                                      National Guard

                                                        Army Reserve           26,945        23,684        26,795        19,996        16,000        14,195



Table 3. Active Component End                                                FY 2008         FY 2009           FY 2010          FY 2011         FY 2012
Strength Within 2 Percent1
                                                                   Goal         529,191          552,400          562,400         569,400          562,000
                                                       Congressional
                                                                                525,400          532,400          562,400         569,400          562,000
                                                            Baseline
                                                                 Actual         543,645          553,044          566,045         566,500          551,503
                                                        Percent Delta             +3.5%            +3.9%            +0.7%            -0.5%            -1.9%
                                                Note 1: Performance Measure. The number of Soldiers on active duty at the end of the year; data are as of the
                                                end-of-month (EOM), July 2012. Under presidential-declared states of national emergency, end-strength limits
                                                may be waived. (End of FY data available in the second week of October.)




Table 4. Reserve (ARNG and                                                  FY 2008          FY 2009           FY 2010          FY 2011         FY 2012
USAR) End Strength Within
2 Percent1                                                         Goal        556,300          563,200          563,200          563,200          564,200

                                                                Actual         557,375          563,688          567,296          567,010          559,610

                                                       Percent Delta             +0.2%            +0.1%            +0.7%            +0.7%             -0.1%
                                                Note 1: Performance Measure. The number of Soldiers in the ARNG and the USAR at the EOM, August 2012.




A National Guardsman pulls security from his battle position during an escort detail in Afghanistan. Photo courtesy of the U.S. Army.
6   Fiscal Year 2012 United States Army Annual Financial Report



Table 5. Active and Reserve                                          FY 2008       FY 2009       FY 2010        FY 2011      FY 2012       FY 2012
Component Retention1                                                  Actual        Actual        Actual        Actual        Goal         Actual2

                                          Active Component              73,913        68,387        60,000       43,626         61,800       61,800
                                                        Army
                                                                        29,618        36,672       30,472        39,750         53,077       53,077
                                              National Guard
                                                Army Reserve            16,523        11,163       10,330        12,934         13,106       13,810
                                         Note 1: Actual retention accomplishments are recorded no later than 18 October 2012.
                                         Note 2: Performance Measure. The number of Soldiers reenlisted during a given FY against published goals. All
                                         components achieved their retention mission for FY 2012 as of the end of September 2012. The AC FY 2012
                                         actual includes Soldiers who extended enlistments for deployment through the Deployment Extension Incentive
                                         Pay program.

                                         Due to overseas contingency operations (OCO), several special skills remain in high
                                         demand. In FY 2012, the Army continued to offer a Critical Skills Retention and
                                         Selective Reenlistment Bonus to attract and retain personnel in specific skills areas,
                                         including Special Forces and Military Intelligence. These bonuses, which are vital
                                         tools in retaining Soldiers who possess valuable combat experience, have helped the
                                         Army to exceed its FY 2012 retention goal. Careful and deliberate adjustments to
                                         bonuses, including designation of targeted critical skills, ensured the correct mixture of
                                         skilled Soldiers.

                                         Recruiting and retaining Soldiers—confident, adaptive, competent, and able to
                                         handle the full complexity of 21st century warfare in a combined, joint, expeditionary
                                         environment—is a highly-competitive endeavor. The Army will continue to develop and
                                         implement programs to address this challenge.

                                         Improving the Quality of Life for Soldiers and Their Families
                                         In order to retain Soldiers, the Army must care for them and their families by providing
                                         exceptional programs and services that both meet their needs and support their well-
                                         being. The Army is committed to improving the quality of life of AC, ARNG, and
                                         USAR Soldiers and their families equal to the quality of their service to the nation.
                                         The Army demonstrates this commitment through the Army Family Covenant and the
                                         Army Family Action Plan.

                                         The Army Family Covenant supports and sustains the resiliency of an all-volunteer force
                                         through strong and vibrant Soldier and family programs, health care, housing, school
                                         support, child and youth services, and recreational and quality-of-life opportunities
                                         for single Soldiers. The Army has joined forces with communities across the country
                                         to inspire support that complements or fills gaps in existing Army programs. These
                                         programs provide Soldiers and families of all components with a balanced array of
                                         services that meet the unique demands of a military lifestyle. Such services foster life-
                                         skill competencies, strengthen coping skills, encourage resiliency instead of dependence,
                                         and offer short-term support and assistance when needed.

                                         Other improvements during FY 2012 include:

                                        ÂÂ Increasing the number of military family life consultants from 112 (FY 2005)
                                           to 626.

                                        ÂÂ Completing 107 child development centers since January 2008 to provide an
                                           additional 17,236 child care spaces and significantly reduce waiting lists at
                                           49 installations.
                                                                         Army General Fund and Working Capital Fund 7
                                                                                                         Management’s Discussion and Analysis


     ÂÂ Maintaining a 97 percent national accreditation rate of
        Army child development programs.

     ÂÂ Providing over one million hours of respite child care to
        reduce stress on deployed families.

     ÂÂ Supporting more than 103,000 geographically-
        dispersed AC and RC children, in 40 states who
        participated in youth outreach activities, camps, and
        workshops offered through Operation Military Kids.

     ÂÂ Maintaining Soldier and Family Assistance
        Centers (SFAC).

     ÂÂ Placing thousands of spouses in jobs through the Army
        Spouse Employment Program.

Warrior Care and Transition
With the continued maturation of the Army’s Warrior Care
and Transition Program (WCTP), wounded, ill, and injured
Soldiers and their families are receiving the care management
and support they need and deserve. The Warrior Transition
Command (WTC) was created to ensure focused and effective
management across all aspects of the WCTP. In FY 2012, the
Army dedicated $800 million to equip the WCTP with support
staff, training, information technology (IT), and to make
investments in 20 facilities, 31 SFACs, and 64 administrative
headquarters. Staff across the enterprise included all components,
and contractors—almost 4,000 squad leaders, platoon sergeants,
nurse case managers, and support staffs coordinating care
in warrior transition units (WTUs) and community-based
WTUs (CBWTU).

With the WTC leading the way, the Army cares for over 21,000
Soldiers and veterans annually. The WTC’s Wounded Warrior
                                                                      A Soldier holds the hand of his son upon his return after a year-
Program assists and advocates for over 12,000 severely-wounded,       long deployment to Kosovo. DoD photo by Senior Master Sgt.
ill, and injured Soldiers, veterans, and their families and           David H. Lipp. (Released)
caregivers. Their wounds, illnesses, and injuries range from loss
of hearing or vision, to amputations, burns, paralysis, traumatic     To help each warrior to return either to the force or to veteran
brain injury, and post-traumatic stress, or to incurable and fatal    status, the Army developed a systematic framework known as
diseases. This population is supported by over 200 advocates          the comprehensive transition plan (CTP). The CTP is a six-
located at major military treatment facilities, Army installations,   part process, which includes an individual plan created by the
Department of Veterans Affairs (VA) medical centers, and in local     Soldier with the assistance of a dedicated cadre and support
communities throughout the continental United States, Alaska,         personnel. Using a standardized framework, this process enables
Hawaii, Puerto Rico, and Germany. Advocates function as               wounded and ill Soldiers to customize their recovery plans, and
integrated, collaborative members of multidisciplinary healthcare     empowers them to set and reach their personal goals. In FY 2012,
and benefits teams within the WTUs, CBWTUs, and VA. There             funding helped approximately 50 percent of the wounded
are over 2,000 wounded warriors, supported at nine CBWTUs,            warrior population return to duty. Other wounded warriors have
who have been provided the opportunity to heal in their home          successfully transitioned to civilian life to further their educations,
communities with their families. Approximately 8,050 additional       or enter the workforce. The program’s initial success can be
wounded warriors are supported at 29 WTU locations across             attributed, in part, to an aggressive, non-clinical rehabilitative
the nation.                                                           approach. The funding-supported pillars of this program include
                                                                      activities such as:
8   Fiscal Year 2012 United States Army Annual Financial Report


     ÂÂ Adaptive reconditioning (active and mental                   The Army executed four unaccompanied personnel housing
        stamina activities).                                         privatization initiatives for staff sergeants and above at Forts Irwin
                                                                     (CA), Drum (NY), Bragg (NC), and Stewart (GA). Together,
     ÂÂ Inauguration of the warrior games at the U.S.                these facilities will provide 1,586 one- and two-bedroom
        Paralympic athlete competition.                              apartments in areas that have limited civilian-owned rental
                                                                     properties available.
     ÂÂ Comprehensive Soldier fitness—performance
        enhancement.

     ÂÂ Resiliency training.                                         Prepare
                                                                     To prepare Soldiers, units, and equipment, the Army must
     ÂÂ Programs geared toward the holistic healing and              maintain a high level of readiness for the current operational
        mental and physical fitness of wounded, ill, and injured     environments, especially in Afghanistan and Iraq, while taking
        Soldiers.                                                    into consideration potential future conflicts. The Army is
                                                                     continually adapting training and materiel to keep pace with an
                                                                     evolving enemy. It remains committed to providing deploying
Improving Soldier and Family Housing
                                                                     Soldiers with the best available equipment in order to maintain a
The Army’s commitment, coupled with the Congress’ support
                                                                     technological advantage over any enemy soldiers may face.
for housing programs, brings to reality our pledge to provide
a quality of life for Soldiers and their families commensurate       Providing Support for Operational Requirements
with their service. In concert with the private sector, the Army     The pace of operations in the new security environment presents
continues to bring to bear considerable effort to improve both       a number of significant force management challenges. Due to the
family housing and the Barracks Modernization Program.               Army’s global commitments, approximately 179, 000 Soldiers
The Army’s inventory of inadequate family housing has been           are deployed or forward-stationed in nearly 170 countries. As
eliminated at enduring U.S. locations through privatization          of 20 September 2012, approximately 551,600 personnel were
and the demolition or divestiture of uneconomical and excess         serving in the AC, and approximately 47,600 RC Soldiers were
units. The Army will move forward to improve or replace family       on mobilization orders.
residences worldwide in order to provide adequate housing and
to meet Defense Department goals; these improvements are             Repeated deployments affect recruiting and retention and have
reflected in its property records.                                   a significant impact on the Army’s ability to care for Soldiers
                                                                     and their families. Consequently, it is examining and pursuing
The privatization of homes at 44 installations has been completed    numerous initiatives that will reduce force-management risk in
on schedule. These 44 installations have an end-state inventory of   meeting today’s challenges, and in better positioning Soldiers for
85,424 homes. The Residential Communities Initiative program         the future.
is in the portfolio and asset management phase.

The Army is on track to eliminate inadequate, common area
latrines in permanent party, single-Soldier barracks, and to
complete the modernization program in the near future. The
FY 2013 permanent-party barracks projects—which were
deferred or placed on hold to reduce the risk of over-building
due to pending stationing decisions—will be addressed in the
FY 2015-2019 Program Objective Memorandum (POM). As of
FY 2012, the Army has 147,913 adequate spaces funded out of
154,505 spaces required.

The Army’s strategic Training Barracks Modernization Program
remains on course for completion in FY 2017, with new barracks
available for occupancy in FY 2019. The construction goal is to
eliminate the deficit of spaces and to complete restoration and
modernization of 91,530 soldier spaces during the time potential
occupants attend basic training, one-station unit training, or       Looking out the side of a UH-60 Black Hawk helicopter in
advanced individual training. As of FY 2012, 60,633 spaces have      preparation to land and dismount while conducting training for
                                                                     contingency operations. Photo courtesy of the U.S. Army.
been funded.
                                                                                            Army General Fund and Working Capital Fund 9
                                                                                                                                 Management’s Discussion and Analysis




A Soldier places a Bangalore torpedo during a platoon concertina wire breach in a local training area after a 12-month deployment in
support of Operation Enduring Freedom. U.S. Army photo by Sgt. Heather Denby.


The Army Force Generation (ARFORGEN) process uses a                                           ÂÂ Enable the Army to surge additional BCTs augmented
three-stage cycle (Reset, Train/Ready and Available) and a                                       by all required supporting organizations (given
modular approach to unit structure to create a sustainable process                               appropriate mobilization authority).
employing a rotational, more predictable plan for deployments
with the ability to surge combat power when needed for major                           Training Soldiers
operations. When fully operational, ARFORGEN will enable the                           Initial entry training develops warfighting capability through
Army to effectively and efficiently schedule fully-ready units for                     training in individual warrior tasks and battle drills. To ensure
deployment. In turn, this will:                                                        tasks remain relevant to the operating environment, the Army
                                                                                       reviews and updates these tasks and drills every two years.
     ÂÂ Reduce uncertainty for Soldiers, families, and the local
        communities that support installations.                                        The Army continues to augment its ability to conduct irregular
     ÂÂ Improve the availability of forces for combatant                               warfare through several multi-functional courses. For example,
        commanders.                                                                    some courses build on language and cultural competencies
                                                                                       while others improve Soldiers’ and civilians’ knowledge of,
     ÂÂ Generate a continuous number of available BCTs,                                and capabilities in, electronic warfare, red teaming (opposing
        augmented by all required supporting organizations                             forces), counterterrorism, weapons of mass destruction, civil
        (given appropriate mobilization authority).                                    affairs, information operations, counter-explosive hazards, and
                                                                                       operational law.

Table 6. Individual Training1                                                                      Initial Military Training
                                                                                              Advanced      Basic Officer      Officer         Warrant          Initial
                                                            Basic Combat    One-Station       Individual     Leadership       Candidate      Officer Entry   Entry Rotary
                                                              Training      Unit Training      Training        Course          School           Course           Wing

                           2010 Trained (actual)                75,922          32,126         105,050           18,977            2,306           2,273           1,132

                          2011 Trained (actual)2                73,830          29,583           91,497          17,212            1,424           2,225           1,260

                         2012 Trained (interim)2                49,229          17,419           58,286          11,302              852           1,562             649

 Note 1: This data represents active Army, ARNG, and USAR students graduating from AC schools. All data is based on start date, i.e., if a class started in FY 2011 and
 graduated in FY 2012, it is counted in the FY 2011 data. Example: Soldiers who attended the basic combat training class that started in August 2010 (FY 2011), and
 who graduated in November 2011 (FY 2012), are not included above.
 Note 2: The actual trained data for 2011 and the interim trained data for 2012 are as of 17 September 2012.
10   Fiscal Year 2012 United States Army Annual Financial Report


                                                        Training Units
                                                        In FY 2012, the Army provided trained and ready Soldiers to commanders around
                                                        the globe in addition to meeting critical homeland defense missions. To make certain
                                                        Soldiers were combat ready in FY 2012, they engaged in a balanced mix of live, virtual,
                                                        and constructive training. The AC and RC executed a focused and demanding ground
                                                        and air training plan, which included actual miles driven and hours flown as well as
                                                        virtual miles driven and hours flown through the use of simulators. In FY 2012, home-
                                                        station training miles and hours executed were affected by limited dwell times between
                                                        rotations, equipment reset requirements, and changes in unit deployment schedules into
                                                        theaters that were not programmed.


Table 7. Ground and Air
Operational Tempo (OPTEMPO) 1, 2                            FY 2009               FY 2010               FY 2011               FY 2012              FY 2012
                                                             Actual                Actual               Actual                 Goal3                Actual
          AC Ground OPTEMPO (Mileage)                             605.0                427.0                 386.0                 635.0                  1,080.0

           AC Air OPTEMPO (Flight Hours)                           10.0                    9.9                 11.4                  10.4                   10.2

      ARNG Ground OPTEMPO (Mileage)                               119.0                123.0                 108.0                 636.0                   707.0

       ARNG Air OPTEMPO (Flight Hours)                                  9.4                9.1                  8.8                   5.5                     8.0

       USAR Ground OPTEMPO (Mileage)                              146.0                132.0                 106.0               1,139.0                  1,011.0

        USAR Air OPTEMPO (Flight Hours)                                 5.5                5.1                  7.3                   4.6                     5.9

Note 1: In FY 2012 tank miles were replaced with full spectrum training miles, which is a composite training mile and includes M1, M2, M3, UA-HMMWV and
STRYKER variants for AC and ARNG. The USAR includes MTVs and PLS support vehicles.
Note 2: FY 2009 through FY 2012 reflects home-station execution only.
Note 3: FY 2012 goal is base only funding; execution includes both base and OCO. FY 2012 amounts are estimates based on execution as of September 2012.




                                                        Training Support Systems
                                                        The Army’s Training Support System (TSS) enables training at home stations, combat
                                                        training centers (CTC), and institutions by creating realistic conditions that reflect the
                                                        operational environment. The TSS provides and operates training support products,
                                                        services, and facilities in the form of critical training enablers, such as ranges and targets;
                                                        live-virtual-constructive and gaming training aids, devices, simulators, and simulations
                                                        (TADSS); instrumentation systems; training facilities; maintenance support of TADSS;
                                                        and training support operations and management.

                                                        As a result of Army Training Summit III held in FY 2012, the Army has identified
                                                        capabilities needed to adapt TSS to support ARFORGEN training requirements and
                                                        lessons learned from current operations. At home stations, training must support
                                                        Soldiers, leaders, and units training for decisive action. Ranges are being modernized to
                                                        integrate digital systems that enable squads and platoons to train as they fight, as well as
                                                        to provide commanders and leaders with objective data to assess their units’ performance
                                                        and training levels. New TSS capabilities are being fielded to support requirements
                                                        driven by the Army Campaign Plan. A persistent live, virtual, and constructive
                                                        integrated training environment will be implemented at selected home stations. This
                                                        architecture links Home Station Instrumentation Training Systems in live training
                                                        areas to mission training complexes (MTC), which house constructive simulations and
                                                        gaming to virtual TADSS.
                                                                        Army General Fund and Working Capital Fund 11
                                                                                                        Management’s Discussion and Analysis


                                                                     Adapting Training
                                                                     In FY 2012, in spite of deployment demands, the Army
                                                                     conducted 24 of 24 planned rotations at the maneuver CTCs,
                                                                     36 exercises with the Mission Command Training Program,
                                                                     and 30 mission command seminars. The CTCs provide realistic
                                                                     joint and combined-arms training that approximates actual
                                                                     combat consistent with Army and joint doctrine. The CTCs are
                                                                     at the core of the Army’s collective training strategy and have
                                                                     dedicated resources beyond those available at home-station
                                                                     training sites. Training is specifically tailored to prepare units for
                                                                     in-theater conditions as well as to provide a free-thinking-enemy-
                                                                     and-lessons-learned feedback through a professional staff of
                                                                     observer controllers.

Moving through an obstacle during USAREUR Expert Field
                                                                     While the CTCs do retain the capability for major combat
Medical Badge training. U.S. Army photo by Visual Information
Specialist Gertrud Zach. (Released)                                  operations-oriented unit training—needed for other potential
                                                                     theaters of war and new modular brigades—the current focus is
                                                                     counter-insurgency operations and lessons learned from combat
                                                                     in Afghanistan and Iraq. The training environment emphasizes
                                                                     rapid change and adaptation to current activities while using
                                                                     improved facilities on the battlefield, and realistic scenarios. As
                                                                     mission requirements are reduced in Afghanistan, the CTCs
                                                                     have started to conduct decisive action rotations that will better
                                                                     prepare the Army’s formations for a wider range of contingencies.

                                                                     The BCTs that are not scheduled to deploy to theater conduct a
                                                                     decisive action rotation. While home-station training focuses on
                                                                     battalion staff and company-level collective training proficiency,
                                                                     the CTCs have the unique capability to train brigade-level and
                                                                     above staffs and to develop battalion-level and above collective
                                                                     tasks. The complex, event-driven scenarios challenge the BCTs to
                                                                     execute multiple, simultaneous missions that include integrated
Students master rappeling from a helicopter during training. U.S.    enablers from the Army and the joint community.
Army photo by Sgt. Richard Wrigley.
                                                                     Growing Adaptive Leaders
                                                                     The Army has developed, and will continue to develop, leaders
The Army is also modernizing the MTCs and training
                                                                     who have proven themselves competent, confident, and agile
simulations to upgrade leader and battle-staff training
                                                                     at every level, and in every cohort and component, in order
and mission-rehearsal capabilities for deploying units. The
                                                                     to meet the current and future challenges. Army leaders have
MTCs give units the ability to train and to sustain critical
                                                                     performed magnificently and resiliently in two wars and under
individual, operator, and battle-staff skills on digital command,
                                                                     a harsh operations tempo, resulting in a rich body of knowledge
control, communications, intelligence, and surveillance and
                                                                     throughout the Army. The current operational environment
reconnaissance systems. The MTCs also network with other
                                                                     proves that leaders must possess skills beyond those of pure
installations and simulations to support joint training exercises.
                                                                     tactical warfighting. It demands skills in such disciplines as
The MTC serves as the hub for an installation’s live, virtual,
                                                                     irregular warfare, information operations, negotiation, cultural
constructive, and integrated-training environment.
                                                                     awareness, stability and reconstruction operations, as well
                                                                     as foreign language proficiency—and all without losing a
Army TSS—including, manpower and operations support
                                                                     warfighting focus.
required to maintain and operate TADSS—must continue
to keep pace with equipment modernization and Army
transformation. This will ensure that training supports current
operations, addresses ARFORGEN training and readiness
requirements, and enables training for full spectrum operations.
12   Fiscal Year 2012 United States Army Annual Financial Report


                                                          Due to the current high operational demand, many Army leaders are unable to
                                                          attend professional military education (PME) at the optimal time in their career. As
                                                          a result, the Army has a large backlog at nearly all educational levels in both the AC
                                                          and RC. To slow the growth of the backlog, the Army employed mobile training
                                                          teams for Noncommissioned Officer Education System courses and increased the use
                                                          of distributed learning to conduct PME within the constraints of ARFORGEN. As
                                                          mission requirements change, the Army expects an increasing number of leaders will be
                                                          available to attend PME, which, in turn, will reduce the current backlog.

Table 8. Professional Development
(AC Schools Only)1                                            Warrior Leader        Advanced Leader          Senior Leader
                                                                                                                                   Intermediate Level
                                                                                                                                   Education Resident
                                                                                                                                                        Senior Service College
                                                                                                                                                          (SSC) Resident &
                                                                 Course                 Course                  Course            (ILE), Common Core2     Distance Learning

                          2010 Trained (actual)                        30,190                   12,717                 9,893             1,124/912                198/326

                         2011 Trained (actual)3                        29,022                   18,930               10,795              1,071/614                210/338

                        2012 Trained (interim)       3
                                                                       49,229                   17,419               58,286                   0/634               509/330
Note 1: This data represents active Army, ARNG, and USAR students graduating from active component schools. All data is based on start date (i.e., if a class starts in
FY 2011 and graduates in FY 2012, it is counted as FY 2011 data).
Note 2: The 2012 resident ILE classes do not graduate (1,201 inputs) until December 2012 and June 2013.
Note 3: Actual 2011 trained data and interim 2012 trained data are as of 17 September 2012.




                                                          The Army is keenly aware of the valuable contributions made by its civilian corps
                                                          in supporting the National Military Strategy. Here, too, it must provide training,
                                                          education, and operational experiences that develop and improve the leadership
                                                          competencies which, collectively, enhance this cadre’s ability to support Soldiers,
                                                          the Army, and the nation. To advance this goal, the Army revamped its Civilian
                                                          Leader Development Program in FY 2012 to better align it with the Military Leader
                                                          Development Program. Specifically, the Civilian Education System (CES) meets the
                                                          Secretary of the Army’s mandate that the leaders of tomorrow be adaptable and multi-
                                                          skilled. This mandate demands a centralized education, training, and development
                                                          program in which to develop civilian leaders who—in both operational and institutional
                                                          capacities, and in evolving environments—can meet and succeed in their missions.



Table 9. Civilian Professional                                                                                               Industrial College of      Civilian Education
Development                                                                                       Army War College            the Armed Forces                System

                                                                               2012 Inputs                          14                          7                   56,344



                                                          The CES uses leadership competencies derived from those set by the Department
                                                          of Defense (DoD) civilian leader development framework and those identified by
                                                          the Center for Army Leadership. The CES courses support and promote career path
                                                          requirements, professional development, and life-long learning and self-development.
                                                          Section 1113 of the 2010 National Defense Authorization Act (NDAA) and the
                                                          Federal Supervisory Training Act outline specific requirements for the development of a
                                                          mandatory supervisor training course for all DoD supervisors, both civilian and military.
                                                          In point, supervisor training must include the use of new NDAA authorities, instruction
                                                          on prohibited personnel practices, and mentoring of new supervisors. First-time
                                                          supervisors, who are in the job less than two years, are required to complete training no
                                                          later than one year from the date on which they are appointed to a supervisory position.
                                                                          Army General Fund and Working Capital Fund 13
                                                                                                         Management’s Discussion and Analysis


The Army has revised its Supervisor Development Course to meet          equip coalition partners with supplies and materiel. The Office
the NDAA requirements. Training for all supervisors of civilian         of the Deputy Chief of Staff (ODCS), G-3/5/7, requested that
employees promotes the development of world-class leaders and           the U. S. Army Audit Agency (USAAA) audit the ACSA process
provides opportunities for new managers and supervisors to              to (1) determine if Army organizations are fully aware of all
interact, share experiences, and learn from each other. Supervisor      transactions attendant to issuing ammunition to coalition forces,
training develops a diverse cadre of leaders capable of managing        and (2) look at existing controls to determine their adequacy. The
across the military, ensuring the continuity of the leadership          ODCS, G-4, established itself as the lead agency for this audit as
and supervisory pipeline, and promoting the Army’s vision for           it is heavily involved in the ACSA ammunitions process.
competency-based development across the leadership continuum.
                                                                        During the audit’s first phase, the USAAA determined that
In direct support of the Secretary of the Army’s initiative to          Army organizations within the chain were not fully aware of
transform the Army civilian workforce, the Civilian Training            the scope and breadth of transactions conducted by Army
and Student Account (CTSA) was established for Army-                    elements, Afghanistan and United States Forces – Iraq (USF-I).
funded civilians attending an Army SSC, i.e., the Army War              The USAAA also determined that organizations were unaware
College and the Industrial College of the Armed Forces. The             that units were transferring ammunition under the Office of the
account mirrors the Military Trainees, Transients, Holdees, and         Secretary of Defense (OSD) Lift and Sustain Program. There
Students account by reassigning SSC participants to an HQDA-            is no implementing guidance below the Joint Chiefs of Staff
centralized operational table of distribution and allowances. By        level for ACSAs, nor is there guidance below the OSD level for
assigning SSC participants to the CTSA, the losing command              the ACSA and Lift and Sustain Program. Although ACSAs are
can immediately backfill against the position and mitigate any          negotiated at the combatant commander level, they are executed
disruption to the organizational mission.                               at the service component level.

Based on its FY 2011 success, the Army continued using the
CTSA in FY 2012, and subsequently placed graduates in
enterprise positions most needed by the Army. Other recent
initiatives will be developed and implemented to ensure a robust,
accessible training program for all Army civilians. These initiatives
include, but are not limited, to the following:

     ÂÂ An Army-wide civilian training management system.

     ÂÂ Leader competency-based training in conjunction with
        the Army competency management system.

     ÂÂ Fellowships and experience-broadening interagency,
        international, and multinational assignments.

     ÂÂ Increased outreach and communication to the
        Army civilian corps with the goal of increasing CES             An Infantryman instructs Soldiers on proper use, handling of
        participation.                                                  the M2 .50 caliber machine gun during sergeants time training.
                                                                        Photo courtesy of the U.S. Army.
     ÂÂ NDAA-directed supervisory training.

Improvements to the CES, coupled with implementation
of transformative initiatives, will create a progressive human
resources management framework that puts a premium on
employee development performance and potential.

Acquisition and Cross Servicing Agreements (ACSA)
in the U.S. Central Command (CENTCOM) Area of
Responsibility (AOR)
There is concern that the military services are not fully
invested in, or often unaware of, the ACSA process within the
CENTCOM AOR as CENTCOM executes its authorities to
14    Fiscal Year 2012 United States Army Annual Financial Report




A CH-47 Chinook crew chief looks over cargo paperwork for               Soldiers conduct sling-load operations during an evaluation
the next load of supplies at the next forward operating base in         designed to integrate and mature the Army’s tactical network.
Afghanistan. Photo courtesy of the U.S. Army.                           U.S. Army Photo by Spc. Jeanita C. Pisachubbe.


The ODCS, G-4, established a HQDA Directive, Army                       and provide more than 40,151 individual equipment items to
Directive 2012-12, Interim Army Acquisition and Cross-Servicing         deployed Soldiers during FY 2012.
Agreements, Lift and Sustain, and Foreign Assistance Act Authorities,
which provides consistent guidance to assist Army service               The Army continues to invest in the ARNG and USAR to
component commands in ACSA execution. The directive was                 enhance their mission capabilities and to ready forces entering
signed by the Secretary of the Army on 30 April 2012, with the          the ARFORGEN cycle for deployment and homeland
goal of providing better accountability of all DoD materiel and         defense missions. The fleet age of trucks, combat vehicles,
services provided to other nations.                                     communications systems, and Soldier weapon systems continues
                                                                        to decline as new equipment is fielded to the RC. The ARNG
The RFI enhances warfighting capabilities through modernized            and USAR forces preparing to deploy are accompanied by the
technology in addressing the immediate requirements of Soldiers.        very best modernized equipment, eliminating the disparity
In the ARFORGEN operating cycle, a total of 61 BCTs, 20                 between the AC and RC, thereby achieving a critical goal in the
CABs, and numerous other OCO-deploying units—comprising                 effort to create strategic depth and operationalize the RC.
230,454 Soldiers—were fielded RFI equipment during FY 2012.

The U.S. Army REF harnesses current and emerging technologies           Reset
to provide immediate response to urgent equipment and materiel          The Army leverages all available resources—new production,
requirements of U.S. Army forces fielded globally. The REF’s            reset, and equipment redistribution, and cross-leveling to
priority is at the deployed brigade and BCT levels, and focuses         meet deployed and deploying unit equipment requirements.
on commercial off-the-shelf and government off-the-shelf                Modularity enables smoother transitions between units based
solutions in order to maximize responsiveness and minimize              on similar designs and equipment requirements. The goal is
risk. The REF maintains forward-deployed teams that interact            to ensure Soldiers have the necessary equipment to effectively
with units to identify, equip, and evaluate their requirements and      train and prepare for their next mission by (1) equipping AC
capability shortfalls. In FY 2012 alone, the REF introduced over        units to an S3, operations and training, level by return from
171 different types of equipment and provided more than 38,982          operations plus 180 days (up to 270 days for reset aircraft),
individual equipment items to deployed Soldiers and units. The          and (2) equipping RC units to the S3 level by return plus 365
REF is on track to introduce 179 different types of equipment           days. With FY 2012 supplemental appropriations support, the
                                                                        Army purchased equipment to fill critical shortages in support
                                                                           Army General Fund and Working Capital Fund 15
                                                                                                          Management’s Discussion and Analysis


of combat operations and restored equipment to a ready-to-fight          simultaneously executed the final phase of the withdrawal and
condition for resetting units. Each year, the Army grows closer          redistribution of equipment from Iraq.
to a fully-equipped force by working diligently to fill pre-existing
equipment shortages required to close strategic capability gaps          The Army met the 31 December 2011 presidential mandate in
while transforming BCTs and support units into a modern,                 accordance with the security agreement to withdraw all forces
strategically-responsive ground force.                                   from Iraq and complete the transition to the Department of State
                                                                         (DOS)-led United States Mission-Iraq. The Army redistributed
Modification Management Information System-Safety of                     equipment from Iraq to satisfy a variety of requirements,
Use Compliance Reporting                                                 including (1) supported operational needs for U.S. forces in
Army regulations state that AC and RC commands and direct                Afghanistan; (2) filled equipment shortages to rebalance the
reporting units are to report compliance to the applicable life          Army; (3) equipped coalition partners with transferred and
cycle management command in accordance with the time lines               loaned equipment to enhance their warfighting capabilities;
set out in the safety of use (SOU) message. Commands are to              and, (4) supported state and local government needs in the
report compliance via traditional mail or e-mail to program or           United States.
item managers. The previously-used reporting process made
compliance tracking difficult and the effectiveness of SOU risk          In addition to retrograding equipment from Iraq, the Army
mitigation efforts was unknown.                                          also redistributed equipment within Iraq to meet three
                                                                         critical missions:
The Army led a Lean Six Sigma (LSS) project in FY 2012 to
improve SOU compliance. Team members of the core group                        ÂÂ Enable Iraqi Security Forces (ISF) to attain minimum
consisted of Army Materiel Command, Aviation and Missile                         essential capability.
Command, Tank and Automotive Command, Communications
Electronics Command, Forces Command, and Training and                         ÂÂ Support the transition of responsibility to the DOS
Doctrine Command. The team analyzed the current compliance                       with required resources and capabilities as they assumed
process and determined that the existing process was insufficient                the mission in Iraq after United States Forces-Iraq
for reporting and tracking compliance.                                           (USF-I) departed.

The current Army system for tracking modification work                        ÂÂ Support the Office of Security Cooperation-Iraq
orders within the Materiel Management Information System                         (OSC-I) with required equipment to allow them to
(MMIS) was determined the right platform to improve SOU                          continue to advise the ISF and assist with foreign
reporting and compliance. The MMIS allows the Soldier to                         military sales transactions.
implement corrective actions within a system with which he or            The Army transferred equipment to the Government of Iraq
she is familiar and using on a regular basis. This fact, coupled         (GoI) under the provisions of three congressional authorities,
with MMIS accessibility increases SOU compliance and risk                outlined below:
mitigation; in addition, by utilizing the established MMIS
platform, programming expenses are minimized and the training                 ÂÂ Excess Defense Articles (Section 516 of the Foreign
requirement is nominal.                                                          Assistance Act of 1961 (22 USC 2321j)): 17,936 pieces
                                                                                 of equipment were transferred to the GoI, to include
A significant MMIS benefit is process standardization from the                   helmets and body armor, 5-ton cargo trucks, and older
initial reporting of actions to subsequent recording of compliance               model M16A2 rifles. Equipment was excess to Army
results. Its availability spans senior leadership levels to the junior           requirements.
Soldier executing the SOU solution. Every subscriber to the
MMIS has the ability to track SOU distribution and message                    ÂÂ Non-Excess Materiel (Section 1234 of the FY 2010
compliance to ensure the risk mitigation measures employed.                      National Defense Authorization Act): 810 pieces of
Effective 1 October 2011, MMIS became the Army’s compliance                      Army non-excess equipment were transferred to the
tool for all ground safety and maintenance messages. The Army                    GoI, including M1114 up-armored high-mobility,
will continue to monitor SOU compliance.                                         multipurpose-wheeled vehicles (HMMWV);
                                                                                 .50 caliber machine guns; medical sets; 40-ton low-bed
Drawdown in Iraq                                                                 trailers; maintenance contact trucks; communication
The drawdown in Iraq was the largest logistics operation since                   equipment; and palletized loading system flat racks.
World War II. While supporting the warfighter, the Army                          Equipment supported building capabilities for the ISF.
16    Fiscal Year 2012 United States Army Annual Financial Report


     ÂÂ Foreign Excess Personal Property (FEPP) (Federal                 Transform
        Property and Administrative Services Act of 1949,                To transform, the Army must continuously improve its ability to
        as amended (40 USC 701-704)): approximately                      meet combatant commander needs in a changing 21st century
        4.8 million pieces of equipment were transferred under           security environment. Transformation is a holistic effort to
        FEPP authorities. Equipment included commercial                  adapt how the Army fights; trains; modernizes; develops leaders;
        generators, containerized housing units, light sets, and         bases its forces; and supports Soldiers, Families, and Civilians.
        barrier material for force protection. The majority of the       Transformation is a journey, not a destination.
        equipment was essential to operating a base.
                                                                         Growing and Modularizing the Army
In total, the Army withdrew approximately 3.4 million pieces of          The transition to a BCT-focused organization was the right
equipment from Iraq, closed or transferred 505 bases to the GoI,         decision to confront today’s fluid counter-insurgency threats as
closed 22 supply support activities, and transferred 11 bases to         well as scenarios the Army is likely to face in the years ahead.
the DOS and OSC-I.                                                       The evolving nature of conflict—with diverse state and non-
                                                                         state actors employing hybrid and asymmetric approaches to
Enhancing Logistics Readiness                                            warfighting—will continue to necessitate the range of capabilities
The Army is implementing a Single Army Logistics Enterprise              inherent in modular BCTs.
as its overarching logistics, business, and information technology
framework. It is projected to provide department-wide efficiency         The Army’s employment of modular formations and their reset
gains of interoperability, traceability, accountability, auditability,   following sustained combat operations helps manage the impact
and transparency. Army logistics is making steady progress in            of high operational demand. As America’s dominant and decisive
fielding enterprise resource planning solutions through the              force, the Army remains committed to securing U.S. interests
Logistics Modernization Program (LMP) and Global Combat                  across the full range of operations—from aiding civil authorities
Support System-Army (GCSS-Army). The following are key                   and citizens at home, to combating insurgents abroad. The Army
FY 2012 accomplishments:                                                 continues to execute its most comprehensive transformation
                                                                         since World War II, while simultaneously conducting combat
Over the last year, the LMP continued to support AMC-                    operations with approximately 179,000 deployed Soldiers.
deployed sites and plan for future requirements. In November             The 21st century Army is meeting the challenges of a new
2011, LMP officially entered the sustainment phase of the of             security environment characterized by persistent conflict
the acquisition life cycle. A follow-on contract was awarded in          and adaptive enemies in complex environments. The Army
December 2011, which allowed the Army to continue to enhance             continues to make progress across a range of transformative areas,
the LMP and provide additional capabilities throughout AMC.              including its Modular Force Initiative (MFI), Army equipment
                                                                         modernization, reset of units returning from combat operations,
At the installation and tactical level, GCSS-Army was successfully       and the reconstitution of Army prepositioned stocks.
fielded to the 2nd Brigade, 1st Armored Division (2/1 AD) at
Fort Bliss (TX). In December 2011, the U.S. Army Test and                The results of the Army’s assessment of modular force
Evaluation Command reported the system effective, suitable, and          capabilities—including lessons learned from experiences with
survivable with limitations, based on the initial operational test       existing modular units—have driven several modifications. These
and evaluation conducted at the 2/1 AD in October 2011. The              modifications have reinforced the success of the modular concept
achievement of milestone “C” approval and the recommended                and have necessitated only minor alterations to the modular
approval for deployment positions the program for full fielding          design of these units. A direct result of the lessons learned over
in FY 2013.                                                              the last ten years has been an appreciation for the need to increase
                                                                         following modular capabilities: medical specialists, electronic
On the depot maintenance front, as of 31 July 2012, more than            warfare specialists, company intelligence support teams, and unit
95,000 items have been repaired at depot-level facilities. These         supply specialists.
items include more than 670 tracked vehicles, e.g., Bradley
fighting vehicles; more than 2,400 tactical-wheeled vehicles,            In addition to modular design changes, lessons learned have given
e.g., HMMWVs and medium- and heavy-tactical vehicles; and                rise to evolutions in equipment, doctrine, and training as well.
more than 18,800 individual and crew-served weapons, e.g.,               In adapting to an evolving enemy, meeting the nation’s defense
rifles, pistols, and machine guns. Meanwhile, the Army’s special         strategy, and fielding new items like vehicles, weapon systems,
repair teams brought additional depot-level expertise to the field,      unmanned aircraft, and body armor, the Army has continuously
completing repairs to over 486,000 items, including small arms,          refined its approach to how modular formations train and fight.
night-vision devices, and communications electronics as well as          It is within this overarching context, and the realities of new,
chemical and biological gear. In addition, the Aviation Special          constrained budgets, that the Army is assessing the optimal
Technical Inspection and Repair Program restored more than               modular designs with which to fight and win future wars.
315 fixed- and rotary-wing aircraft to combat capability.
                                                             Army General Fund and Working Capital Fund 17
                                                                                                   Management’s Discussion and Analysis


                               In FY 2012, the Army completed its MFI with the conversion of the final support
                               brigade formations and the decision to defer conversion of two brigades in Europe
                               until after the program budget review for FY 2013 (PBR 13). Through the MFI, the
                               Army achieved a common, combat-proven organizational design of equal or better
                               combat effectiveness compared to previous divisional brigades. The MFI creates units
                               of common organizational design and, coupled with Army’s growth since 2007, has
                               increased the number and agility of available BCTs to meet operational commitments
                               by simplifying and streamlining the composition of brigade-based combat and support
                               formations. This, in turn, enhances their ability to contribute to joint, interagency, and
                               multinational efforts. The Army continues to evaluate lessons learned and apply changes
                               to modular force designs based on operational experience. Additionally, the Training
                               and Doctrine Command assesses all facets of the modular force in training and combat
                               review and evaluates modular force doctrine, training, leader development, and battle
                               command.

                               By the end of FY 2012, the Army completed modular conversions for 43 of its 45 AC
                               BCTs. Conversion of the two legacy brigades in Europe was postponed with the release
                               of PBR 13. A subsequent decision has been made to inactivate those brigades as part
                               of the Army’s scheduled drawdown. In FY 2005, the ARNG began its transformation
                               with an accelerated plan that allows early conversion to the new BCT designs.
                               Transformation for an ARNG BCT can take as long as 48 months; however, by the end
                               of FY 2011, the ARNG had successfully completed the full conversion of all 28 BCTs to
                               a modular design. The ARNG BCTs are continuing to modernize in order to maintain
                               interoperability with their AC counterparts.



Table 10. BCT Transformation                                     FY 20082 FY 20092 FY 20102                    FY 20112        FY 2012
Summary1
                                          AC Transformed                   40             42             43              43                43

                                       ARNG Transformed                    28             28             28              28                28

                                      Total Transformed                    68             70             71              71                71

                                          AC Transforming                   2               3              1              1                 0

                                      ARNG Transforming                    28             21             14               0                 0

                                      Total Transforming                   30             24             15               1                 0

                                  Total Transformation                     98             94             86             72                 71
                               Note 1: Transformed means the unit has completed its initial reorganization and re-equipping to a modular
                               design within resource constraints, is participating in the ARFORGEN process, and may be used against a
                               requirement. Transforming means the unit is still undergoing initial reorganization and re-equipping to a
                               modular design within resource constraints. The last 2 Army brigades (numbers 70 and 71) do not begin
                               transformation until 2nd Quarter, FY 2013 and 1st Quarter, FY 2014, respectively, and are not counted in
                               this table.
                               Note 2: The prior year numbers displayed in the FY 2011 Table 10. BCT Transformation Summary, have been
                               updated to reflect the current information.



                               Providing Advanced Technologies
                               The Army’s Science and Technology (S&T) mission is to foster invention, innovation,
                               and the use of new technologies to leverage future force capabilities while exploiting
                               opportunities to apply new technology capabilities to the current force. The Army
                               depends on its S&T program to research, develop, and demonstrate high pay-off
                               solutions to hard problems faced by Soldiers in the ever-changing, complex, global
                               environments across the spectrum of conflict.
18   Fiscal Year 2012 United States Army Annual Financial Report


                                         The S&T community, in concert with combat developers in the Army’s Capabilities
                                         Integration Center and across the entire command, place great emphasis on
                                         demonstrating evolving advanced capabilities rather than on maturing current,
                                         isolated technologies. The foundation of this effort is a strong basic research program.
                                         Investments in basic research are critical to acquiring new knowledge in areas that
                                         hold great potential to advance operational capabilities, Army-wide. The conceptual
                                         knowledge and know-how that the S&T community mines, develops, and leverages
                                         will enable revolutionary advances and ensure paradigm-shifting, future operational
                                         capabilities. The S&T strategy is designed to place advanced capabilities in the hands
                                         of small units and the individual Soldier. In doing so, it depends on a strengthened
                                         partnership among the S&T, acquisition and requirements communities, the Army
                                         leadership, and Soldiers.

                                         The Army is also partnering with other services, combatant commands, and agencies in
                                         the Joint Capability Technology Demonstration Program to rapidly transition mature
                                         technologies into solid warfighter capabilities.

                                         Science and technology investments support Army modernization goals of developing
                                         and fielding affordable equipment by fostering technology-based invention and
                                         innovation. As it continues to diligently identify and harvest technologies suitable for
                                         transforming the force, it is ever vigilant of potential and emerging threats.

                                         The S&T community is sharpening research efforts to focus the core capabilities needed
                                         for the future and to identify promising leap-ahead technologies that will redefine
                                         existing paradigms of understanding. Ultimately, the focus of its work is Soldiers; it
                                         consistently seeks out new scientific avenues through which to increase their capabilities
                                         and ensure their technological superiority—today, tomorrow, and beyond.

                                         LandWarNet Operational Capabilities and Focus
                                         Over the past decade, the Army has transitioned to a continental United States
                                         (CONUS)-based expeditionary force and, as such, access to reliable, trusted information
                                         has become a critical aspect to mission success. Whether deploying to an austere theater
                                         of operations or responding to a humanitarian crisis, the Army is heavily reliant upon
                                         a robust infrastructure and services network that supports both warfighting and global
                                         business operations. The goal is to have a completely integrated, secure, accessible,
                                         interoperable, and affordable network providing information to Soldiers and mission
                                         partners when they need it, in any environment—from garrison to the tactical edge.
                                         The current focus is an enterprise approach, Army-wide, that will align communications
                                         requirements, technology priorities, and investment strategies with the ARFORGEN
                                         and operational capability set management. The envisioned goal is a network that will
                                         provide the most effective infrastructure and services for both the warfighter mission and
                                         business support operations.

                                         Over the past year, the focus of attention has continued to be on Army data centers
                                         and enterprise services, most notably enterprise e-mail. These initiatives are essential
                                         to the initial phases of building the network. The Army Data Center Consolidation
                                         Plan strategically consolidates data centers and applications, provides enterprise hosting
                                         as a managed service, and improves the security of Army information assets. The
                                         Defense Information Systems Agency-hosted DoD enterprise e-mail provides the Army
                                         unclassified and classified e-mail services from a managed services provider. Using DoD
                                         smartcard authentication, it allows access to e-mail at any time, from any location, and
                                         it has achieved more than a 1,000 percent increase in mailbox size. Both initiatives
                                         are significant for their cost-saving benefits and for advancing transformation of the
                                         Army’s network.
                                                                          Army General Fund and Working Capital Fund 19
                                                                                                          Management’s Discussion and Analysis


Developing the Network of 2020                                          infrastructure on Army installations and to perform installation-
The Army plans to incrementally modernize LandWarNet so                 level tasks and functions for service delivery. The Army Enterprise
that by 2020 it functions as a single, centrally managed, end-          Service Desk initiative will use an enterprise service management
to-end network that is less complex; provides assured, secure           approach to simplify issue and problem resolution and reduce the
access; supports joint operations; and enables an expeditionary         number of help desks required across the Army.
Army that can train as it fights. The intent is to make network
development, operation, and sustainment easier, more efficient,         Developing and implementing effective network standards
and more cost-effective while improving the Army’s cyber-               is fundamental to all aspects of network modernization.
security posture and providing optimal support to operations and        The LandWarNet must be integrated with the DoD joint
business processes.                                                     information environment (JIE) and its enterprise architecture
                                                                        must be consistent with JIE. The Army is also leveraging the
LandWarNet modernization hinges on four key objectives:                 JIE-compatible common operating environment (COE), which
building capacity; improving cyber security; providing end-to-          defines technical standards for computing environments from
end enterprise services; and implementing network standards.            enterprise servers to mobile devices. The COE promotes the
                                                                        use of commercial-off-the-shelf technology, embraces a non-
Increased capacity is essential to the end-to-end network               proprietary data transmission mode called Everything over
initiatives that support enterprise services and centralized network    Internet Protocol, and enables rapid insertion of new technologies
management. The Army will increase bandwidth; increase path             and interoperability with mission partners. Alignment with the
diversity to improve network capacity and data throughput; and          COE is mandatory for new systems and capabilities and the
modernize technical infrastructure on posts, camps, and stations        Army is working to bring existing programs of record and other
(P/C/S). Increased P/C/S capacity will also support the Secret          systems into compliance. The Army is also standardizing network
Internet Protocol Router Network, allied mission network, and           operations to unify the operations and security of both tactical
integrated training environment.                                        and enterprise-level network operations.

With rapidly increasing cyber threats, LandWarNet must protect          LandWarNet modernization will result in a more resilient,
and disseminate information from the top down and the bottom            affordable, available, responsive, and defendable network that
up. Security requirements call for improved visibility of the entire    improves the Army’s overall ability to accomplish its mission,
network and its real-time status as well as the ability to manage       while gaining efficiencies and streamlining processes in a fiscally-
every device residing on the network in order to reduce the risk        constrained environment.
of attack. Major security initiatives include identity, credential,
and access management, which aligns with federal and DoD                The projected savings from enterprise e-mail, which are identified
regulations and guidance. The Army is also implementing thin-           in an Army Audit Agency audit report, are $379.9 million for
or zero-client computing to limit local storage of information and      FY 2013 to FY 2017. The report was part of an Army response
help secure the network. With thin- or zero-client computing,           to the FY 2012 NDAA language. The Army is not expecting
desktop, laptop, or mobile devices serve as viewers to access           to realize savings for consolidating the data centers until after
information residing in secure facilities. Other security initiatives   FY 2016.
include information technology asset management, allowing
the Army to monitor and manage all devices connected to the             During FY 2012, the Army has completed, or is in the process
network for security, vulnerabilities, and access control.              of completing, the following activities to set the stage for
                                                                        implementation of the Network of 2020:
In modernizing the network, the Army will expand enterprise
services to simplify and extend access to data, applications,                ÂÂ Published the common operating architecture and
collaboration tools, and communications. It will provide                        implementing instructions.
current and new services, Army-wide, such as enterprise content
management and collaboration services, as well as voice, video,              ÂÂ Developed the requirement for establishing Army
chat, and other capabilities. The elimination of stovepipe video                enterprise collaboration capability.
and telephone systems will reduce costs and provide access to                ÂÂ Continued to implement enterprise e-mail and data
critical information and capabilities. In part, enterprise services             center consolidation.
will be enabled through cloud computing, which provides
on-demand access to resources such as servers and applications,              ÂÂ Continued to ensure that the Network of 2020 is
while supporting cost-effective access anytime, anywhere. The                   aligned with JIE capability which is being worked
Army baseline IT services establish standards for enterprise IT                 by the Joint Staff, J-6 (Command, Control, and
services, making it easier to consistently operate and maintain                 Communications).
20    Fiscal Year 2012 United States Army Annual Financial Report


                                                                     also to help protect equipment from damage. The project is at
                                                                     90 percent completion and is expected to be finished in July
                                                                     2013. The second of the three projects upgraded rail capabilities
                                                                     from 40 railcars per day to 60 railcars per day to fully meet rail
                                                                     requirements. This project was completed in February 2012.
                                                                     The third project expands the pier and hardstand to adequately
                                                                     position larger roll-on and roll-off and container ships. This
                                                                     project is 55 percent completed, with a projected completion date
                                                                     of July 2013. Both the paving, lighting, and fencing project and
                                                                     the pier and hardstand project were delayed from their original
                                                                     calendar year (CY) 2012 completion dates due to the removal
                                                                     of unexploded ordnance. This action is ongoing, and the revised
                                                                     dates are within the required completion window.

                                                                     The next two projects were for construction of a consolidated
                                                                     multi-class munitions handling, storage, and shipping facility and
                                                                     a depot level ammunition igloo at McAlester Army Ammunition
                                                                     Plant (AAP) (OK). These projects corrected ammunition,
                                                                     shipping, receiving, and storage deficiencies to provide more
                                                                     efficient and timely out-loading and ample ammunition storage,
A Soldier backs an M32 Bradley fighting vehicle into a C-17 cargo
                                                                     especially for small quantity shipments, which experienced a
bay for transport back to Fort Benning, GA. U.S. Air Force photo     50 percent increase in recent years. Both projects were completed
by Tech. Sgt. Michael OHalloran                                      in CY 2012.

Developing Force Generation Platforms in Support of
                                                                     The seventh project is the construction of a staging area complex
Army Force Generation
                                                                     at Fort Bragg (NC). This complex consolidates staging area
The FY 2012 saw the Army improve its ability to out-load power
                                                                     activities for efficiently deploying airborne units to meet global
projection platforms from CONUS, most notably through
                                                                     response force requirements; it is funded through the Grow
the launch of the Rapid Expeditionary Deployment Initiative
                                                                     the Army initiative. The project is 75 percent completed, with
(REDI). The deployments of recent years have been deliberate,
                                                                     anticipated completion scheduled in January 2013.
allowing deploying units to plan well in advance. However, the
Army recognizes the need to restore the ability to project power
                                                                     The remaining eight projects were newly initiated in FY 2012.
on little-to-no notice, and REDI, as part of the Army Power
                                                                     The first two of these projects are at the McAlester AAP. One
Projection Program (AP3), is the initiative to do so. A total of
                                                                     will upgrade the mainline rail line serving the McAlester AAP
15 military construction projects were completed, are ongoing, or
                                                                     from 90-pound steel rail to 115-pound steel rail in order to
have been initiated to support REDI during FY 2012.
                                                                     accommodate modern heavy rail equipment. Failure to replace
                                                                     the rail would have resulted in an unserviceable rail line and
Of the 15 projects, 7 were ongoing from FYs 2010 and 2011.
                                                                     contributed to delays in shipping ammunition to Soldiers. The
The first project, a rail head upgrade and expansion project at
                                                                     other project involves constructing a concrete pad extension
Fort Carson (CO), improves the out-loading of a heavy BCT
                                                                     from the ammunition magazines to truck parking areas.
from the current 240 railcars per day to the required 275 railcars
                                                                     Currently, ammunition loading onto trucks requires double-
per day. This project constructs five additional spurs to handle
                                                                     handling (forklift to small truck to loading dock transfer area
the growth at Fort Carson as documented in the Grow the Army
                                                                     to large truck). This project will allow direct loading from the
Stationing Plan. The project was completed in February 2012.
                                                                     forklift to large trucks. Both projects were initiated in FY 2012;
                                                                     the mainline rail project is 25 percent complete, and the AP3
The next three projects improve out-loading at the Charleston
                                                                     ammunition pad extension is 50 percent completed. Both
Naval Weapons Station (SC)—the only military general cargo
                                                                     projects are scheduled for completion by July 2013.
seaport in the southeast region. This seaport has been busy
supporting current operations in the Middle East for both
                                                                     The next new project is a ready building at Forbes Field
deployment and redeployment. The first of these three projects
                                                                     supporting air deployments at Fort Riley (KS). Current
upgrades the port’s paving, lighting, and fencing to improve
                                                                     facilities will not adequately handle the increase of Soldiers
security for equipment and personnel during deployment and
                                                                     plus equipment, which is documented in the Grow the Army
                                                                          Army General Fund and Working Capital Fund 21
                                                                                                         Management’s Discussion and Analysis


Stationing Plan. When completed, the ready building will process        training and deployment. This transformation created efficiencies
Soldiers and equipment air-deploying and redeploying to-and-            in core Army business processes.
from Fort Riley. Work has just begun, and project completion is
expected in April 2013.                                                 Under BRAC 2005, the Army closed 10 major and 1 minor
                                                                        installations, 387 RC installations, and 8 leased facilities.
The next three projects are new rail projects at Fort Benning           Additionally, it realigned 53 installations or functions and
(GA); Fort Sill (OK), and Camp Atterbury (IN). The new Fort             enabled the Army to establish multi-component headquarters,
Benning rail improvements increase railcar storage capacity so          joint Army training centers of excellence, joint bases, joint power
that railcars do not require call-up from commercial railyards          projection platforms, a human resources center of excellence,
(some up to 100 miles away). Increased on-installation railcar          and joint technical and research facilities. To accommodate the
storage will increase rail out-loading efficiency from 144 railcars     relocated units from the closed RC installations, BRAC 2005
per day to the full-up 183 railcars per day for a three-day heavy       authorized 125 new multi-component armed forces reserve
BCT load-out. The Fort Sill rail upgrade constructs a railroad          centers and realigned the USAR command and control structure.
wye, which allows railcars to be turned around on-post. Railcars
laden with equipment received at night must be correctly                With an investment of $17.8 billion during the FY 2006-2011
oriented for offloading (rail safety procedures do not allow            implementation period, the BRAC 2005 was more than three
equipment to back off railcars). If the railcars are oriented in        times larger than all four previous BRAC rounds combined,
the wrong direction, the commercial rail company serving Fort           and represented 51 percent of the overall DoD BRAC 2005
Sill must return to reorient the railcars as there is no way to         program. The BRAC’s operational efficiencies, combined with
turn railcars around at Fort Sill. Project award occurred in April      the divestiture of excess infrastructure, produced $1.0 billion
2012 with a scheduled completion date of August 2013. The               in annual net recurring savings for reinvestment in enduring
third rail project upgrades a railhead at Camp Atterbury from a         Army missions. The BRAC 2005 represented an unparalleled
40-railcar per day capability to the required 120-railcar per day       recapitalization of the Army’s infrastructure funding of 329 major
capability, thereby supporting the new power generation platform        construction projects valued at $13.5 billion.
to adequately outload mobilizing BCTs. This project was just
recently awarded; project completion is May 2014.                       The Army completed the conveyance of approximately
                                                                        46 percent (23,372 acres) of all BRAC 2005 excess property
The final two projects construct deployment processing centers          before the 15 September 2011 deadline. In prior BRAC rounds,
(DPC) at Camp Atterbury and at Camp Shelby (MS). These                  property disposal and the resulting savings were largely left until
installations were recently designated as power generation              after the six-year implementation period was complete. Caretaker
platforms and, as such, now deploy Soldiers and equipment               activities for remaining BRAC 2005 installations will continue
of mobilizing BCTs. The new DPCs were necessary to handle               until environmental restoration is completed and all remaining
processing of Soldiers and equipment. Work on both projects             excess property is conveyed.
has just begun, and completion is anticipated in October 2013
for the Camp Shelby DPC, and May 2014 for the Camp                      Implementing Business Transformation Initiatives
Atterbury DPC.                                                          Beginning in 2009, the Secretary of the Army, acting through
                                                                        the chief management officer, has been responsible for carrying
Implementing Base Realignment and Closure/Restationing                  out an Army business transformation initiative. The Secretary
Forces                                                                  established the Office of Business Transformation (OBT) to
Base Realignment and Closure (BRAC) 2005 provided an                    concentrate on achieving business process improvements. The
unprecedented one-time opportunity for reshaping how the                OBT’s objectives follow:
Army trained, deployed, supplied, equipped, and stationed its
Soldiers, Civilians, and their Families to better support combatant          ÂÂ Transform business operations.
commanders in confronting the security challenges facing the
nation. A key enabler of Army transformation, BRAC 2005 was                  ÂÂ Improve the effectiveness and efficiency of business
fully synchronized with other Army stationing initiatives such as               processes.
global defense posture realignment, Grow the Army, and Army                  ÂÂ Transform business systems information technology.
modular forces. The BRAC also closed installations and leased
facilities that were either no longer relevant or were less effective        ÂÂ Promote resource-informed decision making.
in supporting a joint and expeditionary Army. In partnership
with other services, the Army used BRAC 2005 to transform RC                 ÂÂ Achieve integrated management.
infrastructure to create more operational opportunities for joint
22    Fiscal Year 2012 United States Army Annual Financial Report


These objectives will culminate in an adaptive generating force        The system is central to the Army’s transitioning to a cost and
that better supports an agile and versatile operating force. They      performance culture.
are also expected to successfully prioritize, balance, and integrate
Army activities and resources in the present and posture them          The GFEBS is a web-based system used by the AC, the ARNG,
for future success. An integrated management system focuses            and the USAR. With the deployments in FY 2012, GFEBS
on results, with an emphasis on cutting costs while modernizing        is now operational across 27 commands, at more than 200
a mission-ready force—a readiness at best value rather than            locations, and in 71 countries. The FY 2012 deployment added:
readiness at any cost approach.
                                                                            ÂÂ Organizations in Kuwait, Qatar, and Afghanistan as
During FY 2012, the continuous performance improvement                         well as in the United States.
(CPI)/LSS element within the OBT continued to provide
                                                                            ÂÂ Over 17,000 new users—bringing the total to over
enabling activities to the Army’s business transformation and the
                                                                               52,000.
Secretary of the Army’s reformation of the generating force. All
efforts support the strategic guidance and direction of the Army’s          ÂÂ Over $49 billion in budgetary allotment—bringing the
chief management officer. The CPI/LSS community has focused                    total allotment to over $80 billion.
its efforts on Army-wide performance improvement. Operational
benefits realized in logistics throughput in Afghanistan and Iraq      The GFEBS is enabling the Army to comply with the wide range
(US CENTCOM’s CPI/LSS activities) are having direct effects            of statutory and regulatory requirements—the Federal Financial
on our warfighters and are achieving better performance and            Management Improvement Act, the U.S. Standard General
financial benefits within the generating force.                        Ledger, accounting standards, and the DoD Standard Financial
                                                                       Information Structure. It is also enabling the Army to retire old,
In FY 2012, the OBT CPI/LSS element was able to better                 stand-alone systems.
connect the outcomes of CPI/LSS projects contained in the
Army’s project management database, PowerSteering, with                The GFEBS is the key element in retiring systems in the financial
the financial management activities inherent in building the           domain. The Army has retired 13 systems in FY 2012, bringing
Army’s POM. This was achieved in concert with the staffs of            the total retired systems to 31 as of this year. The Army continues
the Assistant Secretary of the Army for Financial Management           to transform; its cost and performance culture requires that
and Comptroller (ASA(FM&C)) and the Deputy Assistant                   leaders understand and incorporate cost considerations in their
Secretary of the Army for Cost and Economics. The CPI/LSS              planning and decision-making processes—an approach that
continues to be a rigorous, proven methodology to achieve              will enable the Army to achieve its readiness and performance
performance improvement at any level. In FY 2011, the 1,186            objectives more efficiently and effectively.
projects completed across all Army commands—to include
the RC—have potentially yielded $8.4 billion in total financial        To cultivate a cost culture, the Army is executing education
benefits, of which $2.3 billion are savings. The Army’s program        and training programs for military and civilian personnel
relies on training CPI/LSS practitioners who return to their units     at all levels, supporting both the resource management and
to tackle leadership-supported projects. In FY 2012, the CPI/          functional communities. It also established the graduate-level
LSS community trained 1,264 new practitioners, from entry              Cost Management Certificate Course (CMCC) to educate and
level experience through enterprise-level expertise, to support        develop cost-savvy subject matter experts to serve as senior leader
Army business transformation and assist in the reform of its           staff advisors.
generating force.
                                                                       The Army trained 103 students in the CMCC in FY 2012, and,
On 1 July 2012, the Army completed deployment of the                   in the same fiscal year, the ASA(FM&C) developed and piloted
General Fund Enterprise Business System (GFEBS). It is the             a new course in cost-benefit analysis (CBA). The CBA training
centerpiece of the Army’s financial system transformation effort       course provides rigorous, analytical instruction, opportunities
as it provides the core capability to support an unqualified audit     for hands-on application in performing CBA, and one-on-
opinion of the Army’s General Fund. In addition, the GFEBS             one evaluation of work. Selected graduates will create a cadre
transforms business processes to enable better-informed decisions,     of certified trainers in the field to propagate CBA concepts.
better-managed resources, and better support to the warfighter.        In FY 2013, the principles of cost analysis and management
The GFEBS integrates funding, real property management,                and intermediate cost analysis and management courses will
financial accounting, cost management and related output, and          be offered for the first time by resident and mobile Training
performance data in an enterprise resource planning system.            and Doctrine Command training teams. The Army continued
                                                                       to offer CBA introductory training during FY 2012 to enable
                                                                   Army General Fund and Working Capital Fund 23
                                                                                                   Management’s Discussion and Analysis


and advance resource-informed decision making. Nearly 500              ÂÂ Second, it is striving to reform its acquisition process
individuals completed the training in FY 2012 to bring the                and ensure energy security. Army institutions
total trained, since February 2010, to more than 2,800. Cost              and functions—from personnel to training and
Management 101 training has been designed to educate Soldiers             development to materiel systems—must have the same
and civilians working at GFEBS sites about cost management                unparalleled ingenuity, flexibility, and adaptability as
principles in advance of system deployment. This training                 operational forces. The Army’s acquisition system is also
will continue to be delivered to the Army users. As the Army              in need of significant reform, to become more agile,
continues to emphasize the importance of cost management                  flexible, economical, fair, and effective.
principles and skills, it is exploring a Cost Management
Fellowship Program to formally identify and recognize cost             ÂÂ And third, the Army will spare no effort to incorporate
management best practices as well as the cost management                  the principles, processes, and practices that preserve
functional skills that support them.                                      Soldier readiness and capability. As it reduces its size
                                                                          and footprint, the Army is right-sizing its formations
                                                                          to build the right number of units, with the right
Conclusion                                                                capability, to meet the evolving needs of the joint
Looking to the future, the Army is highly-focused on three                force. The past 10 years have taught the nation that an
main areas.                                                               operational reserve force is essential to accomplishing
                                                                          Army missions and allowing it to expand rapidly when
     ÂÂ Its first priority remains supporting operations in               faced with the need to do so. Toward that end, the
        Afghanistan.                                                      Army is committed to investing deliberately and wisely
                                                                          in its Soldiers, Families, and Civilians to make sure they
                                                                          are prepared and supported.




Walking to prepare a truck for a mission to support initiatives   A Soldier provides security during a patrol to Black Rock, Khowst
that will ensure the sustainability of Afghan agricultural        Province, Afghanistan. Photo courtesy of the U.S. Army.
productivity. Photo courtesy of the U.S. Army.
24   Fiscal Year 2012 United States Army Annual Financial Report



                                        Management Assurances
                                        Commanders and managers throughout the Department of the Army annually ensure
                                        the integrity of their reporting systems, programs, and operations. This section focuses
                                        on the Army’s system of internal controls to comply with such laws as the Federal
                                        Financial Management Improvement Act (FFMIA) of 1996 and the Federal Financial
                                        Manager’s Financial Integrity Act of 1982. The requirements promote the production
                                        of reliable, timely, and accurate financial information through efficient and effective
                                        internal controls. By having effective internal controls, the Army is able to improve
                                        efficiency, operating effectiveness and enhance public confidence in Army stewardship of
                                        public resources.


                                        Chief Financial Officer Compliance
                                        The passage of the Chief Financial Officers (CFO) Act of 1990 required major
                                        federal agencies to prepare audited financial statements for the first time. In 1994,
                                        the Government Management Reform Act extended the CFO Act to include agency-
                                        wide reports from all major executive branch agencies and their components. The
                                        Government Performance and Results Act of 1993 required agencies to systematically
                                        report on plans and performance. The FFMIA of 1996, along with the Clinger-Cohen
                                        Act of 1996 (also known as the Information Technology Management Reform Act),
                                        required that agencies install integrated systems that comply with federal accounting
                                        standards and produce auditable financial statements in accordance with Office of
                                        Management and Budget (OMB) Circular A-136, Financial Reporting Requirements.
                                        Additionally, agencies must follow generally accepted accounting principles formulated
                                        by the Federal Accounting Standards Advisory Board.


                                        Internal Controls
                                        The Army operates a robust manager’s internal control program in compliance with
                                        OMB Circular A-123 to employ a comprehensive system of continuous evaluation
                                        of internal controls. The Army’s program is fully integrated with functional program
                                        control assessments. In strict adherence to the Office of the Under Secretary of
                                        Defense (Comptroller) guidance, the Army reports a level of assurance over its internal
                                        controls in three distinct areas: internal controls over non-financial operations, internal
                                        controls over financial reporting, and internal controls over financial systems. See the
                                        complete Army Statement of Assurance at http://asafm.army.mil/offices/FO/IntControl.
                                        aspx?OfficeCode=1500


                                        Internal Controls Over Financial Reporting
                                        As stated in the Army’s Annual Statement of Assurance dated August 8, 2012,
                                        “Although we continue to make progress in improving internal controls over financial
                                        reporting for the General and Working Capital Funds, I cannot provide assurance
                                        that the Army’s internal controls for financial reporting were operating effectively as of
                                        June 30, 2012. This assessment is based on the auditor’s inability to render an audit
                                        opinion; numerous uncorrected actions identified in our financial improvement plan;
                                        13 weaknesses associated with the General Fund; and nine weaknesses associated with
                                        the Working Capital Fund.”
                                                          Army General Fund and Working Capital Fund 25
                                                                                       Management’s Discussion and Analysis


                              Analysis of Financial Statements
                              As discussed in the accompanying independent auditor’s reports, long-standing
                              financial management challenges prevent the Army from producing auditable financial
                              statements for the Army General Fund (Army GF) or the Army Working Capital
                              Fund (Army WCF). The Army, however, continues to work with the DoD to develop
                              sustainable business practices and enhanced internal controls to improve financial
                              management processes and produce quality financial management information. These
                              processes must be supported by compliant business systems and an effective set of
                              management controls.


                              Army GF Financial Results and Balance Sheet
                              The Army GF Balance Sheet includes total assets that exceed $352.1 billion. Two asset
                              categories, Fund Balance with Treasury and General Property, Plant and Equipment
                              (GPP&E), comprise 89 percent of total assets, with values of $153.3 billion and
                              $160.0 billion, respectively.

                              Liabilities primarily consist of $30.4 billion in Environmental Liabilities and
                              $4.9 billion in Accounts Payable.

                              The GPP&E account decreased $11.9 billion due to adjustments made to the Army
                              GF’s mission critical assets as a result of the Army’s ongoing audit readiness efforts.

Figure 3. Composition of GF                            2%                                            3%
Assets and Liabilities
                                           9%

                                                                                   30%
                                                                44%
                                                                                                                58%

                                    45%
                                                                                     9%




                              Army General Fund Assets                                Army General Fund Liabilities
                                 Fund Balance with Treasury                              Environmental Liabilities
                                 General Property, Plant and Equipment                   Accounts Payable
                                 Inventory and Related Property                          Other Liabilities
                                 Remaining Assets                                        Remaining Liabilities


Table 11. Select GF Assets                                                                                      Percentage
and Liabilities                        ASSET TYPE                                                               of FY 2012
                                      (Amounts in billions)          FY 2011     FY 2012        Change            Assets

                              Fund Balance with Treasury               $166.9       $153.3         ($13.6)           44%
                              General Property,
                                                                        171.9        160.0          (11.9)           45%
                              Plant and Equipment
                              Inventory and
                                                                         31.2          30.8          (0.4)            9%
                              Related Property
                              Remaining Assets                           11.6           8.0          (3.6)            2%

                              Total Assets                            $381.6       $352.1         ($29.5)          100%
                              Amounts may not sum due to rounding.
26   Fiscal Year 2012 United States Army Annual Financial Report



                                                                                                                     Percentage
                                                LIABILITY TYPE                                                       of FY 2012
                                                 (Amounts in billions)          FY 2011    FY 2012      Change        Liabilities

                                         Environmental Liabilities                 $31.8      $30.4         ($1.4)         58%

                                         Accounts Payable                            8.6        4.9          (3.7)           9%

                                         Other Liabilities                          14.4       15.4           1.0          30%

                                         Remaining Liabilities                       1.3        1.5           0.2            3%

                                         Total Liabilities                         $56.1      $52.2         ($3.9)        100%
                                         Amounts may not sum due to rounding.



                                        Army WCF Financial Results
                                        The Army WCF activities maintain the Army’s combat readiness by providing supplies,
                                        equipment, and ordnance to prepare, sustain, and reset our forces in the most efficient
                                        and cost-effective manner possible. In performing this mission, WCF activities
                                        are obligated to control and minimize costs. Financial performance is measured
                                        through cash management, net operating results (NOR), and accumulated operating
                                        results (AOR). Operational performance is measured by carryover, stock availability,
                                        and production.


                                        Cash Management
                                        The current balance of funds with the U.S. Treasury equals the beginning of the
                                        fiscal year amount plus the cumulative fiscal-year-to-date amounts of collections,
                                        appropriations and transfers-in, minus the cumulative fiscal year-to-date amounts of
                                        disbursements, withdrawals and transfers-out. The Army WCF is required to maintain
                                        a positive cash balance to prevent an Antideficiency Act violation under 31 USC,
                                        § 1517(a), Prohibited Obligations and Expenditures. Unlike appropriated funds, the
                                        Army WCF cash balance is not equal to outstanding obligations; however, the cash-on-
                                        hand at Treasury must be sufficient to pay bills when due.

                                        Sufficient cash levels should be maintained to support 7 to 10 days of operational
                                        disbursements, plus adequate cash to meet 6 months of capital investment program
                                        disbursements, plus the amount of any positive accumulated operating results that is to
                                        be returned to customers.

                                        The cash balance is primarily affected by cash generated from operations; however, the
                                        balance is also affected by appropriations, transfers, and withdrawals. Maintaining a
                                        proper cash balance depends on setting rates to recover full costs—including prior year
                                        losses—accurately projecting workload and meeting established operational goals. The
                                        Army WCF ended FY 2012 with a cash balance of $1,334.5 million, within the 7- to
                                        10-day balance requirement.

                                        Table 12 shows an overall growth in cash primarily from operations and direct
                                        appropriations offset by transfers out. The Army WCF received direct appropriations
                                        for war reserve materiel.
                                                             Army General Fund and Working Capital Fund 27
                                                                                                   Management’s Discussion and Analysis


Table 12. Army WCF Cash                 (Amounts in millions)                   FY 2010             FY 2011            FY 2012
                                Beginning Cash                                     $1,349.6             $1,808.1            $1,900.5

                                Collections                                       $16,315.9            $13,742.5          $12,897.2

                                Disbursements                                      15,627.0             13,004.8            12,478.2

                                    Net Disbursements and
                                                                                    $688.9                $737.8             $419.0
                                    Collections
                                Appropriations Received                                50.0                  54.6              155.2

                                Transfers Out                                        280.3                  700.0            1,140.2

                                    Net Cash Transactions                           $458.6                  $92.4            ($566.0)
                                Ending Cash                                        $1,808.1             $1,900.5            $1,334.5
                                Amounts do not sum due to rounding to match principal financial statement amounts.

                                Net Operating Results and Accumulated Operating Results
                                The NOR represents the difference between revenues and costs within a fiscal year.
                                The AOR represents the aggregate of all recoverable net earnings, including prior-year
                                adjustments, since inception of the Army WCF. The goal of the Army WCF is to
                                establish rates that will bring the AOR to zero in the budget year. An activity group’s
                                financial performance is measured by comparing actual results to the budget’s NOR
                                and AOR.

Table 13. Net and Accumulated      OPERATING RESULTS                            FY 2010             FY 2011            FY 2012
Operating Results by Activity           (Amounts in millions)

Group                                 Industrial Operations NOR                      $57.3                $113.8               $42.0

                                     Industrial Operations AOR       1
                                                                                    $525.6                $639.4             $681.5

                                      Supply Management NOR                        ($125.1)              ($103.1)            ($207.5)

                                      Supply Management AOR                         $335.0                $231.9               $24.4

                                Note 1: Includes prior-period AOR adjustments


                                Carryover
                                Carryover is the dollar amount of orders accepted from customers that have not been
                                completed by the end of a fiscal year. It is a normal part of doing business. These
                                orders enable the industrial workforce to maintain continuity in production operations.
                                The Army expects the carryover for FY 2012 to be less than the maximum allowable
                                amount. The figures shown for FY 2012 in the table below are estimates.


                                Stock Availability
                                Stock availability measures the percentage of requisitions filled within established
                                timeframes. The DoD and Army have set a target of 85 percent stock availability. The
                                Army anticipates to exceed this goal in FY 2012.

Table 14. Army WCF Carryover            (Amounts in millions)                   FY 2010             FY 2011            FY 2012

                                                       New Orders                  $6,196.5              $7,262.5           $5,466.5

                                            Allowable Carryover      1
                                                                                   $4,075.5              $4,684.2           $ 4,763.8

                                            Calculated Carryover1                  $3,452.0              $4,321.2           $ 4,573.3
                                Note 1: FY 2012 amounts are estimated.
28    Fiscal Year 2012 United States Army Annual Financial Report


Figure 4. Stock Availability (percentage)

     90




     85




     80                                                                                                        Stock Availability
                                                                                                               Target


     75
            Q1      Q2       Q3       Q4           Q1          Q2          Q3           Q4            Q1          Q2          Q3         Q4


                     FY 2010                                     FY 2011                                           FY 2012

                                           Production
                                           Although the Industrial Operations Activity Group (IOAG) is comprised of
                                           13 activities, the preponderance of workload is performed at the five hard-iron
                                           maintenance depots. Major operations in Afghanistan place tremendous demands on
                                           equipment. As a result of the higher operating tempo, rough desert environments, and
                                           limited depot maintenance available in theater, operational fleets age at a far greater pace
                                           than expected. To counter this, the Army established a reset program designed to reverse
                                           the effects of combat stress on equipment and to prepare equipment for future missions.
                                           Industrial operations received $1,430 million in reset orders, representing approximately
                                           26 percent of FY 2012 new orders.

                                           The Army’s depots and their efforts to partner with industry are critical to the entire
                                           reset effort. These repair programs must continue through the end of the current conflict
                                           and for at least three additional years to reconstitute equipment completely. Due to
                                           actions taken in support of wartime requirements, the IOAG significantly increased
                                           depot production over pre-war levels, as illustrated in Table 15.

                                           The aircraft increase shown in the FY 2012 column of Table 15 is due to increases in
                                           production requirements. The increase to the annual production throughput of high
                                           mobility, multipurpose-wheeled vehicles (HMMWV) from FY 2011 to FY 2012 is
                                           due to the HMMWV Recap program. Track shoe production levels decreased from
                                           FY 2010 to FY 2012 due to a decrease in expected operational levels for the M1 and
                                           Bradley fighting vehicles. The drop in production results from the customer decreasing
                                           the requirements and is not related to any production issues.

Table 15. Annual Production                                                            Pre-War             FY 2010       FY 2011         FY 2012
Throughput1
                                                                         Aircraft                 4               74               101          106

                                                           Helicopter Engines                <200               468                760          832
                                                                        Bradleys               144              758                349          317

                                                                      HMMWVs                 <100              6,189           2,090           2,480

                                                              Firefinder Radars                 <1                61               31            37

                                                                    Track Shoes           120,000            120,667          39,161          25,136

                                           Note 1: Throughput is the number of weapon systems completed for any given year.
                                                           Army General Fund and Working Capital Fund 29
                                                                                          Management’s Discussion and Analysis


                                Army WCF Balance Sheet
                                The Army WCF balance sheet shows assets exceeding $25.8 billion, primarily in
                                Inventory and Fund Balance with Treasury. Liabilities consist of Accounts Payable
                                and Other Liabilities, which include payroll, benefits, accrued annual leave, and
                                workers compensation.

Figure 5. Army WCF Assets and                            2%
Liabilities
                                              7%                                            17%
                                        5%


                                                                                                                  41%



                                                                                         42%
                                                         86%



                                Army Working Capital Fund Assets                   Army Working Capital Fund Liabilities
                                   Inventory                                         Accounts Payable
                                   Fund Balance with Treasury                        Other Liabilities
                                   General Property, Plant and Equipment             Military Retirement and Other
                                   Remaining Assets                                  Federal Employee Benefits



Table 16. Army WCF Assets                                                                                        Percentage
and Liabilities                           ASSET TYPE                                                             of FY 2012
                                        (Amounts in millions)          FY 2011       FY 2012       Change          Assets

                                Inventory                              $25,211.5      $22,096.5    ($3,115.0)           86%

                                Fund Balance with Treasury               1,900.5        1,334.5       (566.0)             5%

                                General Property,
                                                                         1,564.4        1,748.8        184.4              7%
                                Plant and Equipment

                                Remaining Assets                           908.9          626.7      (282.2)              2%

                                Total Assets                           $29,585.3     $25,806.5 ($3,778.8)             100%
                                Amounts may not sum due to rounding.



                                                                                                                 Percentage
                                       LIABILITY TYPE                                                            of FY 2012
                                        (Amounts in millions)          FY 2011       FY 2012       Change         Liabilities

                                Accounts Payable                          $783.4         $502.1      ($281.3)           41%

                                Other Liabilities                          644.5          528.0       (116.5)           42%

                                Military Retirement and
                                Other Federal                              221.6          215.1          (6.5)          17%
                                Employee Benefits

                                Total Liabilities                      $1,649.5       $1,245.2      ($404.3)          100%
                                Amounts may not sum due to rounding.
30     Fiscal Year 2012 United States Army Annual Financial Report



                                                       Required Supplementary Stewardship
                                                       Information and Required
                                                       Supplementary Information
                                                       Stewardship information relates to expenditures involving a substantial investment
                                                       by the Army for the benefit of the nation. When made, these expenditures are treated
                                                       as expenses in the financial statements. Since these expenses are intended to provide
                                                       long-term benefits to the public, they are reported as supplemental information in
                                                       the financial statements1. There are four reported areas for stewardship information:
                                                       (1) nonfederal physical property; (2) investments in research and development (R&D);
                                                       (3) deferred maintenance; and (4) heritage assets and stewardship land.

                                                       Investment in nonfederal physical property is an expense incurred by the Army for the
                                                       purchase, construction, or major renovation of physical property owned by state and
                                                       local governments. An example of this type of investment is funding provided to the
                                                       Army National Guard (ARNG) for assistance in the construction of an ARNG facility
                                                       on state land. Since the facility is constructed on state land, it is the property of the
                                                       state; therefore, the Army cannot report it as an asset. However, since the funds were
                                                       used to acquire a mission-related state facility, the outlay is tracked as an investment in
                                                       nonfederal physical property.

                                                       Investments in R&D are based on R&D outlays (expenditures). Outlays are used
                                                       because current Army accounting systems are unable to capture and summarize costs in
                                                       accordance with federal accounting standards. The R&D programs are classified as basic
                                                       research, applied research, and development.

                                                       Stewardship information is also comprised of real property and military equipment
                                                       deferred maintenance. Real property deferred maintenance relates to maintenance
                                                       needed on Army facilities that has not been funded. At the end of FY 2012, the Army
                                                       reported approximately $37.2 billion in deferred real property maintenance on facilities
                                                       with a replacement value of approximately $254.2 billion. Real property deferred
                                                       maintenance totals approximately 15 percent of estimated replacement value of the
                                                       facilities requiring maintenance. The 10 major categories of military equipment deferred
                                                       maintenance totaled approximately $307.4 million at the end of FY 2012. Electronic
                                                       and communication systems equipment represented the largest category of deferred
                                                       equipment maintenance at approximately $144.5 million.

                                                       Heritage assets are comprised of property, plant and equipment (PP&E) of historical,
                                                       natural, cultural, educational, or artistic significance. Specifically, the Army’s heritage
                                                       assets are comprised of buildings and structures, archeological sites, museums, and
                                                       museum collection items. Stewardship land is land other than that acquired for, or in
                                                       connection with, general PP&E.

                                                       Detailed information concerning most stewardship information may be found in the
                                                       Required Supplementary Stewardship Information and the Required Supplementary
                                                       Information (RSI) sections of this report. Heritage assets and stewardship land are
                                                       no longer reported in the RSI; they are now required to be reported in a note to the
                                                       statements.2 Additional information on heritage assets and stewardship land may be
                                                       found in Note 10 of the Army General Fund statements.


1
 	 Federal Accounting Standards Advisory Board. Statement of Federal Financial Accounting Concepts and Standards (June 30, 2010). Statement of Federal
   Financial Accounting Standards 8: Supplementary Stewardship Reporting, page 762. See http://www.fasab.gov/pdffiles/codification_report2010.pdf.
2
 	 ibid. Statement of Federal Financial Accounting Standards 29: Heritage Assets and Stewardship Land, pages 9 and 13 and Technical Release 9: Implementation
   Guide for Statement of Federal Financial Accounting Standards 29: Heritage Assets and Stewardship Land, page 46. SFFAS 29 found at http://www.fasab.gov/
   pdffiles/sffas_29.pdf. Technical Release 9 can be found at http://fasab.gov/aapc/technicl.html.
                                                                      Army General Fund 31
               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report




Limitations

Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results
of operations for the entity, pursuant to the requirements of Title 31, United States
Code, Section 3515(b).

While the statements have been prepared from the books and records of the entity, in
accordance with the formats prescribed by the Office of Management and Budget, the
statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity.




                                                          Fiscal Year 2012 United States Army Annual Financial Report
32    Fiscal Year 2012 United States Army Annual Financial Report


Department of Defense - Army General Fund

CONSOLIDATED BALANCE SHEET
As of September 30, 2012 and 2011 (Amounts in thousands)                                             2012 Consolidated              2011 Consolidated
ASSETS (Note 2)
   Intragovernmental:
   Fund Balance with Treasury (Note 3)                                                         $                  153,268,451   $            166,985,312
   Investments (Note 4)                                                                                                 2,181                      3,205
   Accounts Receivable (Note 5)                                                                                       353,386                    538,573
   Other Assets (Note 6)                                                                                              434,558                    888,607
   Total Intragovernmental Assets                                                              $                  154,058,576   $            168,415,697

   Cash and Other Monetary Assets (Note 7)                                                                          1,526,989                  1,432,966
   Accounts Receivable, Net (Note 5)                                                                                1,355,935                    960,325
   Inventory and Related Property, Net (Note 9)                                                                    30,824,075                 31,180,416
   General Property, Plant and Equipment, Net (Note 10)                                                           159,971,256                171,879,899
   Other Assets (Note 6)                                                                                            4,339,865                  7,815,573
TOTAL ASSETS                                                                                   $                  352,076,696   $            381,684,876

LIABILITIES (Note 11)
   Intragovernmental:
   Accounts Payable (Note 12)                                                                  $                    1,766,162   $              2,028,077
   Debt (Note 13)                                                                                                           0                          1
   Other Liabilities (Note 15 and 16)                                                                               1,870,937                  3,109,908
   Total Intragovernmental Liabilities                                                         $                    3,637,099   $              5,137,986

   Accounts Payable (Note 12)                                                                                       3,176,752                  6,632,564
   Military Retirement and Other Federal Employment Benefits (Note 17)                                              1,406,105                  1,356,264
   Employment Benefits (Note 17)
   Environmental and Disposal Liabilities (Note 14)                                                                30,417,209                 31,767,991
   Loan Guarantee Liability (Note 8)                                                                                    1,018                        154
   Other Liabilities (Note 15 and Note 16)                                                                         13,532,892                 11,292,808
TOTAL LIABILITIES                                                                              $                   52,171,075   $             56,187,767

COMMITMENTS AND CONTINGENCIES (NOTE 16)
NET POSITION
   Unexpended Appropriations - Other Funds                                                     $                  147,252,857   $            162,359,241
   Cumulative Results of Operations - Earmarked Funds                                                                  36,212                     49,586
   Cumulative Results of Operations - Other Funds                                                                 152,616,552                163,088,282
TOTAL NET POSITION                                                                             $                  299,905,621   $            325,497,109

TOTAL LIABILITIES AND NET POSITION                                                             $                  352,076,696   $            381,684,876

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                                                            Army General Fund 33
                                                                       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Department of Defense - Army General Fund

CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2012 and 2011 (Amounts in thousands)                                             2012 Consolidated              2011 Consolidated
Program Costs
Gross Costs                                                                                    $                  217,038,974 $               227,456,499
    Military Personnel                                                                                             67,560,245                  70,291,279
    Operations, Readiness & Support                                                                                78,701,761                  94,073,478
    Procurement                                                                                                    31,216,620                  37,363,041
    Research, Development, Test & Evaluation                                                                       13,993,569                  14,596,807
    Family Housing & Military Construction                                                                         25,566,779                  11,131,894
(Less: Earned Revenue)                                                                         $                   (9,875,759) $              (11,502,557)
Net Cost before Losses/(Gains) from Actuarial Assumption Changes for Military
    Retirement Benefits                                                                        $                  207,163,215   $             215,953,942
Net Program Costs Including Assumption Changes                                                 $                  207,163,215   $             215,953,942
Net Cost of Operations                                                                         $                  207,163,215   $             215,953,942

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
34    Fiscal Year 2012 United States Army Annual Financial Report


Department of Defense - Army General Fund

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2012 and 2011
                                                     2012 Earmarked Funds        2012 All Other Funds         2012 Eliminations           2012 Consolidated
(Amounts in thousands)
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                   $               49,586     $         163,088,282     $                       0   $          163,137,868
Beginning balances, as adjusted                      $               49,586     $         163,088,282     $                       0   $          163,137,868
Budgetary Financing Sources:
   Appropriations used                                                     0              212,276,952                             0              212,276,952
   Nonexchange revenue                                                   (45)                    (461)                            0                     (506)
   Donations and forfeitures of cash and
        cash equivalents                                               4,046                         0                            0                    4,046
   Transfers-in/out without reimbursement                                  0                 1,140,194                            0                1,140,194
Other Financing Sources:
   Donations and forfeitures of property                                   0                    35,024                            0                   35,024
   Transfers-in/out without
        reimbursement (+/-)                                                0                 4,357,168                            0                4,357,168
   Imputed financing from costs absorbed
        by others                                                         0                 1,043,601                             0                1,043,601
   Other (+/-)                                                        8,778               (22,187,146)                            0              (22,178,368)
Total Financing Sources                              $               12,779 $             196,665,332 $                           0   $          196,678,111
Net Cost of Operations (+/-)                                         26,153               207,137,062                             0              207,163,215
Net Change                                           $              (13,374) $            (10,471,730) $                          0   $          (10,485,104)
Cumulative Results of Operations                     $               36,212 $             152,616,552 $                           0   $          152,652,764

UNEXPENDED APPROPRIATIONS
Beginning Balances                                   $                     0    $         162,359,241     $                       0   $          162,359,241
Beginning balances, as adjusted                      $                     0    $         162,359,241     $                       0   $          162,359,241
Budgetary Financing Sources:
   Appropriations received                                                0               204,348,664                             0              204,348,664
   Appropriations transferred-in/out                                      0                 1,191,111                             0                 1,191,111
   Other adjustments (rescissions, etc)                                   0                (8,369,207)                            0               (8,369,207)
   Appropriations used                                                    0              (212,276,952)                            0             (212,276,952)
Total Budgetary Financing Sources                    $                    0     $         (15,106,384) $                          0   $          (15,106,384)
Unexpended Appropriations                                                 0               147,252,857                             0              147,252,857
Net Position                                         $               36,212     $         299,869,409 $                           0   $          299,905,621

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                                                           Army General Fund 35
                                                                       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Department of Defense - Army General Fund

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2012 and 2011
                                                      2011 Earmarked Funds          2011 All Other Funds       2011 Eliminations           2011 Consolidated
(Amounts in thousands)
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                   $               58,686     $           157,181,313    $                       0   $         157,239,999
Beginning balances, as adjusted                      $               58,686     $           157,181,313    $                       0   $         157,239,999
Budgetary Financing Sources:
   Appropriations used                                                   (54)               228,493,138                            0             228,493,084
   Nonexchange revenue                                                 2,471                          0                            0                   2,471
   Donations and forfeitures of cash and
        cash equivalents                                               6,719                          0                            0                    6,719
   Transfers-in/out without reimbursement                                  0                    700,000                            0                  700,000
Other budgetary financing sources                                          0                          0                            0                        0
   Donations and forfeitures of property                                   0                        237                            0                      237
   Transfers-in/out without
        reimbursement (+/-)                                           (3,641)                 1,804,306                            0                1,800,665
   Imputed financing from costs absorbed
        by others                                                         0                   1,283,044                            0               1,283,044
   Other (+/-)                                                          810                 (10,435,219)                           0             (10,434,409)
Total Financing Sources                              $                6,305 $               221,845,506 $                          0   $         221,851,811
Net Cost of Operations (+/-)                                         15,405                 215,938,537                            0             215,953,942
Net Change                                           $               (9,100) $                5,906,969 $                          0   $           5,897,869
Cumulative Results of Operations                     $               49,586 $               163,088,282 $                          0   $         163,137,868

UNEXPENDED APPROPRIATIONS
Beginning Balances                                   $                     0    $           158,281,584    $                       0   $         158,281,584
Beginning balances, as adjusted                      $                     0    $           158,281,584    $                       0   $         158,281,584
Budgetary Financing Sources:
   Appropriations received                                                0                 236,165,926                            0             236,165,926
   Appropriations transferred-in/out                                      0                     772,258                            0                 772,258
   Other adjustments (rescissions, etc)                                 (54)                 (4,367,389)                           0              (4,367,443)
   Appropriations used                                                   54                (228,493,138)                           0            (228,493,084)
Total Budgetary Financing Sources                    $                    0 $                 4,077,657 $                          0   $           4,077,657
Unexpended Appropriations                                                 0                 162,359,241                            0             162,359,241
Net Position                                         $               49,586 $               325,447,523 $                          0   $         325,497,109

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
36    Fiscal Year 2012 United States Army Annual Financial Report


Department of Defense - Army General Fund

COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2012 and 2011 (Amounts in thousands)                                2012 Combined                  2011 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance brought forward, Oct 1                                 $                          51,648,890 $                 48,310,809
   Unobligated balance brought forward, Oct 1, as adjusted                 $                          51,648,890 $                 48,310,809
Recoveries of prior year unpaid obligations                                                           34,550,292                   24,828,910
Other changes in unobligated balance (+/-)                                                            (3,235,952)                  (2,199,068)
Unobligated balance from prior year budget authority, net                  $                          82,963,230 $                 70,940,651
Appropriations (discretionary and mandatory)                                                         201,552,120                  235,479,831
Spending authority from offsetting collections (discretionary
   and mandatory)                                                                                     27,636,567                   28,674,059
Total Budgetary Resources                                                  $                         312,151,917   $              335,094,541

STATUS OF BUDGETARY RESOURCES
Obligations incurred                                                       $                         267,822,441   $              283,444,181
Unobligated balance, end of year
   Apportioned                                                                                        32,503,140                   41,866,513
   Exempt from apportionment                                                                               9,845                        4,959
   Unapportioned                                                                                      11,816,491                    9,778,888
Total unobligated balance, end of year                                     $                          44,329,476   $               51,650,360
Total Budgetary Resources                                                  $                         312,151,917   $              335,094,541

Change in Obligated Balance
Unpaid obligations, brought forward, October 1 (gross)                     $                         142,457,252   $              143,921,216
Uncollected customer payments from federal sources, brought
   forward, October 1 (-)                                                                            (27,993,577)                 (25,572,774)
Obligated balance start of year (net), before adjustments (+/-)                                      114,463,675                  118,348,442
Obligated balance, start of year (net), as adjusted                        $                         114,463,675 $                118,348,442
Obligations incurred                                                                                 267,822,441                  283,444,181
Outlays (gross) (-)                                                                                 (236,999,558)                (260,080,898)
Change in uncollected customer payments from federal
   sources (+/-)                                                                                      (1,382,844)                  (2,420,803)
Recoveries of prior year unpaid obligations (-)                                                      (34,550,292)                 (24,828,910)
Subtotal                                                                   $                         109,353,422 $                114,462,012
Obligated balance, end of year
   Unpaid obligations, end of year (gross)                                                           138,729,843                  142,455,588
   Uncollected customer payments from federal sources, end of
       year (-)                                                                                      (29,376,421)                 (27,993,577)
Obligated Balance, End of Year                                             $                         109,353,422 $                114,462,012

Budget Authority and Outlays, Net
Budget authority, gross (discretionary and mandatory)                      $                         229,188,687 $                264,153,890
Actual offsetting collections (discretionary and mandatory) (-)                                      (26,253,722)                 (26,253,256)
Change in uncollected customer payments from federal sources
    (discretionary and mandatory) (+/-)                                                               (1,382,844)                  (2,420,803)
Budget authority, net (discretionary and mandatory)                        $                         201,552,121 $                235,479,831
Outlays, gross (discretionary and mandatory)                               $                         236,999,558 $                260,080,898
Actual offsetting collections (discretionary and mandatory) (-)                                      (26,253,722)                 (26,253,256)
Outlays, net (discretionary and mandatory)                                                           210,745,836                  233,827,642
Distributed offsetting receipts (-)                                                                      828,530                     (856,292)
Agency Outlays, Net (Discretionary and Mandatory)                          $                         211,574,366 $                232,971,350

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                                                            Army General Fund 37
                                                                       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Department of Defense - Army General Fund

COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2012 and 2011 (Amounts in thousands)                                2012 Combined                            2011 Combined
NONBUDGETARY RESOURCES
Unobligated balance brought forward, Oct 1                                 $                                      275 $                              3,641
   Unobligated balance brought forward, Oct 1, as adjusted                 $                                      275 $                              3,641
Other changes in unobligated balance (+/-)                                                                         (1)                                   0
Unobligated balance from prior year budget authority, net                  $                                      274 $                              3,641
Spending authority from offsetting collections (discretionary
   and mandatory)                                                                                              743                                     275
Total Budgetary Resources                                                  $                                 1,017      $                            3,916

Status of Budgetary Resources
Obligations incurred                                                       $                                        0   $                            5,108
Unobligated balance, end of year
   Apportioned                                                                                                 975                                       51
   Unapportioned                                                                                                42                                   (1,242)
Total unobligated balance, end of year                                     $                                 1,017      $                            (1,191)
Total Budgetary Resources                                                  $                                 1,017      $                             3,917

Change in Obligated Balance
Uncollected customer payments from federal sources, brought
   forward, October 1 (-)                                                  $                                 (120)      $                                 0
Obligated balance start of year (net), before adjustments (+/-)                                              (120)                                        0
Obligated balance, start of year (net), as adjusted                        $                                 (120)      $                                 0
Obligations incurred                                                                                             0                                    5,108
Outlays (gross) (-)                                                                                              0                                   (3,444)
Change in uncollected customer payments from federal sources
   (+/-)                                                                                                          120                                 (120)
Subtotal                                                                   $                                        0   $                            1,544
Obligated balance, end of year
   Unpaid Obligations, end of year (gross)                                                                         0                                 1,664
   Uncollected customer payments from federal sources, end of
       year (-)                                                                                                    0                                  (120)
Obligated Balance, End of Year                                             $                                       0    $                            1,544

Budget Authority and Outlays, Net
Budget authority, gross (discretionary and mandatory)                      $                                   743 $                                   275
Actual offsetting collections (discretionary and mandatory) (-)                                               (863)                                   (155)
Change in uncollected customer payments from federal sources
   (discretionary and mandatory) (+/-)                                                                         120                                    (120)
Budget authority, net (discretionary and mandatory)                        $                                     0      $                                0
Outlays, gross (discretionary and mandatory)                               $                                     0      $                            3,444
Actual offsetting collections (discretionary and mandatory) (-)                                               (863)                                   (155)
Outlays, net (discretionary and mandatory)                                 $                                  (863)     $                            3,289
Agency Outlays, Net (Discretionary and Mandatory)                          $                                  (863)     $                            3,289

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
38    Fiscal Year 2012 United States Army Annual Financial Report



Note 1.	Significant Accounting Policies

1.A.	Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army General
Fund (GF), as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of
1994, and other appropriate legislation. The financial statements have been prepared from the books and records of the Army GF in
accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP) promulgated by the Federal
Accounting Standards Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting
Requirements; and the Department of Defense (DoD) Financial Management Regulation. The accompanying financial statements account
for all resources for which the Army GF is responsible unless otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise aggregated and reported
in such a manner that it is not discernible.

The Army GF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136, due to limitations of financial
and nonfinancial management processes and systems that support the financial statements. The Army GF derives reported values and
information for major asset and liability categories largely from nonfinancial systems, such as inventory and logistics systems. These
systems were designed to support reporting requirements for maintaining accountability over assets and reporting the status of federal
appropriations rather than preparing financial statements in accordance with USGAAP.

The Army GF has implemented process and system improvements addressing these limitations to include deployment of the General
Fund Enterprise Business System (GFEBS). The GFEBS is a web-based enterprise resource planning system that will help to improve
financial performance, standardize business processes, ensure that capability exists to meet future financial management needs, and
provide management with relevant, reliable, and timely financial information. The GFEBS will also allow the sharing of standardized
and real-time financial, cost, and accounting data across the Army. This system contains the following six major business process areas:
funds management; financials; cost management; reimbursement management; spending chain; and property, plant, and equipment.

The Army GF currently has 14 auditor-identified financial statement material weaknesses: (1) Financial Management Systems;
(2) Accounting Adjustments; (3) Abnormal Account Balances; (4) Intragovernmental Eliminations; (5) Fund Balance with Treasury;
(6) Accounts Receivable; (7) Inventory; (8) General Property, Plant, and Equipment; (9) Accounts Payable; (10) Environmental
Liabilities; (11) Statement of Net Cost; (12) Reconciliation of Net Cost of Operations to Budget; (13) Statement of Budgetary
Resources; and (14) Contingency Payment Audit Trails.


1.B.	Mission of the Reporting Entity
The Army mission is to support the national security and defense strategies by providing well-trained, well-led, and well-equipped
forces to the combatant commanders. This mission encompasses the intent of the Congress, as defined in Title 10 of the U.S. Code, to
preserve the peace and security and provide for the defense of the U.S., its territories, commonwealths, and possessions, and any areas
occupied by the U.S.; support national policies; implement national objectives; and overcome any nations responsible for aggressive
acts that imperil the peace and security of the U.S.

This mission has been unchanged for the 237-year life of the Army, but the environment and nature of conflict have undergone many
changes over that same time, especially with the overseas contingency operations. These contingency operations have required that the
Army simultaneously transform the way that it fights, trains, and equips its soldiers. This transformation is progressing rapidly, but
it must be taken to its full conclusion if the Army is to continue to meet the nation’s domestic and international security obligations
today and into the future.


1.C.	Appropriations and Funds
The Army GF receives appropriations and funds as general, trust, special, and deposit funds. The Army GF uses these appropriations
and funds to execute its missions and subsequently report on resource usage.
                                                                                                                   Army General Fund 39
                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


General funds are used for financial transactions funded by congressional appropriations, including personnel, operation and
maintenance, research and development, procurement, and military construction.

These appropriations also include supplemental funds enacted by the American Recovery and Reinvestment Act (Recovery Act) of
2009. Details relating to Recovery Act appropriated funds are available on-line at http://www.defense.gov/recovery/.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific purposes or
programs in accordance with the terms of the donor, trust agreement, or statute. Special fund accounts are used to record government
receipts reserved for a specific purpose. Certain trust and special funds may be designated as earmarked funds. Earmarked funds are
financed by specifically identified revenues; required by statute to be used for designated activities, benefits or purposes; and remain
available over time. The Army GF is required to separately account for and report on the receipt, use, and retention of revenues and
other financing sources for earmarked funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They are not
funds of the Army GF and, as such, are not available for the Army GF’s operations. The Army GF is acting as an agent or a custodian
for funds awaiting distribution.

The Army GF is a party to allocation transfers with other federal agencies as a transferring (parent) entity or receiving (child) entity.
An allocation transfer is an entity’s legal delegation of authority to obligate budget authority and outlay funds on its behalf. Generally,
all financial activity related to allocation transfers (e.g., budget authority, obligations, outlays) is reported in the financial statements
of the parent entity. Exceptions to this general rule apply to specific funds for which OMB has directed that all activity be reported
in the financial statements of the child entity. These exceptions include U.S. Treasury-Managed Trust Funds, Executive Office of the
President (EOP), and all other funds specifically designated by OMB.

The Army GF receives allocation transfers from the Federal Highway Administration and the U.S. Forestry Service. The Army GF
receives allocation transfers for the security assistance programs that meet the OMB exception for EOP funds. The activities for these
programs are reported separately from the DoD financial statements based on an agreement with OMB.

As a parent, the Army GF allocates funds to the Department of Agriculture and the Department of Transportation for the active Army
and Army National Guard.


1.D.	Basis of Accounting
The Army GF financial management systems are unable to meet all full accrual accounting requirements. Many of the Army GF
financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of USGAAP. These
systems were not designed to collect and record financial information on the full accrual accounting basis as required by USGAAP.
Most of the Army GF financial and nonfinancial legacy systems were designed to record information on a budgetary basis.

The Army GF financial statements and supporting trial balances are compiled from the underlying financial data and trial balances
of the Army GF sub-entities. The underlying data is largely derived from budgetary transactions (obligations, disbursements, and
collections), from nonfinancial feeder systems, and accruals made for major items such as payroll expenses, accounts payable, and
environmental liabilities. Some of the sub-entity level trial balances may reflect known abnormal balances resulting largely from
business and system processes. At the consolidated Army GF level, these abnormal balances may not be evident. Disclosures
of abnormal balances are made in the applicable footnotes, but only to the extent that the abnormal balances are evident at the
consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into compliance with
USGAAP. One such action is the current revision of accounting systems to record transactions based on the United States Standard
General Ledger (USSGL). The Army has implemented GFEBS which contains a chart of accounts based on the USSGL. The Army
has also created additional subsidiary accounts for GFEBS that track General Fund financial activities at a detailed level. This new
system will fully or partially subsume 107 existing systems currently supporting Army GF accounting and financial management,
thereby greatly reducing the total number of general ledgers maintained by the Army. However, until all of the Army GF’s financial and
40    Fiscal Year 2012 United States Army Annual Financial Report


nonfinancial feeder systems and processes are updated to collect and report financial information as required by USGAAP, some of the
Army GF’s financial data will be derived from budgetary transactions, data from nonfinancial feeder systems, and accruals.


1.E.	Revenues and Other Financing Sources
The Army GF receives congressional appropriations as financing sources for general funds that expire annually, on a multi-year basis,
or do not expire. When authorized by legislation, these appropriations are supplemented by revenues generated by sales of goods or
services. The Army GF recognizes revenue as a result of costs incurred for goods and services provided to other federal agencies and
the public. Full-cost pricing is the Army GF’s standard policy for services provided as required by OMB Circular A-25, User Charges.
The Army GF recognizes revenue when earned within the constraints of its current system capabilities. In some instances, revenue is
recognized when bills are issued.

The Army GF does not include nonmonetary support provided by U.S. allies for common defense and mutual security in amounts
reported in the Statement of Net Cost and Note 21, Reconciliation of Net Cost of Operations to Budget. The U.S. has cost-sharing
agreements with countries having a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is
in a port.


1.F.	Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Now that GFEBS
has been deployed, this system will be the source for the Army GF to derive a substantial portion of its reported data. However, the
Army GF is still developing the full functionality of GFEBS and must continue to rely on some current financial and nonfinancial
feeder systems that were not designed to collect and record financial information on the full accrual accounting basis. Estimates
are made for major items such as payroll expenses, accounts payable, environmental liabilities, and unbilled revenue. In the case of
operating materiel and supplies (OM&S), operating expenses are generally recognized when the items are purchased. Efforts are
underway to transition to the consumption method for recognizing OM&S expenses. Under the consumption method, OM&S
would be expensed when consumed. Due to system limitations, in some instances expenditures for capital and other long-term
assets may be recognized as operating expenses. The Army GF continues to implement process and system improvements to address
these limitations.


1.G.	Accounting for Intragovernmental Activities
Accounting standards require an entity to eliminate intraentity activity and balances from consolidated financial statements in order to
prevent an overstatement for business with itself. However, the Army GF cannot accurately identify intragovernmental transactions
by customer because the Army GF’s systems do not track buyer and seller data at the transaction level. Generally, seller entities within
the DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal
accounting offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances and are then eliminated.
The DoD is implementing replacement systems and a standard financial information structure (SFIS) that will incorporate the
necessary elements that will enable DoD to correctly report, reconcile, and eliminate intragovernmental balances. During 4th Quarter,
FY 2012, the Army deployed GFEBS, a replacement system, which has incorporated the SFIS chart of accounts.

The Treasury Financial Manual, Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States
Government, provides guidance for reporting and reconciling intragovernmental balances. While the Army GF is unable to fully
reconcile intragovernmental transactions with all federal agencies, the Army GF is able to reconcile balances pertaining to investments
in federal securities, Federal Employees’ Compensation Act transactions with the Department of Labor, and benefit program
transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the federal government is not included. The federal government
does not apportion debt and its related costs to federal agencies. The DoD financial statements do not report any public debt, interest
or source of public financing, whether from issuance of debt or tax revenues.
                                                                                                                  Army General Fund 41
                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury does not
allocate such costs to DoD.


1.H.	Transactions with Foreign Governments and International Organizations
Each year, the Army GF sells defense articles and services to foreign governments and international organizations under the provisions
of the Arms Export Control Act of 1976. Under the provisions of the Act, the DoD has authority to sell defense articles and services
to foreign countries and international organizations generally at no profit or loss to the federal government. Payment in U.S. dollars is
required in advance.


1.I.	 Funds with the U.S. Treasury
The Army GF maintains its monetary resources in U.S. Treasury accounts. The disbursing offices of the Defense Finance and
Accounting Service (DFAS), Military Departments, and U.S. Army Corps of Engineers (USACE) and the financial service centers
of the Department of State process the majority of the worldwide cash collections, disbursements, and adjustments of the Army GF.
Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency transfers,
and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency transfers,
collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable Fund Balance with
Treasury (FBWT) account. On a monthly basis, the Army GF adjusts its FBWT to agree with the U.S. Treasury accounts.


1.J.	 Cash and Other Monetary Assets
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable instruments, and
amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts. Foreign currency is valued using the U.S.
Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported consist primarily of
cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency accommodation
exchange missions.

The Army GF conducts a significant portion of operations overseas. The Congress established a special account to handle the gains and
losses from foreign currency transactions for five general fund appropriations: (1) operation and maintenance; (2) military personnel;
(3) military construction; (4) family housing operation and maintenance; and (5) family housing construction. The gains and losses
are calculated as the variance between the exchange rate current at the date of payment and a budget rate established at the beginning
of each fiscal year. Foreign currency fluctuations related to other appropriations require adjustments to the original obligation amount
at the time of payment. The Army GF does not separately identify currency fluctuation transactions.


1.K.	Accounts Receivable
Accounts receivable from other federal entities or the public include accounts receivable, claims receivable, and refunds receivable.
Generally, allowances for uncollectible accounts due from the public are based upon analysis of collection experience by age
category. The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims
against other federal agencies are to be resolved between the agencies in accordance with dispute resolution procedures defined in the
Intragovernmental Business Rules published in the Treasury Financial Manual.
42    Fiscal Year 2012 United States Army Annual Financial Report


1.L.	Direct Loans and Loan Guarantees
The Army GF operates the Armament Retooling and Manufacturing Support Initiative under Title 10, United States Code 4551-
4555. This loan guarantee program was designed to encourage commercial use of inactive government facilities. The revenue
generated from property rental offsets the cost of maintaining these facilities.

The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan guarantee commitments made
after FY 1991.


1.M.	Inventories and Related Property
The Army GF manages only military- or government-specific materiel under normal conditions. Materiel is a unique term that relates
to military force management and includes items such as ships, tanks, self-propelled weapons, aircraft and related spares, repair parts,
and support equipment. Items commonly used in and available from the commercial sector are not managed in Army GF materiel
management activities. Operational cycles are irregular and the military risks associated with stock-out positions have no commercial
parallel. The Army GF holds materiel based on military need and support for contingencies.

Related property includes OM&S and stockpile materiel. The OM&S, including ammunition not held for sale, are valued at standard
purchase price. The Army GF uses both the consumption method and the purchase method of accounting for OM&S. Items that
are centrally managed and stored, such as ammunition and engines, are generally recorded using the consumption method and are
reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption method, the Army GF uses
the purchase method. Under this method, materiel and supplies are expensed when purchased. During FY 2012 and FY 2011, the
Army GF expensed significant amounts using the purchase method because the systems could not support the consumption method
or management deemed that the item was in the hands of the end user. This is a material weakness for the DoD; long-term system
corrections are in process. Once the proper systems are in place, ammunition will be accounted for under the consumption method
of accounting. All remaining OM&S items will be accounted for under the purchase method because management has deemed these
items are in the hands of the end-users.

The Army GF determined that the recurring high-dollar value of OM&S in need of repair is material to the financial statements
and requires a separate reporting category. Many high-dollar items, such as aircraft engines, are categorized as OM&S rather than
military equipment.

The Army GF recognizes excess, obsolete, and unserviceable OM&S at a net realizable value of $0 pending development of an effective
means of valuing such materiel.


1.N.	Investments in U.S. Treasury Securities
The Army GF reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or discounts
are amortized over the term of the investments using the effective interest rate method or another method obtaining similar results.
The intent of the Army GF is to hold investments to maturity, unless they are needed to finance claims or otherwise sustain operations.
Consequently, a provision is not made for unrealized gains or losses on these securities.

The Army GF invests in nonmarketable market-based U.S. Treasury securities which are issued to federal agencies by the U.S. Treasury
Bureau of the Public Debt. They are not traded on any securities exchange but mirror the prices of particular U.S. Treasury securities
traded in the government securities market.


1.O.	 General Property, Plant and Equipment
The Army GF uses the estimated historical cost for valuing military equipment. The DoD identified the universe of military
equipment by accumulating information relating to program funding and associated military equipment, equipment useful life,
program acquisitions, and disposals to establish a baseline. The military equipment baseline is updated using expenditure, acquisition,
and disposal information.
                                                                                                                  Army General Fund 43
                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


The DoD general property, plant and equipment (PP&E) capitalization threshold is $100 thousand except for real property, which is
$20 thousand. The Army GF has fully implemented this threshold for real property.

General PP&E assets are capitalized at historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds the DoD capitalization threshold. The DoD also requires the capitalization of improvements to
existing general PP&E assets if the improvements equal or exceed the capitalization threshold and extend the useful life or increase the
size, efficiency, or capacity of the asset. The DoD depreciates all general PP&E, other than land, on a straight-line basis.

When it is in the best interest of the government, the Army GF provides government property to contractors to complete contract
work. The Army GF either owns or leases such property, or it is purchased directly by the contractor for the government based on
contract terms. When the value of contractor-procured general PP&E meets or exceeds the DoD capitalization threshold, federal
accounting standards require that it be reported on the Army GF Balance Sheet.

The DoD developed policy and a reporting process for contractors with government-furnished equipment that provides appropriate
general PP&E information for financial statement reporting. The DoD requires Army GF to maintain, in its property systems,
information on all property furnished to contractors. These actions are structured to capture and report the information
necessary for compliance with federal accounting standards. The Army GF has not fully implemented this policy primarily due to
system limitations.


1.P.	Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the DoD policy is to record advances and
prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services should be reported
as an asset on the Balance Sheet. The DoD policy is to expense and properly classify assets when the related goods and services are
received. The Army GF has not fully implemented the policy for advances identified in contract feeder systems primarily due to
system limitations.


1.Q.	Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease), and the value equals or exceeds the current capitalization
threshold, the Army GF records the applicable asset as though purchased, with an offsetting liability, and depreciates it. The Army
GF records the asset and liability at (a) the lesser of the present value of the rental and other lease payments during the lease term
(excluding portions representing executory costs paid to the lessor) or (b) the fair market value of the asset. The discount rate for the
present value calculation is either the lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception of
the lease. The Army GF, as the lessee, receives the use and possession of leased property—for example, real estate or equipment—from
a lessor in exchange for a payment of funds. An operating lease does not substantially transfer all the benefits and risk of ownership.
Payments for operating leases are expensed over the lease term as they become payable.

Office space and leases entered into by the Army GF are the largest component of operating leases and are based on costs gathered
from existing leases, General Services Administration bills, and interservice support agreements. Future-year projections use the
Consumer Price Index.


1.R. 	Other Assets
Other assets include those amounts, such as military and civil service employee pay advances, travel advances, and certain contract
financing payments that are not reported elsewhere on the Army GF’s Balance Sheet.

The Army GF conducts business with commercial contractors under two primary types of contracts: fixed price and cost reimbursable.
To alleviate the potential financial burden on the contractor that long-term contracts can cause, the Army GF may provide financing
payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as authorized disbursements to a
contractor prior to acceptance of supplies or services by the government. Contract financing payments clauses are incorporated in the
contract terms and conditions and may include advance payments, performance-based payments, commercial advances and interim
44    Fiscal Year 2012 United States Army Annual Financial Report


payments, progress payments based on cost, and interim payments under certain cost-reimbursement contracts. It is DoD policy
to record certain contract financing payments as other assets. The Army GF has not fully implemented this policy primarily due to
system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or progress
payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation Supplement authorizes progress
payments based on a percentage or stage of completion only for construction of real property, shipbuilding and ship conversion,
alteration, or repair. Progress payments based on percentage- or stage-of-completion are reported as Construction-in-Progress.


1.S.	 Contingencies and Other Liabilities
The Statement of Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal Government, as
amended by SFFAS No. 12, Recognition of Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one
or more future events occur or fail to occur. The Army GF recognizes contingent liabilities when past events or exchange transactions
occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least a
reasonable possibility of incurring a loss or additional losses. The risk of loss and resultant contingent liabilities for the Army GF arise
from pending or threatened litigation or claims and assessments due to events such as aircraft, ship, and vehicle accidents; medical
malpractice; property or environmental damages; and contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for Army GF assets. Consistent with SFFAS No. 6, Accounting for
Property, Plant and Equipment, recognition of an anticipated environmental disposal liability begins when the asset is placed into
service. Based on DoD policy, which is consistent with SFFAS No. 5, nonenvironmental disposal liabilities are recognized when
management decides to dispose of an asset. The DoD recognizes nonenvironmental disposal liabilities for military equipment
nuclear-powered assets when placed into service. These amounts are not easily distinguishable and are developed in conjunction with
environmental disposal costs.


1.T.	Accrued Leave
The Army GF reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick leave for civilians is
expensed as taken. The liabilities are based on current pay rates.


1.U.	Net Position
Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of budget authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not
been incurred.

Cumulative results of operations represent the net difference between expenses and losses and financing sources (including
appropriations, revenue, and gains) since inception. The cumulative results of operations also include donations and transfers in and
out of assets that were not reimbursed.


1.V.	 Treaties for Use of Foreign Bases
The DoD has the use of the land, buildings, and other overseas facilities that are obtained through various international treaties and
agreements negotiated by the Department of State. The Army GF purchases capital assets overseas with appropriated funds; however,
the host country retains title to the land and capital improvements. Treaty terms generally allow the Army GF continued use of these
properties until the treaties expire. In the event treaties or other agreements are terminated, use of the foreign bases is prohibited and
                                                                                                                 Army General Fund 45
                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


losses are recorded for the value of any nonretrievable capital assets. The settlement due to the U.S. or host nation is negotiated and
takes into account the value of capital investments and may be offset by the cost of environmental cleanup.


1.W.	Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S. Treasury.
Supported disbursements and collections are evidenced by corroborating documentation that would generally support the summary
level adjustments made to accounts payable and receivable. Unsupported disbursements and collections do not have supporting
documentation for the transactions and most likely would not meet audit scrutiny. However, both supported and unsupported
adjustments may have been made to the Army GF accounts payable and receivable trial balances before validating the underlying
transactions that established the accounts payable and receivable. As a result, misstatements of reported accounts payable and
receivables are likely present in the Army GF financial statements.

Due to noted material weakness in current accounting and financial feeder systems, the DoD is generally unable to determine whether
undistributed disbursements and collections should be applied to federal or nonfederal accounts payables and receivable at the time
accounting reports are prepared. Accordingly, the DoD policy is to allocate supported undistributed disbursements and collections
between federal and nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable and accounts
receivable. Both supported and unsupported undistributed disbursements and collections are then applied to reduce accounts payable
and receivable accordingly.


1.X.	Fiduciary Activities
Fiduciary cash and other assets are not assets of the Army GF and are not recognized on the balance sheet. Fiduciary activities are
reported on the financial statement note schedules.


1.Y.	Military Retirement and Other Federal Employment Benefits
Not applicable.


1.Z.	Significant Events
There were no significant events as of September 30, 2012.


Note 2.	Nonentity Assets
 As of September 30                                                               2012                                      2011
 (Amounts in thousands)
1.	 Intragovernmental Assets
    A.	 Fund Balance with Treasury                                $                              63,951     $                             175,340
    B.	 Accounts Receivable                                                                           0                                         0
    C.	 Other Assets                                                                                  0                                         0
    D.	 Total Intragovernmental Assets                            $                              63,951     $                             175,340
2.	 Nonfederal Assets
    A.	 Cash and Other Monetary Assets                            $                           1,526,881     $                          1,432,966
    B.	 Accounts Receivable                                                                     135,533                                   88,055
    C.	 Other Assets                                                                                  0                                        0
    D.	 Total Nonfederal Assets                                   $                           1,662,414     $                          1,521,021
3.	 Total Nonentity Assets                                        $                           1,726,365     $                          1,696,361
4.	 Total Entity Assets                                                                     350,350,331                              379,988,515
5.	 Total Assets                                                  $                         352,076,696     $                        381,684,876
46    Fiscal Year 2012 United States Army Annual Financial Report


Information Related to Nonentity Assets

Nonentity assets are assets for which the Army General Fund (GF) maintains stewardship accountability and reporting responsibility.
These assets are not available for the Army GF’s normal operations.

Nonentity Fund Balance with Treasury consists of deposit funds for humanitarian relief and reconstruction, seized Iraqi cash, and
Development Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the appropriate
government or public entity. Humanitarian relief and reconstruction deposit funds are funds held for expenditures on behalf of the
Iraqi people. Seized Iraqi cash is former Iraqi regime monies confiscated by coalition forces. The DFI consists of proceeds from Iraqi
oil sales, repatriated assets from the United States and other nations, and deposits from unencumbered oil-for-food program funds.
The deposit funds for seized Iraqi cash and DFI consist of residual amounts only.

Nonentity Cash and Other Monetary Assets consist of cash held by disbursing officers to carry out their paying and collecting
missions. These amounts also include foreign currency accommodation exchange primarily consisting of the burden-sharing for the
Republic of Korea. Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.

Nonentity Nonfederal Accounts Receivable are primarily from canceled year appropriations and interest receivables. These receivables
will be returned to the U.S. Treasury as miscellaneous receipts once collected.


Note 3.	 Fund Balance with Treasury
 As of September 30                                                             2012                                 2011
 (Amounts in thousands)
1.	 Fund Balances
    A.	 Appropriated Funds                                        $                     153,169,353   $                      166,762,831
    B.	 Revolving Funds                                                                       1,018                                  155
    C.	 Trust Funds                                                                           3,923                                1,985
    D.	 Special Funds                                                                        30,206                               45,001
    E.	 Other Fund Types                                                                     63,951                              175,340
    F.	 Total Fund Balances                                       $                     153,268,451   $                      166,985,312
2.	 Fund Balances Per Treasury Versus Agency
    A.	 Fund Balance per Treasury                                 $                     157,077,553   $                      169,770,205
    B.	 Fund Balance per Army                                                           153,268,451                          166,985,312
3.	 Reconciling Amount                                            $                       3,809,102   $                        2,784,893

Information Related to Fund Balance with Treasury

Other Fund Types

Other Fund Types consist of deposit funds, clearing accounts, unavailable receipt accounts, seized Iraqi cash, and the Development
Fund Iraq (DFI). Deposit funds are generally used to record amounts held temporarily until paid to the appropriate government or
public entity. Clearing accounts are used as a temporary suspense account until later paid by or refunded into another account or
when the government acts as a banker or agent for others. Unavailable receipt accounts are credited with all collections not earmarked
by law for a specific purpose. These collections include taxes, customs duties, and miscellaneous receipts. Seized Iraqi cash is former
Iraqi regime monies confiscated by coalition forces. The DFI consists of proceeds from Iraqi oil sales, repatriated assets from the
United States and other nations, and deposits from unencumbered oil-for-food program funds.

Reconciling Amount

The U.S. Treasury reported $3.8 billion more in Fund Balance with Treasury (FBWT) than reported by the Army General Fund. This
difference includes $3.5 billion in canceling year authority, $267.6 million in unavailable receipts, $6.1 million in fiduciary activity,
and $6.3 million in net differences due to the U.S. Treasury treatment of allocation transfers. The allocation transfers reconciling
difference results from instances in which Army allocates to or is allocated funds from various governmental entities. In cases in which
Army is allocated funds, the amount is excluded from the Fund Balance per Army, but included in Fund Balance per Treasury. In
                                                                                                                        Army General Fund 47
                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


cases in which Army allocates funds, the amount is included in the Fund Balance per Army, but it is excluded from the Fund Balance
per Treasury.


Status of Fund Balance with Treasury
 As of September 30                                                              2012                                            2011
 (Amounts in thousands)
1.	 Unobligated Balance
    A.	 Available                                                $                         32,513,961 $                                       41,871,522
    B.	 Unavailable                                                                        11,816,533                                          9,777,646
2.	 Obligated Balance Not Yet Disbursed                                                   138,729,843                                        142,457,252
3.	 Nonbudgetary FBWT                                                                        (413,330)                                           875,817
4.	 NonFBWT Budgetary Accounts                                                            (29,378,556)                                       (27,996,925)
5.	Total                                                         $                        153,268,451 $                                      166,985,312

Status of Fund Balance with Treasury Definitions

The Status of FBWT reflects the budgetary resources to support the FBWT and is a reconciliation between budgetary and proprietary
accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary authority remaining for
disbursement against current and future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority that has
not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds temporarily precluded from
obligation by law which are invested in U.S. Treasury securities. Certain unobligated balances are restricted for future use and are
not apportioned for current use. Unobligated balances for trust fund accounts are restricted for use by the public law that established
the funds.

Obligated Balance Not Yet Disbursed represents funds that have been obligated for goods and services not received, and those received
but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt accounts,
clearing accounts, nonentity FBWT and Iraqi custodial accounts.

NonFBWT Budgetary Accounts reduce the Status of FBWT. Examples include borrowing authority and investment accounts,
accounts receivable, as well as unfilled orders without advance from customers.


Note 4.	Investments and Related Interest
As of September 30                                                                                      2012
                                                                                                       Amortized
                                                                                  Amortization        (Premium) /         Investments,       Market Value
 (Amounts in thousands)                                               Cost          Method              Discount              Net             Disclosure
1.	 Intragovernmental Securities
    A.	 Nonmarketable, Market-Based
         1.	 Military Retirement Fund                            $           0                    $              0 $                 0       $          0
         2.	 Medicare-Eligible Retiree Health Care Fund                      0                                   0                   0                  0
         3.	 US Army Corps of Engineers                                      0                                   0                   0                  0
         4.	 Other Funds                                                 2,219 Effective interest              (49)              2,170              2,174
         5.	 Total Nonmarketable, Market-Based                   $       2,219                    $            (49) $            2,170       $      2,174
    B.	 Accrued Interest                                                    11                                                      11                 11
    C.	 Total Intragovernmental Securities                       $       2,230                    $            (49) $            2,181       $      2,185
2.	 Other Investments
    A.	 Total Other Investments                                  $           0                    $                 0    $               0   $       N/A
48     Fiscal Year 2012 United States Army Annual Financial Report



As of September 30                                                                                             2011
                                                                                                             Amortized
                                                                                      Amortization          (Premium) /       Investments,       Market Value
 (Amounts in thousands)                                                  Cost           Method                Discount            Net             Disclosure
1.	 Intragovernmental Securities
    A.	 Nonmarketable, Market-Based
         1.	 Military Retirement Fund                               $           0                       $                 0   $              0   $              0
         2.	 Medicare-Eligible Retiree Health Care Fund                         0                                         0                  0                  0
         3.	 US Army Corps of Engineers                                         0                                         0                  0                  0
                                                                                        Effective
         4.	 Other Funds                                                    3,219       interest                     (31)            3,188              3,192
         5.	 Total Nonmarketable, Market-Based                      $       3,219                       $            (31)     $      3,188 $            3,192
    B.	 Accrued Interest                                                       17                                                      (17)                17
    C.	 Total Intragovernmental Securities                          $       3,236                       $            (31)     $      3,205 $            3,209
2.	 Other Investments
    A.	Total Other Investments                                      $           0                       $                 0   $              0            N/A

Information Related to Investments and Related Interest

Other Funds include the Army Gift Fund. The Army Gift Fund was established to control and account for the disbursement and use
of monies donated to the Army General Fund (GF) along with the interest received from the investment of such donations. The related
earnings are allocated to the appropriate Army GF activities to be used in accordance with the directions of the donor. These funds are
recorded as Nonmarketable Market-Based U.S. Treasury Securities, which are not traded on any securities exchange, but mirror the
prices of marketable securities with similar terms.

The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipts and are an asset to the Army GF and a
liability to the U.S. Treasury. The federal government does not set aside assets to pay future benefits or other expenditures associated
with earmarked funds. The cash generated from earmarked funds is deposited in the U.S. Treasury, which uses the cash for general
government purposes. Since the Army GF and the U.S. Treasury are both part of the federal government, these assets and liabilities
offset each other from the standpoint of the federal government as a whole. For this reason, they do not represent an asset or a liability
in the U.S. governmentwide financial statements.

The U.S. Treasury securities provide the Army GF with authority to draw upon the U.S. Treasury to make future benefit payments
or other expenditures. When the Army GF requires redemption of these securities to make expenditures, the government will finance
them from accumulated cash balances, by raising taxes or other receipts, borrowing from the public, repaying less debt, or curtailing
other expenditures. The federal government uses the same method to finance all other expenditures.

On June 1, 2012, the Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting Standards
(SFFAS) 43, Funds from Dedicated Collections, which amended SFFAS 27, Identifying and Reporting Earmarked Funds. The SFFAS 43,
which is effective for periods after September 30, 2012, changes the term “earmarked funds” to “funds from dedicated collections” and
clarifies the criteria for their classification. In 1st Quarter, FY 2013, the Army GF will assess the gift fund and all other funds currently
reported as “earmarked” and report in accordance with SFFAS 43.


Note 5.	Accounts Receivable
As of September 30                                                                                            2012
                                                                                                    Allowance For Estimated
 (Amounts in thousands)                                                 Gross Amount Due                 Uncollectibles             Accounts Receivable, Net
1.	 Intragovernmental Receivables                                  $                  353,386                              N/A $                       353,386
2.	 Nonfederal Receivables (from the public)                                        1,486,254       $                 (130,319)                      1,355,935
3.	 Total Accounts Receivable                                      $                1,839,640       $                 (130,319) $                    1,709,321
                                                                                                                     Army General Fund 49
                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report



As of September 30                                                                                        2011
                                                                                                   Allowance For Estimated
 (Amounts in thousands)                                                Gross Amount Due                                         Accounts Receivable, Net
                                                                                                        Uncollectibles
1.	 Intragovernmental Receivables                                  $               538,573                             N/A $                   538,573
2.	 Nonfederal Receivables (from the public)                                     1,055,330     $                   (95,005)                    960,325
3.	 Total Accounts Receivable                                      $             1,593,903     $                   (95,005) $                1,498,898

Information Related to Accounts Receivable

Accounts Receivable represent the Army General Fund’s (GF) claim for payment from other entities. The Army GF only recognizes
an allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance with the
Intragovernmental Business Rules.


Note 6.	Other Assets
 As of September 30                                                                2012                                         2011
 (Amounts in thousands)
1.	 Intragovernmental Other Assets
    A.	 Advances and Prepayments                                   $                               434,558     $                               888,607
    B.	 Other Assets                                                                                     0                                           0
    C.	 Total Intragovernmental Other Assets                       $                               434,558     $                               888,607
2.	 Nonfederal Other Assets
    A.	 Outstanding Contract Financing Payments                                                5,803,153                                     7,289,438
    B.	 Advances and Prepayments on behalf of Foreign
        Governments                                                                           (1,463,288)                                      526,135
    C.	 Advances and Prepayments                                                                       0                                             0
    D.	 Total Nonfederal Other Assets                              $                           4,339,865 $                                   7,815,573
3.	 Total Other Assets                                             $                           4,774,423 $                                   8,704,180

Information Related to Other Assets

Contract terms and conditions for certain types of contract financing payments convey certain rights to the government that protect
the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property, or disposition
in bankruptcy. However, these rights should not be misconstrued to mean that ownership of the contractor’s work has transferred
to the federal government. The federal government does not have the right to take the work, except as provided in contract clauses
related to termination or acceptance, and the Army General Fund is not obligated to make payment to the contractor until delivery
and acceptance.

Outstanding Contract Financing Payments

The balance of Outstanding Contract Financing Payments includes $5.3 billion in contract financing payments and an additional
$0.5 billion in estimated future payments to contractors upon delivery and government acceptance of a satisfactory product. Refer to
Note 15, Other Liabilities, for additional information.

The $1.5 billion abnormal stems directly from the result of a system change request (SCR). The CFO Load and Reconciliation System
was originally implemented and defaulted fiscal years to four alpha characters of RRRR. An SCR implemented in FY 2012 changed
this default logic to use actual fiscal years in order to prepare for a future Governmentwide Treasury Account Symbol Adjusted Trial
Balance System interface that requires the data to be in valid fiscal years. As a result, this caused proprietary impact in budget execution
reporting. These proprietary impacts were corrected in budgetary reporting to cause an in balance effect. This system change coupled
with the budget execution adjustments directly attributes to the significant abnormal balance reflected in Advances and Prepayments.
50    Fiscal Year 2012 United States Army Annual Financial Report



Note 7.	 Cash and Other Monetary Assets
 As of September 30                                                              2012                                  2011
 (Amounts in thousands)
1.	Cash                                                            $                          194,878   $                           234,302
2.	 Foreign Currency                                                                        1,332,111                             1,198,664
3.	 Other Monetary Assets                                                                           0                                     0
4.	 Total Cash, Foreign Currency, & Other Monetary Assets          $                        1,526,989   $                         1,432,966

Information Related to Cash and Other Monetary Assets

Cash consists primarily of cash held by disbursing officers to carry out their paying and collecting mission. Foreign currency consists
primarily of burden-sharing funds from the Republic of Korea.

Foreign currency is valued using the U.S. Treasury prevailing rate of exchange. This rate is the most favorable rate that would legally be
available to the federal government for foreign currency exchange transactions. The Army General Fund cash and foreign currency are
nonentity and are restricted.


Note 8.	Direct Loan and Loan Guarantees
Direct Loan and/or Loan Guarantee Programs

The Army General Fund (GF) operates a loan guarantee program, the Armament Retooling and Manufacturing Support (ARMS)
Initiative Loan Guarantee Program, designed to increase commercial use of inactive government facilities.

The Federal Credit Reform Act of 1990 governs all new and amended direct loan obligations and loan guarantee commitments made
after FY 1991. The Army GF does not operate a direct loan program.

Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee is the net present value of the following
estimated projected cash flows: Payments by the Army GF to cover defaults and delinquencies, interest subsidies, or other payments
offset by payments to the Army GF including origination and other fees, penalties, and recoveries.

Armament Retooling and Manufacturing Support Initiative

The Army GF established the ARMS Initiative Loan Guarantee Program, authorized by Title 10, United States Code 4551-4555. The
purpose of this program is to encourage commercial use of the Army’s inactive ammunition plants through incentives for businesses
willing to locate to a government ammunition production facility. The production capacity of these facilities is greater than current
military requirements; however, this capacity may be needed by the military in the future. Revenues from property rentals are used to
help offset the overhead costs for the operation, maintenance and environmental cleanup at the facilities.

The Army and U.S. Department of Agriculture Rural Business-Cooperative Service (RBS) have established a memorandum of
understanding for the RBS to administer this loan guarantee program.

Loan Guarantees

In an effort to preclude additional Army GF loan liability, the Assistant Secretary of the Army (Acquisition, Logistics and Technology)
instituted an ARMS loan guarantee moratorium in 2004. The Army GF continues to operate under the moratorium and does not
anticipate initiating new loan guarantees.
                                                                                                                    Army General Fund 51
                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Summary of Direct Loans and Loan Guarantees
 As of September 30                                                                 2012                                      2011
 (Amounts in thousands)
Loans Receivable
Direct Loans
1.	 Foreign Military Loan Liquidating Account                       $                                    0   $                                     0
2.	 Military Housing Privatization Initiative                                                            0                                         0
3.	 Foreign Military Financing Account                                                                   0                                         0
4.	 Military Debt Reduction Financing Account                                                            0                                         0
5.	 Total Direct Loans                                              $                                    0   $                                     0
Defaulted Loan Guarantees
6.	 A.	 Foreign Military Financing Account                          $                                    0   $                                     0
    B.	 Military Housing Privatization Initiative                                                        0                                         0
    C.	 Armament Retooling & Manufacturing Support Initiative                                            0                                         0
7.	 Total Default Loan Guarantees                                   $                                    0   $                                     0
8.	 Total Loans Receivable                                          $                                    0   $                                     0
Loan Guarantee Liability
1.	 Foreign Military Liquidating Account                            $                                    0   $                                    0
2.	 Military Housing Privatization Initiative                                                            0                                        0
3.	 Armament Retooling & Manufacturing Support Initiative                                            1,018                                      154
4.	 Total Loan Guarantee Liability                                  $                                1,018   $                                  154

Information Related to Direct Loans and Loan Guarantees

The Loan Guarantee Liability represents the present value of the estimated cash inflows less cash outflows of nonacquired loan
guarantees. The $1 million in loan guarantee liability represents the estimated long-term cost of the one remaining performing loan to
the U.S. Government for the ARMS Initiative Loan Guarantee Program.


Direct Loans Obligated
The Army GF does not operate direct loan programs; therefore, this schedule is not applicable.


Total Amount of Direct Loans Disbursed
The Army GF does not operate direct loan programs; therefore, this schedule is not applicable.


Subsidy Expense for Direct Loan by Program
The Army GF does not operate direct loan programs; therefore, this schedule is not applicable.


Subsidy Rate for Direct Loans by Program
The Army GF does not operate direct loan programs; therefore, this schedule is not applicable.


Schedule for Reconciling Subsidy Cost Allowance Balances for Post FY 1991 Direct Loans
The Army GF does not operate direct loan programs; therefore, this schedule is not applicable.
52    Fiscal Year 2012 United States Army Annual Financial Report


Defaulted Guaranteed Loans
 As of September 30                                                                  2012                                               2011
 (Amounts in thousands)
Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees
(Allowance for Loss Method):
1.	 Foreign Military Loan Liquidating Account
    A.	 Defaulted Guaranteed Loans Receivable, Gross            $                                             0    $                                             0
    B.	 Interest Receivable                                                                                   0                                                  0
    C.	 Foreclosed Property                                                                                   0                                                  0
    D.	 Allowance for Loan Losses                                                                             0                                                  0
    E.	 Value of Assets Related to Defaulted Guaranteed Loans
        Receivable, Net                                         $                                             0    $                                             0
Defaulted Guaranteed Loans from Post-FY 1991 Guarantees
(Present Value Method):
2.	 Military Housing Privatization Initiative
    A.	 Defaulted Guaranteed Loans Receivable, Gross            $                                             0    $                                             0
    B.	 Interest Receivable                                                                                   0                                                  0
    C.	 Foreclosed Property                                                                                   0                                                  0
    D.	 Allowance for Subsidy Cost (Present Value)                                                            0                                                  0
    E.	 Value of Assets Related to Defaulted Guaranteed Loans
        Receivable, Net                                         $                                             0    $                                             0
3.	 Armament Retooling & Manufacturing Support Initiative
    A.	 Defaulted Guaranteed Loans Receivable, Gross            $                                          735 $                                              735
    B.	 Interest Receivable                                                                                  0                                                  0
    C.	 Foreclosed Property                                                                                  0                                                  0
    D.	 Allowance for Subsidy Cost (Present Value)                                                        (735)                                              (735)
    E.	 Value of Assets Related to Defaulted Guaranteed Loans
        Receivable, Net                                         $                                             0    $                                             0
4.	 Total Value of Assets Related to Defaulted Guaranteed
    Loans Receivable                                            $                                             0    $                                             0


Guaranteed Loans Outstanding
As of September 30                                                                   2012                                               2011
                                                                Outstanding Principal of                           Outstanding Principal of
                                                                  Guaranteed Loans,        Amount of Outstanding     Guaranteed Loans,        Amount of Outstanding
 (Amounts in thousands)                                               Face Value            Principal Guaranteed         Face Value            Principal Guaranteed

Guaranteed Loans Outstanding
1.	 Military Housing Privatization Initiative                   $                     0                       0    $                   0      $                 0
2.	 Armament Retooling & Manufacturing Support Initiative                             0                       0                    2,437                    2,072
3.	 Foreign Military Liquidating Account                                              0                       0                        0                        0
4.	 Total                                                       $                     0                       0    $               2,437      $             2,072
New Guaranteed Loans Disbursed
1.	 Military Housing Privatization Initiative                   $                     0                       0    $                     0    $                  0
2.	 Armament Retooling & Manufacturing Support Initiative                             0                       0                          0                       0
3.	 Total                                                       $                     0                       0    $                     0    $                  0

Information Related to Guaranteed Loans Outstanding Definition

The Outstanding Principal of Guaranteed Loans, Face Value is the principal amount of loans disbursed by third parties and guaranteed
by the Army GF. The face value does not include any interest that is due to be paid on the debt instruments.

The Amount of Outstanding Principal Guaranteed is the principal amount of loans disbursed by third parties and guaranteed by
the Army GF less borrower collateral. The net amount represents the loan amount guaranteed by the Army GF. One performing
loan remains.
                                                                                                                              Army General Fund 53
                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Liabilities for Loan Guarantees
 As of September 30                                                                     2012                                          2011
 (Amounts in thousands)
Liabilities for Losses on Loan Guarantee from Pre 1992
(Allowance for Loss):
1.	 Foreign Military Liquidating Account                          $                                            0      $                                        0
2.	 Total Loan Guarantee Liability (Pre-FY 1992)                  $                                            0      $                                        0
Liabilities for Loan Guarantee from Post 1991 (Present Value):
3.	 Military Housing Privatization Initiative                     $                                            0      $                                        0
4.	 Armament Retooling & Manufacturing Support Initiative                                                  1,018                                             154
5.	 Total Loan Guarantee Liability (Post-FY 1991)                 $                                        1,018      $                                      154
6.	 Total Loan Guarantee Liability                                $                                        1,018      $                                      154

Information Related to Liabilities for Loan Guarantees

Liabilities for Loan Guarantee Programs Post-FY 1991 represent the present value of the estimated cash inflows less cash outflows
of non-acquired loan guarantees. The $1 million in loan guarantee liability represents the estimated long-term cost of the currently
performing loan to the U. S. Government for the ARMS Initiative Loan Guarantee Program.


Subsidy Expense for Loan Guarantees by Program
As of September 30
(Amounts in thousands)
                                                                      Interest
                             2012                                    Differential           Defaults           Fees                Other             Total
1.	 New Loan Guarantees Disbursed:
Military Housing Privatization Initiative                        $                  0   $              0   $              0    $            0    $            0
Armament Retooling & Manufacturing Support Initiative                               0                  0                  0                 0                 0
Totals                                                           $                  0   $              0   $              0    $            0    $            0
                                                                      Interest
                             2011                                    Differential           Defaults           Fees                Other             Total
2.	 New Loan Guarantees Disbursed:
Military Housing Privatization Initiative                        $                  0   $              0   $              0    $            0    $            0
Armament Retooling & Manufacturing Support Initiative                               0                  0                  0                 0                 0
Totals                                                           $                  0   $              0   $              0    $            0    $            0
                                                                      Interest
                             2012                                    Differential           Defaults           Fees                Other             Total
3.	 Modifications and Reestimates:
Military Housing Privatization Initiative                        $                  0   $            0     $              0    $             0   $             0
Armament Retooling & Manufacturing Support Initiative                               0              820                    0                820               820
Totals                                                           $                  0   $          820     $              0    $           820   $           820
                                                                      Interest
                             2011                                    Differential           Defaults           Fees                Other             Total
4.	 Modifications and Reestimates:
Military Housing Privatization Initiative                        $                  0   $              0   $            0 $               0 $               0
Armament Retooling & Manufacturing Support Initiative                               0                  1           (3,641)           (3,640)           (3,640)
Totals                                                           $                  0   $              1   $       (3,641) $         (3,640) $         (3,640)


                                                                       2012                 2011
5.	 Total Loan Guarantee:
Military Housing Privatization Initiative                         $              0      $            0
Armament Retooling & Manufacturing Support Initiative                          820              (3,640)
Totals                                                            $            820      $       (3,640)

Information Related to Subsidy Expense for Loan Guarantees by Program

In an effort to preclude additional Army GF loan liability, the Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
instituted an ARMS loan guarantee moratorium in 2004. The Army GF continues to operate under the moratorium, and does not
anticipate initiating new loan guarantees.
54     Fiscal Year 2012 United States Army Annual Financial Report


Subsidy Rates for Loan Guarantees by Program
As of September 30
                                                                  Interest                   Fees and other
 (Amounts in thousands)                                                         Defaults                      Other         Total
                                                                Supplements                    Collections
Budget Subsidy Rates for Loan Guarantees:
1.	 Military Housing Privatization Initiative                         0.00%          0.00%           0.00%       0.00%         0.00%
2.	 Armament Retooling & Manufacturing Support Initiative             0.00%          0.00%           0.00%       0.00%         0.00%

Information Related to Subsidy Rates for Loan Guarantees by Program

The Subsidy Rates for Loan Guarantees by program table displays subsidy rates applied to new guaranteed loans. Since there have been
no new loan guarantees originated since 2004 for the ARMS Initiative Program, the table properly presents zero percent subsidy rates.


Schedule for Reconciling Loan Guarantee Liability Balances for Post-FY 1991 Loan Guarantees
 As of September 30                                                           2012                               2011
 (Amounts in thousands)
Beginning Balance, Changes, and Ending Balance:
1.	 Beginning Balance of the Loan Guarantee Liability           $                             154    $                         3,640
2.	 Add: Subsidy Expense for Guaranteed Loans Disbursed
    during the Reporting Years by Component
    A.	 Interest Supplement Costs                               $                                0   $                                0
    B.	 Default Costs (Net of Recoveries)                                                        0                                    0
    C.	 Fees and Other Collections                                                               0                                    0
    D.	 Other Subsidy Costs                                                                      0                                    0
    E.	 Total of the above Subsidy Expense Components           $                                0   $                                0
3.	Adjustments
    A.	 Loan Guarantee Modifications                            $                               0    $                                0
    B.	 Fees Received                                                                           0                                     0
    C.	 Interest Supplements Paid                                                               0                                     0
    D.	 Foreclosed Property and Loans Acquired                                                  0                                     0
    E.	 Claim Payments to Lenders                                                               0                                     0
    F.	 Interest Accumulation on the Liability Balance                                         44                                   154
    G.	 Other                                                                                   0                                     0
    H.	 Total of the above Adjustments                          $                              44    $                              154
4.	 Ending Balance of the Loan Guarantee Liability before
    Reestimates                                                                               198                              3,794
5.	 Add or Subtract Subsidy Reestimates by Component
    A.	 Interest Rate Reestimate                                $                              820   $                             1
    B.	 Technical/Default Reestimate                                                             0                            (3,641)
    C.	 Total of the above Reestimate Components                $                              820   $                        (3,640)
6.	 Ending Balance of the Loan Guarantee Liability              $                            1,018   $                           154


Administrative Expenses
Administrative expense for the ARMS Initiative represents $4,000 per annum for salaries.


Note 9.	Inventory and Related Property
 As of September 30                                                           2012                               2011
 (Amounts in thousands)
1.	 Inventory, Net                                              $                               0    $                             0
2.	 Operating Materiel & Supplies, Net                                                 30,824,075                         31,180,416
3.	 Stockpile Materiel, Net                                                                     0                                  0
4.	Total                                                        $                      30,824,075    $                    31,180,416
                                                                                                                  Army General Fund 55
                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Inventory, Net
Not applicable.


Operating Materiel and Supplies, Net
As of September 30                                                                            2012
                                                                         OM&S               Revaluation
 (Amounts in thousands)                                                Gross Value           Allowance          OM&S, Net         Valuation Method

1.	 OM&S Categories
    A.	 Held for Use                                               $     28,157,681     $                0 $       28,157,681      SP, LAC, MAC
    B.	 Held for Repair                                                   2,666,394                      0          2,666,394      SP, LAC, MAC
    C.	 Excess, Obsolete, and Unserviceable                                 235,838               (235,838)                 0           NRV
    D. Totals                                                      $     31,059,913     $         (235,838) $      30,824,075


As of September 30                                                                            2011
                                                                         OM&S               Revaluation
 (Amounts in thousands)                                                Gross Value           Allowance          OM&S, Net         Valuation Method

1.	 OM&S Categories
    A.	 Held for Use                                               $     31,180,416     $                0 $       31,180,416      SP, LAC, MAC
    B.	 Held for Repair                                                           0                      0                  0      SP, LAC, MAC
    C.	 Excess, Obsolete, and Unserviceable                                 509,798               (509,798)                 0           NRV
    D.	Totals                                                      $     31,690,214     $         (509,798) $      31,180,416

Legend for Valuation Methods:
LAC = Latest Acquisition Cost                                     NRV = Net Realizable Value
SP = Standard Price                                               LCM = Lower of Cost or Market
AC = Actual Cost                                                  O = Other
MAC = Moving Average Cost


Information Related to Operating Materiel and Supplies, Net

Operating Materiel and Supplies (OM&S) include ammunition, tactical missiles, and their related spare and repair parts. The Held
for Use category, which includes all materiel available to be issued, consists of $26.1 billion in Held for Use and $2.1 billion in Held in
Reserve for Future Use. Economically repairable materiel is categorized as “Held for Repair.”

Managers determine which items are more costly to repair than to replace. The value of these items is offset by an allowance for excess,
obsolete, and unserviceable OM&S which results in a net value of zero. The Army General Fund (GF) established this allowance
at 100 percent of the carrying account in accordance with DoD policy. These items, which include ammunition and missiles, are
reported as Excess, Obsolete, and Unserviceable.

The values of the Army’s government-furnished materiel and contractor-acquired materiel in the hands of the contractors are normally
not included in the OM&S values reported above. The DoD is presently reviewing its process for reporting these amounts in an effort
to determine the appropriate accounting treatment and the best method to collect and report required information annually without
duplicating information in other existing logistics systems.

As a result of audit readiness efforts, the Army GF can now identify the Held for Repair portion of OM&S. This breakout was not
available in previous years.

Currently, there are no restrictions on OM&S.


Stockpile Materiel, Net
Not applicable.
56     Fiscal Year 2012 United States Army Annual Financial Report



Note 10.	General PP&E, Net
As of September 30                                                                                 2012
                                                    Depreciation/                                              (Accumulated
                                                    Amortization                                               Depreciation/
 (Amounts in thousands)                               Method        Service Life       Acquisition Value       Amortization)        Net Book Value
1.	 Major Asset Classes
    A.	Land                                             N/A             N/A        $            601,132                   N/A $            601,132
    B.	 Buildings, Structures, and Facilities           S/L           20 or 40               76,635,801    $      (30,951,060)          45,684,741
    C.	 Leasehold Improvements                          S/L         lease term                   36,037               (22,372)              13,665
    D.	Software                                         S/L          2-5 or 10                  513,887              (216,260)             297,627
    E.	 General Equipment                               S/L           5 or 10                20,153,493            (9,082,154)          11,071,339
    F.	 Military Equipment                              S/L           various               156,028,694           (63,652,323)          92,376,371
    G.	Shipbuilding                                     N/A             N/A                           0                     0                    0
    H.	 Assets Under Capital Lease                      S/L         lease term                  166,617              (165,747)                 870
    I.	Construction-in-Progress                         N/A             N/A                   9,925,511                   N/A            9,925,511
    J.	Other                                                                                        231                  (231)                   0
    K.	 Total General PP&E                                                         $        264,061,403    $     (104,090,147) $       159,971,256


As of September 30                                                                                 2011
                                                    Depreciation/                                              (Accumulated
                                                    Amortization                                               Depreciation/
 (Amounts in thousands)                               Method        Service Life       Acquisition Value       Amortization)        Net Book Value
1.	 Major Asset Classes
    A.	Land                                             N/A            N/A         $             519,901                    N/A $           519,901
    B.	 Buildings, Structures, and Facilities           S/L          20 or 40                 72,230,406 $         (35,284,447)          36,945,959
    C.	 Leasehold Improvements                          S/L         lease term                    30,655                (20,606)             10,049
    D.	Software                                         S/L          2-5 or 10                   501,823              (207,870)             293,953
    E.	 General Equipment                               S/L           5 or 10                  9,649,888            (4,512,849)           5,137,039
    F.	 Military Equipment                              S/L           various                172,188,793           (55,126,843)         117,061,950
    G.	Shipbuilding                                     N/A            N/A                             0                      0                   0
    H.	 Assets Under Capital Lease                      S/L         lease term                   166,617               (164,637)              1,980
    I.	Construction-in-Progress                         N/A            N/A                    11,909,068                    N/A          11,909,068
    J.	Other                                                                                           0                      0                   0
    K.	 Total General PP&E                                                         $         267,197,151 $         (95,317,252) $       171,879,899

Legend for Valuation Methods:
S/L = Straight Line	   N/A = Not Applicable


Information Related to General Property, Plant and Equipment

The Army General Fund (GF) uses the estimated historical cost for valuing capital equipment. In 4th Quarter, FY 2012, the Army GF
transitioned from using data calls for financial reporting of the following asset classes: land; buildings, structures, and facilities; general
equipment; and military equipment. Instead, the General Fund Enterprise Business System populates financial values based on source
records in the relevant accountable property system of record. This transition supports Army audit readiness objectives and complies
with DoD regulations.

The Army GF is not aware of any restrictions on the use or convertibility of general property, plant, and equipment.

Significant accounting adjustments have been made to the Army GF’s mission critical assets as a result of the Department’s ongoing
audit readiness efforts. These accounting adjustments were recognized in current year gain or loss accounts when auditable data were
not available to support restatement of prior-period financial statements.
                                                                                                                  Army General Fund 57
                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Heritage Assets and Stewardship Land Information

The mission of the Army is to provide the military forces needed to deter war and protect the security of the United States by
organizing, training, supplying, equipping, and mobilizing forces for assignment in support of that mission. Executing this mission
requires efficient and effective use of resources in a manner that ensures operational and environmental sustainability, while respecting
the history and heritage that reflect and support the military mission. The Army has stewardship responsibilities for heritage assets that
date not only from the military history of the land, but also from prior historic occupations. The Army relies upon heritage assets, such
as historic buildings and stewardship land, for daily use in administering, housing, and training soldiers. Heritage assets not currently
employed as multi-use, such as archeological collections or museum collections, are items that embody the multi-faceted history of
the land, the military, the local communities, and the nation. In that mission, the Army GF, with minor exceptions, uses most of
the buildings and stewardship land in its daily activities and includes the buildings on the Balance Sheet as multi-use heritage assets
(capitalized and depreciated).

The Statement of Federal Financial Accounting Standards No. 29, Heritage Assets and Stewardship Land, issued by the Federal
Accounting Standards Advisory Board, requires note disclosures for these types of assets. The Army GF’s policy is to preserve its
heritage assets, which are items of historical, cultural, educational, or artistic importance.

Heritage assets within the Army GF consist of buildings and structures, archeological sites, and museum collections. The Army GF
defines these assets as follows:

Buildings and Structures

Buildings and structures which are listed on, or eligible for listing on, the National Register of Historic Places, including multi-use
heritage assets.

Archeological Sites

Sites that have been identified, evaluated, and determined to be eligible for, or are listed on, the National Register of Historic Places in
accordance with Section 110, National Historical Preservation Act.

Museum Collection Items

Items which are unique for one or more of the following reasons: historical or natural significance; cultural, educational, or artistic
importance; or significant technical or architectural characteristics.

The heritage assets for the Army GF are listed below:

                                                                                      Beginning
Categories                                                        Measure Quantity     Balance        Additions        Deletions     Ending Balance
Buildings and Structures                                               Each               39,681               667           1,678          38,670
Archeological Sites                                                    Each                9,069               398           1,344           8,123
Museum Collection Items (objects, not including fine art)              Each              580,263             6,725           1,019         585,969
Museum Collection Items (objects, fine art)                            Each                    0                 0               0               0

Stewardship land is land and land rights owned by the Department of the Army (DA), but not acquired as, or in connection with,
items of General Property, Plant, and Equipment. All land provided to the DA from the public domain or at no cost, regardless of its
use, is classified as Stewardship Land.

Stewardship land is presented in context of all categories of DoD lands and reported in acres based on the predominant use of the land.
The three categories of Stewardship land held in public trust are as follows: State-Owned Land, Withdrawn Public Land, and Public
Land. The DA’s stewardship land consists mainly of mission-essential land.
58     Fiscal Year 2012 United States Army Annual Financial Report


The following is a description of the methods of acquisition and withdrawal of stewardship land:

     ÂÂ    Acquiring additional land through donation or withdrawals from public domain.
     ÂÂ    Identifying missing land records.
     ÂÂ    Disposing of Base Realignment and Closure (BRAC) sites or transferring land to another DoD agency.
     ÂÂ    Identifying cemeteries and historical facilities.
     ÂÂ    Disposing of BRAC property or excess installations.
     ÂÂ    Privatizing residential community initiatives programs.

The Army GF holds the following acres of stewardship land:
(Acres in thousands)
 Facility Code                              Facility Title                Beginning Balance     Additions1            Deletions          Ending Balance
     9110              Government-Owned Land                                         4,931                   93                43                 4,981
     9111              State-Owned Land                                                  7                    0                 2                     5
     9120              Withdrawn Public Land                                         6,446                    0                41                 6,405
     9130              Licensed and Permitted Land                                   2,093                    0             1,906                   187
     9140              Public Land                                                      11                    0                 0                    11
     9210              Land Easement                                                   216                    3                 1                   218
     9220              In-leased Land                                                  133                    0               112                    21
     9230              Foreign Land                                                    158                    0               157                     1
                                                                                                                      Grand Total                11,829
Note 1: There were no donations included in the Additions column above.                                    Total - All Other Land                 5,408
                                                                                                        Total - Stewardship Land                  6,421

Assets Under Capital Lease
 As of September 30                                                                      2012                                     2011
 (Amounts in thousands)
1.	 Entity as Lessee, Assets Under Capital Lease
    A.	 Land and Buildings                                                $                          166,071 $                                  166,071
    B.	 Equipment                                                                                        546                                        546
    C.	 Accumulated Amortization                                                                    (165,747)                                  (164,637)
    D.	 Total Capital Leases                                              $                              870 $                                    1,980



Note 11.	Liabilities Not Covered by Budgetary Resources
 As of September 30                                                                      2012                                     2011
 (Amounts in thousands)
1.	 Intragovernmental Liabilities
    A.	 Accounts Payable                                                  $                               0       $                                  0
    B.	 Debt                                                                                              0                                          0
    C.	 Other                                                                                       504,714                                    553,337
    D.	 Total Intragovernmental Liabilities                               $                         504,714       $                            553,337
2.	 Nonfederal Liabilities
    A.	 Accounts Payable                                                  $                         217,902       $                            170,964
    B.	 Military Retirement and Other Federal Employment
        Benefits                                                                                  1,406,105                                  1,356,264
    C.	 Environmental Liabilities                                                                26,886,368                                 28,558,194
    D.	 Other Liabilities                                                                         6,423,138                                  7,643,785
    E.	 Total Nonfederal Liabilities                                      $                      34,933,513       $                         37,729,207
3.	 Total Liabilities Not Covered by Budgetary Resources                  $                      35,438,227       $                         38,282,544
4.	 Total Liabilities Covered by Budgetary Resources                                             16,732,848                                 17,905,223
5.	 Total Liabilities                                                     $                      52,171,075       $                         56,187,767

Information Related to Liabilities Not Covered by Budgetary Resources

Liabilities not covered by budgetary resources include liabilities for which congressional action is needed before budgetary resources can
be provided.
                                                                                                                                 Army General Fund 59
                                                                  Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Intragovernmental Liabilities, Other, consist of Federal Employees’ Compensation Act (FECA) and other unfunded employment-
related liabilities.

Nonfederal Accounts Payable not covered by budgetary resources represent amounts that are related to canceled appropriations. These
amounts will require resources funded from future-year appropriations.

Military Retirement and Other Federal Employment Benefits consist of various employee actuarial liabilities not due and payable
during the current fiscal year. These liabilities consist primarily of the FECA benefits liability of $1.4 billion. Refer to Note 17,
Military Retirement and Other Federal Employment Benefits, for additional details and disclosures.

Environmental Liabilities represent the Department of the Army’s liability for existing and anticipated environmental cleanup
and disposal.

Nonfederal Other Liabilities primarily consist of $3.2 billion in unfunded annual leave, $1.1 billion in contingent liabilities, and
$2.1 billion in expected expenditures for disposal of conventional munitions.

Liabilities such as Environmental Liabilities and Military Retirement and Other Federal Employment Benefits are not covered by
budgetary resources because there are no current or immediate appropriations available for liquidation. These liabilities will require
resources funded from future-year appropriations.


Note 12.	Accounts Payable
As of September 30                                                                                                2012
                                                                                                         Interest, Penalties, and
 (Amounts in thousands)                                                       Accounts Payable             Administrative Fees                    Total
1.	 Intragovernmental Payables                                            $             1,766,162                               N/A     $              1,766,162
2.	 Nonfederal Payables (to the public)                                                 3,183,094    $                       (6,342)                   3,176,752
3.	 Totals                                                                $             4,949,256    $                       (6,342)    $              4,942,914


As of September 30                                                                                                2011
                                                                                                         Interest, Penalties, and
 (Amounts in thousands)                                                       Accounts Payable             Administrative Fees                    Total
1.	 Intragovernmental Payables                                            $             2,028,077                               N/A     $              2,028,077
2.	 Nonfederal Payables (to the public)                                                 6,631,107    $                        1,457                    6,632,564
3.	 Totals                                                                $             8,659,184    $                        1,457     $              8,660,641

Information Related to Accounts Payable

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by the Army General
Fund (GF). The Army GF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-
side accounts payable are adjusted to agree with intraagency seller-side accounts receivable. Accounts Payable were adjusted by
reclassifying amounts between federal and nonfederal Accounts Payable and applying both supported and unsupported undistributed
disbursements at the reporting entity level.


Note 13.	Debt
As of September 30                                                            2012                                                     2011
                                                      Beginning                                                  Beginning
 (Amounts in thousands)                                Balance        Net Borrowing       Ending Balance          Balance         Net Borrowing   Ending Balance
1.	 Agency Debt (Intragovernmental)
    A.	 Debt to the Treasury                      $               1   $              (1) $               0   $               1    $           0    $          1
    B.	 Debt to the Federal Financing Bank                        0                   0                  0                   0                0               0
    C.	 Total Agency Debt                         $               1   $              (1) $               0   $               1    $           0    $          1
2.	 Total Debt                                    $               1   $              (1) $               0   $               1    $           0    $          1
60    Fiscal Year 2012 United States Army Annual Financial Report


Information Related to Debt

The Army General Fund (GF), by means of the Armament Retooling and Manufacturing Support (ARMS)-initiative legislation,
established a loan guarantee program to facilitate commercial firms’ use of specified ammunition manufacturing facilities. When
a borrower defaults on a guaranteed loan, the Army GF executes borrowing authority with the U.S. Treasury to pay the lender the
guaranteed outstanding principal resulting in a debt with the U.S. Treasury. The total debt of only $40 consists of interest and
principal payments due to the U.S. Treasury for ARMS loan defaults.


Note 14.	Environmental Liabilities and Disposal Liabilities
 As of September 30                                                           2012                                2011
 (Amounts in thousands)
1.	 Environmental Liabilities - Nonfederal
    A.	 Accrued Environmental Restoration Liabilities
         1.	 Active Installations—Installation Restoration Program
             (IRP) and Building Demolition and Debris Removal
             (BD/DR)                                               $                     2,437,261   $                      2,036,524
         2.	 Active Installations—Military Munitions Response
             Program (MMRP)                                                             1,419,268                           1,869,956
         3.	 Formerly Used Defense Sites—IRP and BD/DR                                  3,063,392                           3,295,377
         4.	 Formerly Used Defense Sites—MMRP                                          10,842,520                          10,990,009
    B.	 Other Accrued Environmental Liabilities—Non-BRAC
         1.	 Environmental Corrective Action                                              510,690                             326,128
         2.	 Environmental Closure Requirements                                           206,471                             354,103
         3.	 Environmental Response at Operational Ranges                                  75,878                              74,732
         4.	Asbestos                                                                      243,450                             246,744
         5.	 Non-Military Equipment                                                             0                                   0
         6.	Other                                                                          60,146                              60,887
    C.	 Base Realignment and Closure Installations
         1.	 Installation Restoration Program                                             658,562                             673,582
         2.	 Military Munitions Response Program                                          535,157                             530,682
         3.	 Environmental Corrective Action/Closure
             Requirements                                                                 134,225                             206,853
         4.	Asbestos                                                                            0                                   0
         5.	 Non-Military Equipment                                                             0                                   0
         6.	Other                                                                               0                                   0
    D.	 Environmental Disposal for Military Equipment/Weapons
        Programs
         1.	 Nuclear Powered Military Equipment/Spent Nuclear
             Fuel                                                                               0                                   0
         2.	 Non-Nuclear Powered Military Equipment                                             0                                   0
         3.	 Other Weapons Systems                                                              0                                   0
    E.	 Chemical Weapons Disposal Program
         1.	 Chemical Demilitarization - Chemical Materials
             Agency (CMA)                                                                3,691,127                          4,592,023
         2.	 Chemical Demilitarization - Assembled Chemical
             Weapons Alternatives (ACWA)                                                6,539,062                           6,510,391
         3. Other                                                                               0                                   0
2. Total Environmental Liabilities                                 $                   30,417,209    $                     31,767,991

Information Related to Environmental and Disposal Liabilities

Applicable Laws and Regulations

The Army General Fund (GF) is required to clean up contamination resulting from past waste disposal practices, leaks, spills, and
other past activity. This cleanup requirement applies to releases of hazardous substances and wastes that created a public health
                                                                                                                  Army General Fund 61
                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


or environmental risk and from unexploded ordnance, discarded military munitions, and munitions constituents at other than
operational ranges. The Defense Environmental Restoration Program (DERP), established by Section 211 of the Superfund
Amendments and Reauthorization Act of 1986 and codified in Title 10 of the United States Code (USC) 2700 et.seq., establishes
requirements. The Army GF is also required to clean up contamination resulting from waste disposal practices, leaks, spills, and other
activity at overseas locations in accordance with DoD policy as prescribed in DoD Instruction 4715.8, Environmental Remediation for
DoD Activities Overseas, under the Army Compliance Cleanup Program.

The Federal Accounting Standards Advisory Board (FASAB) published Technical Bulletin 2006-1 (TB 2006-1), Recognition and
Measurement of Asbestos-Related Cleanup Cost, and Technical Release 10, Implementation Guidance on Asbestos Cleanup Costs Associated
with Facilities and Installed Equipment, which clarify reporting of liabilities arising from asbestos-related cleanup.

The Army GF is required to destroy the chemical stockpile and nonstockpile items as part of the Chemical Demilitarization
Program. The 1986 Defense Authorization Act (Public Law (PL) 99-145, as amended by subsequent acts), directed the DoD
to destroy the unitary chemical stockpile while providing for maximum protection of the environment, public, and personnel
involved in the destruction effort. The U.S. Army Chemical Materials Agency’s Nonstockpile Chemical Materiel Project provides
centralized management and direction to the DoD for the disposal of currently declared nonstockpile chemical materiel in a safe
and environmentally sound manner. The facilities and equipment developed and fielded as part of the program are also subject to
numerous federal and state environmental regulations.

For the environmental liability associated with the destruction of chemical weapons, the schedules and cost estimates in the approved
baseline are based on the best information available and have been through the formal acquisition program baseline-approval process
at the time of report submission. However, these schedules and estimates are subject to modifications and impacts from program risks
and uncertainties inherent to the task of chemical demilitarization and the political sensitivity of the program. These risks may include
processing changes required to meet the operational schedules due to the deteriorating condition of the stockpile and additional
schedule time and/or cost to address changes in environmental laws or congressional requirements.

Applicable laws are as follows for the DERP, NonDERP, low-level radioactive waste, and the Base Realignment and Closure
(BRAC) programs:

     ÂÂ   Comprehensive Environmental Response, Compensation, and Liability Act
     ÂÂ   Superfund Amendments and Reauthorization Act
     ÂÂ   Clean Water Act
     ÂÂ   Safe Drinking Water Act
     ÂÂ   Clean Air Act
     ÂÂ   Resource Conversation and Recovery Act
     ÂÂ   Toxic Substances Control Act
     ÂÂ   Medical Waste Tracking Act
     ÂÂ   Atomic Energy Act
     ÂÂ   Low-Level Radioactive Waste Policy Amendments Act
     ÂÂ   Nuclear Waste Policy Act
     ÂÂ   National Defense Authorization Acts

Types of Environmental Liabilities and Disposal Liabilities Identified

The Army GF has cleanup requirements for DERP sites at active installations, BRAC installations, formerly used Defense sites at active
installations that are not covered by DERP, weapon systems programs, and chemical weapons disposal programs. Environmental
disposal for weapons systems programs consists of chemical weapons disposal, including the destruction of the entire United States’
stockpile of chemical agents and munitions and disposal of nonstockpile chemical material. This includes binary chemical weapons,
old chemical weapons recovered as part of remediation and recovery operations, and miscellaneous materiel associated with chemical
weapon production, storage, testing, maintenance, and disposal. All cleanup is done in coordination with regulatory agencies, other
responsible parties, and current property owners.
62    Fiscal Year 2012 United States Army Annual Financial Report


Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods

The Army GF uses engineering estimates and independently validated models to estimate environmental cleanup liabilities. The
Remedial Action Cost Engineering and Requirements (RACER) system is the Army’s preferred model. The Army GF relies upon
the Air Force, the RACER executive agent, to validate the model in accordance with DoD Instruction 5000.61, DoD Modeling and
Simulation (M&S) Verification, Valuation, and Accreditation (VV&A), and primarily uses the model to estimate the liabilities based
on data received during a preliminary assessment and initial site investigation. The Army primarily uses engineering estimates after
obtaining extensive data during the remedial investigation/feasibility phase of an environmental cleanup project.

The Army GF uses the real property inventory and engineering estimates of costs for environmental closure liabilities and reports these
costs in aggregate. Asbestos disposal costs are not estimable due to the ubiquitous nature of non-friable asbestos, but facility surveys to
determine the presence of asbestos are reported, based upon a cost of $0.35 per square foot multiplied by the gross square feet of the
Army-owned buildings.

The Army GF is unable to systematically gather and report environmental disposal liabilities for military equipment or general
property, plant, and equipment. Most liabilities for individual items of equipment are expected to be below the Army’s $42,000
materiality threshold for a single environmental site. The Army GF will continue to coordinate with the Office of the Under Secretary
of Defense (Comptroller) to address this deficiency.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due to Inflation, Deflation, Technology, or
Applicable Laws and Regulations

The Army GF had changes in estimates resulting from (1) previously unknown contamination, (2) better site characterization with
sampling information, (3) reestimation based on different assumptions, and (4) lessons learned. Environmental liabilities may change
in the future due to changes in laws and regulations, changes in agreements with regulatory agencies, and advances in technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported Environmental Liabilities

The environmental liabilities for the Army GF are based on accounting estimates, which require certain judgments and assumptions
that are believed to be reasonable based upon information available at the time the estimates are calculated. The actual results may
vary materially from the accounting estimates if agreements with regulatory agencies require remediation to a different degree than
anticipated when calculating the estimates. Liabilities can be further impacted if investigation of the environmental sites discloses
contamination levels different than known at the time of the estimates.

The Army GF has reported asbestos survey costs but estimating the amount of non-friable asbestos removal and disposal at the time of
building renovation or demolition, in accordance with FASAB TB 2006-1, presents too much uncertainty to recognize on the Balance
Sheet.

The Army GF is also uncertain regarding the costs for remediation activities in conjunction with returning overseas military facilities
to host nations. The Army GF is currently unable to provide a reasonable estimate because the extent of remediation required is not
known.

Other Accrued Environmental Liabilities – Non-BRAC, Other consists of low-level radioactive waste.
                                                                                                                            Army General Fund 63
                                                           Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 15.	Other Liabilities
As of September 30                                                                                 2012                                             2011
(Amounts in thousands)                                             Current Liability         Noncurrent Liability           Total                   Total

1.	Intragovernmental
    A.	 Advances from Others                                   $            11,539 $                          0     $           11,539 $                45,118
    B.	 Deposit Funds and Suspense Account Liabilities                    (477,763)                           0               (477,763)                832,516
    C.	 Disbursing Officer Cash                                          1,530,523                            0              1,530,523               1,438,076
    D.	 Judgment Fund Liabilities                                            3,984                            0                  3,984                  20,953
    E.	 FECA Reimbursement to the Department of Labor                      117,686                      132,822                250,508                 252,478
    F.	 Custodial Liabilities                                              126,325                        5,566                131,891                  82,946
    G.	 Employer Contribution and Payroll Taxes Payable                    152,661                            0                152,661                 145,608
    H.	 Other Liabilities                                                  267,594                            0                267,594                 292,213
    I. 	 Total Intragovernmental Other Liabilities             $         1,732,549 $                    138,388     $        1,870,937 $             3,109,908
2.	 Nonfederal
    A.	 Accrued Funded Payroll and Benefits                    $         3,117,091           $                 0    $        3,117,091      $          791,599
    B.	 Advances from Others                                             1,815,150                             0             1,815,150               1,804,354
    C.	 Deferred Credits                                                         0                             0                     0                       0
    D.	 Deposit Funds and Suspense Accounts                                 65,061                             0                65,061                  44,072
    E.	 Temporary Early Retirement Authority                                     0                             0                     0                       0
    F.	 Nonenvironmental Disposal Liabilities
          (1)	 Military Equipment (Non-nuclear)                                  0                           0                       0                       0
          (2)	 Excess/Obsolete Structures                                        0                           0                       0                       0
          (3)	 Conventional Munitions Disposal                                   0                   2,136,649               2,136,649               2,752,431
    G.	 Accrued Unfunded Annual Leave                                    3,939,285                           0               3,939,285               3,707,090
    H.	 Capital Lease Liability                                              1,365                         131                   1,496                   3,453
    I.	 Contract Holdbacks                                                 674,616                           0                 674,616                 488,556
    J.	 Employer Contribution and Payroll Taxes Payable                    154,593                           0                 154,593                  (7,515)
    K.	 Contingent Liabilities                                              51,716                   1,577,235               1,628,951               1,707,572
    L.	 Other Liabilities                                                        0                           0                       0                   1,196
    M.	 Total Nonfederal Other Liabilities                     $         9,818,877           $       3,714,015      $       13,532,892      $       11,292,808
3.	 Total Other Liabilities                                    $        11,551,426           $       3,852,403      $       15,403,829      $       14,402,716


Capital Lease Liability
As of September 30                                                                                     2012                                          2011
                                                                    Land and
(Amounts in thousands)                                              Buildings              Equipment           Other                Total             Total
1.	 Future Payments Due
    A.	2012                                                    $              0        $               0   $            0    $             0    $           2,413
    B.	2013                                                               1,611                        0                0              1,611                1,612
    C.	2014                                                                 148                        0                0                148                  148
    D.	2015                                                                   0                        0                0                  0                    0
    E.	2016                                                                   0                        0                0                  0                    0
    F.	 After 5 Years                                                         0                        0                0                  0                    0
    G.	 Total Future Lease Payments Due                        $          1,759        $               0   $            0    $         1,759    $           4,173
    H.	 Less: Imputed Interest Executory Costs                              263                        0                0                263                  720
    I.	 Net Capital Lease Liability                            $          1,496        $               0   $            0    $         1,496    $           3,453
2.	 Capital Lease Liabilities Covered by Budgetary Resources                                                                 $         1,496    $           3,453
3.	 Capital Lease Liabilities Not Covered by Budgetary
    Resources                                                                                                                $              0   $              0
64    Fiscal Year 2012 United States Army Annual Financial Report


Intragovernmental Other Liabilities Composition

Intragovernmental Other Liabilities consist of unemployment compensation liability and other unfunded employment benefits.

Estimated Future Contract Financing Payments

Contingent liabilities include $475.1 million related to contracts authorizing progress payments based on cost as defined in the
Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vest with the federal
government when a specific type of contract financing payment is made. This action protects taxpayer funds in the event of contract
nonperformance. It is DoD policy that these rights should not be misconstrued as rights of ownership. The Army General Fund
is under no obligation to pay contractors for amounts greater than the amounts of progress payments authorized in contracts until
delivery and government acceptance. The Army General Fund has recognized a contingent liability for the estimated unpaid costs that
are considered conditional for payment pending delivery and government acceptance for the following reasons: (1) The contractors
will probably complete their efforts and deliver satisfactory products, and (2) the amount of contractor costs incurred but not yet paid
are estimable.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs incurred to date
by contractors and amounts authorized to be paid under progress payments based on cost provisions within the FAR. Estimated
contractor-incurred costs are calculated by dividing the cumulative unliquidated progress payments based on cost by the contract-
authorized progress payment rate. The balance of unliquidated progress payments based on cost is deducted from the estimated total
contractor-incurred costs to determine the contingency amount


Note 16.	Commitments and Contingencies
Information Related to Commitments and Contingencies

The Army General Fund (GF) is a party in various administrative proceedings and legal actions related to claims for environmental
damage, equal opportunity matters, and contractual bid protests.

The Army GF has accrued contingent liabilities for legal actions when the Office of General Counsel (OGC) considers an adverse
decision is probable and the amount of loss is measurable. In the event of an adverse judgment against the federal government, some
of the liabilities may be payable from the U.S. Treasury Judgment Fund. The Army GF reports contingent liabilities in Note 15,
Other Liabilities.

Nature of Contingency

The Management Schedule of Information derived from the FY 2012 Army Legal Representation Letter outlines claims against the
Army GF totaling about $12.0 trillion for which the Army OGC is unable to express an opinion. The majority of this amount is due
to claims for the Fort Detrick, Maryland, contamination ($10.0 trillion) and for the Hurricane Katrina levee breach ($2.0 trillion).
The historical payout percentage for these cases is less than 1 percent. To determine the historical payout, the Army OGC divides the
total amount reported as a payout in the fiscal year by the total amount claimed in the Army Legal Representation Letter.

The Army GF has other contingent liabilities for which the possibility of loss is considered reasonable. These liabilities are not accrued
in the Army GF’s financial statements. As of September 30, 2012, the Army GF had $576.7 million in claims considered reasonably
possible. These contingent liabilities and estimates are presented in the following table. Estimates for litigations, claims, and
assessments are required to be fully supported.

Estimates in the Management Schedule of Information will not always agree with amounts reported by the OGC subordinate
commands, displayed below, because the Management Schedule of Information amounts are subject to a materiality threshold –
currently $32 million.
                                                                                                                        Army General Fund 65
                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


                                       (Amounts in thousands)
                                      Type of Contingent Liabilities                             Estimate
                                      Army Environmental Law Division                            $151,860
                                      Army Contract Appeals                                        23,786
                                      U.S. Army Claims Service                                     15,000
                                      Litigation Division                                         386,014
                                      Total                                                     $576,660

Other Information Pertaining to Commitments

The Army GF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments, or dispute
resolution, that may result in a future outflow of budgetary resources. Currently, the Army GF has limited automated system processes
by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported may not fairly present the Army
GF’s commitments and contingencies.


Note 17.	Military Retirement and Other Federal Employment
         Benefits
As of September 30                                                                               2012                                          2011
                                                                                          (Less: Assets Available
 (Amounts in thousands)                                                 Liabilities          to Pay Benefits)     Unfunded Liabilities   Unfunded Liabilities

1.	 Pension and Health Actuarial Benefits
    A.	 Military Retirement Pensions                                $                 0    $                 0    $                 0    $                $0
    B.	 Military Pre Medicare-Eligible Retiree Health Benefits                        0                      0                      0                      0
    C.	 Military Medicare-Eligible Retiree Health Benefits                            0                      0                      0                      0
    D.	 Total Pension and Health Benefits                           $                 0    $                 0    $                 0    $                 0
2.	 Other Actuarial Benefits
    A.	FECA                                                         $      1,406,105       $                 0    $       1,406,105      $       1,356,264
    B.	 Voluntary Separation Incentive Programs                                    0                         0                    0                      0
    C.	 DoD Education Benefits Fund                                                0                         0                    0                      0
    D.	Other                                                                       0                         0                    0                      0
    E.	 Total Other Actuarial Benefits                              $      1,406,105       $                 0    $       1,406,105      $       1,356,264
3.	 Total Military Retirement and Other Federal Employment
    Benefits:                                                       $      1,406,105       $                 0    $       1,406,105      $       1,356,264

Information Related to Military Retirement and Other Federal Employment Benefits

Federal Employees’ Compensation Act

The Army’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided to the
Army at the end of each fiscal year. The liability includes the expected liability for death, disability, medical, and miscellaneous costs
for approved compensation cases, plus a component for incurred-but-not-reported claims. The actuarial liability for the Federal
Employees’ Compensation Act (FECA) increased $49.8 million between FY 2011 and FY 2012.

Actuarial Cost Method

The liability is determined using a method that utilizes historical benefit payment patterns related to a specific incurred period to
predict the ultimate payments.

Market Value of Market-Based Securities

As of September 30, 2012, the market value of the nonmarketable, market-based securities held by the Army General Fund (GF) was
$2.2 million. Refer to Note 4, Investments and Related Interest, for additional information.
66    Fiscal Year 2012 United States Army Annual Financial Report


Assumptions

The projected annual benefit payments are discounted to the present value using the Office of Management and Budget’s economic
assumptions for 10-year U.S. Treasury notes and bonds. Cost-of-living adjustments (COLA) and consumer price index medical
(CPIM) factors provided by the Department of Labor are also applied to the calculation of projected future benefits. The estimated
actuarial liability is updated only at the end of each fiscal year.

Interest rate assumptions utilized for discounting were as follows:

Discount Rates
2.293% in Year 1;
3.138% in Year 2, and thereafter

To provide more specifically for the effects of the inflation on the liability for future workers’ compensation benefits, COLAs and
CPIMs were applied to the calculation of projected future benefits. The actual rates for these factors for the charge-back year (CBY)
2012 were used to adjust the historical payments associated with the methodology to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                                              CBY                     COLA           CPIM
                                              2012                      N/A            N/A
                                              2013                    2.83%          3.65%
                                              2014                    2.03%          3.66%
                                              2015                    1.93%          3.72%
                                              2016                    2.00%          3.73%
                                              2017+                   2.03%          3.80%

The resulting projections from the model were analyzed to ensure that the estimates were reliable. The analysis was based on four tests:
(1) a sensitivity analysis of the model in comparison to economic assumptions; (2) a comparison, by agency, of the percentage change
in the liability amount to the percentage change in the actual incremental payments; (3) a comparison of the incremental paid losses
per case (a measure of case-severity) in CBY 2012 to the average pattern observed during the most current three charge-back years; and
(4) a comparison of the estimated liability per case in the 2012 projection to the average pattern for the projections of the most recent
three years.

Other Disclosures

Actuarial liabilities are computed for employee compensation benefits as mandated by FECA. The Office of Personnel Management
provides updated Army actuarial liabilities during the 4th quarter of each fiscal year. The Army GF computes its portion of the total
Army actuarial liability based on the percentage of its FECA expense to the total Army FECA expense.
                                                                                                  Army General Fund 67
                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 18.	General Disclosures Related to the Statement of
         Net Cost
Intragovernmental Costs and Exchange Revenue
As of September 30                                                 2012                                      2011
(Amounts in thousands)
Military Retirement Benefits
1.	 Gross Cost
    A.	 Intragovernmental Cost                     $                                    0   $                                     0
    B.	 Nonfederal Cost                                                                 0                                         0
    C.	 Total Cost                                 $                                    0   $                                     0
2.	 Earned Revenue
    A.	 Intragovernmental Revenue                  $                                    0   $                                     0
    B.	 Nonfederal Revenue                                                              0                                         0
    C.	 Total Revenue                              $                                    0   $                                     0
3.	 Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits           $                                    0   $                                     0
Total Net Cost                                     $                                    0   $                                     0

Civil Works
1.	 Gross Cost
    A.	 Intragovernmental Cost                     $                                    0   $                                     0
    B.	 Nonfederal Cost                                                                 0                                         0
    C.	 Total Cost                                 $                                    0   $                                     0
2.	 Earned Revenue
    A.	 Intragovernmental Revenue                  $                                    0   $                                     0
    B.	 Nonfederal Revenue                                                              0                                         0
    C.	 Total Revenue                              $                                    0   $                                     0
3.	 Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits           $                                    0   $                                     0
Total Net Cost                                     $                                    0   $                                     0

Military Personnel
1.	 Gross Cost
    A.	 Intragovernmental Cost                     $                          19,431,947    $                          19,521,006
    B.	 Nonfederal Cost                                                       48,128,299                               50,770,273
    C.	 Total Cost                                 $                          67,560,246    $                          70,291,279
2.	 Earned Revenue
    A.	 Intragovernmental Revenue                  $                            (323,754) $                               (322,188)
    B.	 Nonfederal Revenue                                                          (349)                                      117
    C.	 Total Revenue                              $                            (324,103) $                               (322,071)
3.	 Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits           $                                   0    $                                   0
Total Net Cost                                     $                          67,236,143    $                          69,969,208
68    Fiscal Year 2012 United States Army Annual Financial Report


Intragovernmental Costs and Exchange Revenue
As of September 30                                                  2012                    2011
(Amounts in thousands)
Operations, Readiness & Support
1.	 Gross Cost
    A.	 Intragovernmental Cost                           $                 29,444,338   $          29,017,694
    B.	 Nonfederal Cost                                                    49,257,421              65,055,787
    C. 	 Total Cost                                      $                 78,701,759   $          94,073,481
2.	 Earned Revenue
    A.	 Intragovernmental Revenue                        $                             $            3,498,400
    B.	 Nonfederal Revenue                                                  5,559,902              (1,201,874)
    C.	 Total Revenue                                    $                   (579,196) $            2,296,526
3.	 Losses/(Gains) from Actuarial Assumption                                4,980,706
Changes for Military Retirement Benefits                 $                          0 $                     0
Total Net Cost                                           $                 83,682,465 $            96,370,007

Procurement
1.	 Gross Cost
    A.	 Intragovernmental Cost                           $                  8,162,541   $           6,755,174
    B.	 Nonfederal Cost                                                    23,054,079              30,607,867
    C.	 Total Cost                                       $                 31,216,620   $          37,363,041
2.	 Earned Revenue
    A.	 Intragovernmental Revenue                        $                 (1,953,087) $           (2,008,116)
    B.	 Nonfederal Revenue                                                    (61,141)                 18,418
    C.	 Total Revenue                                    $                 (2,014,228) $           (1,989,698)
3.	 Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits                 $                          0   $                   0
Total Net Cost                                           $                 29,202,392   $          35,373,343

Research, Development, Test & Evaluation
1.	 Gross Cost
    A.	 Intragovernmental Cost                           $                  3,013,426   $           2,693,848
    B.	 Nonfederal Cost                                                    10,980,143              11,902,958
    C.	 Total Cost                                       $                 13,993,569   $          14,596,806
2.	 Earned Revenue
    A.	 Intragovernmental Revenue                        $                 (4,464,361) $           (4,586,334)
    B.	 Nonfederal Revenue                                                   (107,171)               (173,483)
    C.	 Total Revenue                                    $                 (4,571,532) $           (4,759,817)
3.	 Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits                 $                          0   $                   0
Total Net Cost                                           $                  9,422,037   $           9,836,989
                                                                                                               Army General Fund 69
                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Intragovernmental Costs and Exchange Revenue
 As of September 30                                                             2012                                      2011
 (Amounts in thousands)
Family Housing & Military Construction
1.	 Gross Cost
    A	 Intragovernmental Cost                                   $                           1,668,213     $                           1,486,514
    B.	 Nonfederal Cost                                                                    23,898,567                                 9,645,378
    C.	 Total Cost                                              $                          25,566,780     $                          11,131,892
2.	 Earned Revenue
    A.	 Intragovernmental Revenue                               $                          (7,651,061) $                             (6,533,797)
    B.	 Nonfederal Revenue                                                                   (295,541)                                 (193,700)
    C.	 Total Revenue                                           $                          (7,946,602) $                             (6,727,497)
3.	 Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits                        $                                   0     $                                   0
Total Net Cost                                                  $                          17,620,178     $                           4,404,395

Consolidated
1.	 Gross Cost
    A.	 Intragovernmental Cost                                  $                          61,720,465     $                         59,474,236
    B.	 Nonfederal Cost                                                                   155,318,509                              167,982,263
    C.	 Total Cost                                              $                         217,038,974     $                        227,456,499
2.	 Earned Revenue
    A.	 Intragovernmental Revenue                               $                          (8,832,361) $                             (9,952,035)
    B.	 Nonfederal Revenue                                                                 (1,043,398)                               (1,550,522)
    C.	 Total Revenue                                           $                          (9,875,759) $                            (11,502,557)
3.	 Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits                        $                                   0     $                                  0
4.	 Costs Not Assigned to Programs                              $                                   0     $                                  0
5.	 (Less: Earned Revenues Not Attributed to Programs)          $                                   0     $                                  0
Total Net Cost                                                  $                         207,163,215     $                        215,953,942

Information Related to the Statement of Net Cost

Definitions

Intragovernmental costs and revenue represent transactions made between two reporting entities within the federal government.

Public costs and revenue are exchange transactions made between the reporting entity and a nonfederal entity.

Other Information Regarding Costs

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the federal government that is supported by
appropriations or other means. The intent of the SNC is to provide gross and net cost information related to the amount of output or
outcome for a given program or organization administered by a responsible reporting entity. The DoD’s current processes and systems
do not capture and report accumulated costs for major programs based upon the performance measures as required by the Government
Performance and Results Act. The DoD is in the process of reviewing available data and developing a cost reporting methodology
as required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting Concepts and
Standards for the Federal Government, as amended by SFFAS No. 30, Inter-entity Cost Implementation.

The amounts presented in the Consolidated SNC are based on funding, obligation, accrual, and disbursing transactions, which are not
always recorded using accrual accounting. The Army General Fund (GF) systems do not always record the transactions on an accrual
basis as is required by the generally accepted accounting principles. The information presented also includes data from nonfinancial
feeder systems to ensure that all cost and financing sources are captured for the Army GF.
70    Fiscal Year 2012 United States Army Annual Financial Report


Additional Disclosures

The Army GF systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side expenses are
adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying amounts between federal and
nonfederal expenses. Intradepartmental revenues and expenses are then eliminated.

The Army GF accounting systems do not capture information relative to heritage assets separately and distinctly from normal
operations. The Army GF is not able to separately identify the costs of acquiring, constructing, improving, reconstructing, or
renovating heritage assets. The Army Financial Improvement Plan outlines tasks to separately identify and report costs associated with
heritage assets by 1st Quarter, FY 2013.

The abnormal revenue balance impacting the Operations, Readiness & Support Program is attributable to the current business practice
which includes elimination reporting in this program group.


Note 19.	Disclosures Related to the Statement of Changes in
         Net Position
Information Related to the Statement of Changes in Net Position

Other Financing Sources, Other

Other Financing Sources, Other primarily consist of gains and losses that resulted from adjustments necessary to balance the Army
General Fund’s feeder systems with DoD’s financial reporting system and to correct inherent limitations of the current financial systems

Appropriations Received

The Appropriations Received line item on the Statement of Changes in Net Position (SCNP) does not agree with the Appropriation
line item on the Statement of Budgetary Resources (SBR). The $2.8 billion difference is due to additional resources included in the
Appropriation line item on the SBR. Refer to Note 20, Disclosures Related to the SBR, for further information.

Eliminations

In the SCNP, all offsetting balances (i.e., transfers-in and transfers-out, revenues, and expenses) for intraentity activity between
Earmarked Funds and All Other Funds are reported on the same lines. The Eliminations column contains all appropriate elimination
entries, which net to zero within each respective line, except for intraentity imputed financing costs.

Earmarked Cumulative Results of Operations

The ending balance for the Earmarked Cumulative Results of Operations on the SCNP does not agree with the Earmarked Cumulative
Results reported on the Balance Sheet because the cumulative results on the Balance Sheet are presented net of eliminations.

Change in Reporting Earmarked Funds

On June 1, 2012, the Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting Standards
(SFFAS) 43, Funds from Dedicated Collections, which amended SFFAS 27, Identifying and Reporting Earmarked Funds. The SFFAS 43,
which is effective for periods after September 30, 2012, changes the term “earmarked funds” to “funds from dedicated collections”
and clarifies the criteria for their classification. Effective FY 2013, the Defense Departmental Reporting System will report all funds
identified as “dedicated collections” only in the notes to the statements. Separate columns will no longer be required in the SCNP, but
this statement will contain a reference to the appropriate footnotes for further information on dedicated collections.
                                                                                                                     Army General Fund 71
                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 20.	Disclosures Related to the Statement of Budgetary
        Resources
 As of September 30                                                                2012                                      2011
 (Amounts in thousands)
1.	 Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                    $                          131,871,962    $                        139,093,091
2.	 Available Borrowing and Contract Authority at the End of the
    Period                                                         $                                    0    $                                    0

Information Related to the Statement of Budgetary Resources

Undelivered Orders

Undelivered Orders presented in the Statement of Budgetary Resources (SBR) include Undelivered Orders-Unpaid for both direct and
reimbursable funds

Reporting of Appropriations Received

The Appropriations line on the SBR does not agree with the Appropriations Received line on the Statement of Changes in Net Position
because of differences between proprietary and budgetary accounting concepts and reporting requirements. These differences, totaling
$2.8 billion, consist of the receipts for special and trust funds.

Presentation of Statement of Budgetary Resources

The SBR includes intraentity transactions because the statements are presented as combined.

Breakdown of Apportionment Categories

The amount of direct and reimbursable obligations incurred against amounts apportioned under Category A (apportioned by fiscal
quarter), Category B (apportioned by project or activity), and Exempt from Apportionment is as follows:

                                (Amounts in billions)
                                Budgetary                                   Direct             Reimbursable
                                Category A                                         $181.5                    $3.9
                                Category B                                          $55.1                   $27.2
                                Exempt from Apportionment                               *                      **
                                    Total                                          $236.7                   $31.1

                                (Amount in thousands)
                                Non-Budgetary                               Direct             Reimbursable
                                Category A                                                -                      -

* The Exempt from Apportionment amount is $4.6 million.
** The Exempt from Apportionment amount is $0.1 million.

The above disclosure agrees (1) with the aggregate of the related information as reported on the Standard Form (SF) 133, Report on
Budget Execution and (2) with Obligations Incurred as reported on the SBR.

The use of unobligated balances of the expired funding is restricted by time limit, purpose, and obligation limitations.
72    Fiscal Year 2012 United States Army Annual Financial Report


Terms of Borrowing Authority

Borrowing authority is used for guaranteed loan defaults relating to the Armament Retooling and Manufacturing Support (ARMS)
Initiative. This initiative is designed to encourage commercial use of inactive Army General Fund (GF) ammunition plants through
many incentives for businesses willing to locate to a government ammunition production facility. The Army GF, by means of ARMS
Initiative legislation, established a loan guarantee program to facilitate commercial firms’ use of specified ammunition manufacturing
facilities. The Army GF and Department of Agriculture Rural Business-Cooperative Service (RBS) established a memorandum of
understanding for the RBS to administer the ARMS Initiative Loan Guarantee Program.

Borrowings are repaid on SF 1151, Nonexpenditure Transfer Authorization, as maturity dates become due. For liquidating accounts,
maturity dates are one working day prior to the anniversary date of the note. For financing accounts, maturity dates are based on the
period of time used in the subsidy calculation, not the contractual term of the agency’s loans to borrowers.

There was no borrowing authority available as of September 30, 2012.


Note 21.	Reconciliation of Net Cost of Operations to Budget
 As of September 30                                                            2012                                2011
 (Amounts in thousands)
Resources Used to Finance Activities:
Budgetary Resources Obligated:
1.	 Obligations incurred                                              $                267,822,441    $                     283,449,288
2.	 Less: Spending authority from offsetting collections and
     recoveries (-)                                                                    (62,187,722)                         (53,503,245)
3.	 Obligations net of offsetting collections and recoveries          $                205,634,719 $                        229,946,043
4.	 Less: Offsetting receipts (-)                                                          828,530                             (856,292)
5.	 Net obligations                                                   $                206,463,249 $                        229,089,751
Other Resources:
6.	 Donations and forfeitures of property                             $                     35,024 $                                237
7.	 Transfers in/out without reimbursement (+/-)                                         4,357,168                            1,800,665
8.	 Imputed financing from costs absorbed by others                                      1,043,601                            1,283,044
9.	 Other (+/-)                                                                        (22,178,368)                         (10,434,410)
10.	 Net other resources used to finance activities                   $                (16,742,575) $                        (7,350,464)
11.	 Total resources used to finance activities                       $                189,720,674 $                        221,739,287
Resources Used to Finance Items Not Part of the Net Cost of
     Operations:
12.	 Change in budgetary resources obligated for goods, services
     and benefits ordered but not yet provided:
     12a.	 Undelivered Orders (-)                                     $                     628,452   $                      (2,395,513)
     12b.	 Unfilled Customer Orders                                                       1,104,954                           1,717,357
13.	 Resources that fund expenses recognized in prior periods (-)                       (2,052,694)                          (2,704,006)
14.	 Budgetary offsetting collections and receipts that do not
     affect Net Cost of Operations                                                        (827,667)                             856,567
15.	 Resources that finance the acquisition of assets (-)                              (14,240,034)                         (24,555,719)
16.	 Other Resources or Adjustments to Net Obligated Resources
     That Do Not Affect Net Cost of Operations:
     16a.	 Less: Trust or Special Fund Receipts Related to exchange
           in the Entity’s Budget (-)                                                            0                                    0
     16b.	 Other (+/-)                                                                  17,786,177                            8,633,510
17.	 Total resources used to finance items not part of the Net Cost
     of Operations                                                    $                  2,399,188    $                     (18,447,804)
18.	 Total resources used to finance the Net Cost of Operations       $                192,119,862    $                     203,291,483
                                                                                                                  Army General Fund 73
                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


 As of September 30                                                                2012                                      2011
 (Amounts in thousands)
Components of the Net Cost of Operations That Will Not
     Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future
     Periods:
19.	 Increase in annual leave liability                          $                                42,899    $                              182,781
20.	 Increase in environmental and disposal liability                                                  0                                         0
21.	 Upward/downward reestimates of credit subsidy expense (+/-)                                       0                                         0
22.	 Increase in exchange revenue receivable from the public (-)                                  66,223                                   (33,360)
23.	 Other (+/-)                                                                                 872,982                                   673,693
24.	Total Components of Net Cost of Operations That Will Require
     or Generate Resources in Future Periods                       $                             982,104    $                              823,114
Components Not Requiring or Generating Resources:
25.	 Depreciation and amortization                                 $                          12,109,975    $                          16,375,441
26.	 Revaluation of assets or liabilities (+/-)                                                        0                                  (34,774)
27.	 Other (+/-)
     27a.	 Trust Fund exchange revenue                                                                 0                                         0
     27b.	 Cost of goods sold                                                                          0                                         0
     27c.	 Operating material and supplies used                                                     (513)                                        0
     27d.	Other                                                                                1,951,787                                (4,501,324)
28.	Total Components of Net Cost of Operations That Will Not
    Require or Generate Resources                                  $                          14,061,249    $                          11,839,343


29.	Total Components of Net Cost of Operations That Will Not
    Require or Generate Resources in the Current Period            $                          15,043,353    $                          12,662,457
30.	Net Cost of Operations                                         $                        207,163,215     $                         215,953,940


Information Related to the Reconciliation of Net Cost of Operations to Budget

Required Disclosures

Due to the limitations of the Army General Fund (GF) financial systems, budgetary data do not agree with proprietary expenses and
capitalized assets. The difference between budgetary and proprietary data is a previously identified deficiency.

The amount of the adjustment to the note schedule to bring it into balance with the Statement of Net Cost totaled
$9.6 billion and was reported in the category of Other Components Not Requiring or Generating Resources.

The Reconciliation of Net Cost of Operations to Budget is intended to explain and define the relationship between net obligations
from budgetary accounting and net cost of operations from proprietary accounting. The following Reconciliation of Net Cost
of Operations to Budget lines is presented as combined instead of consolidated due to intraagency budgetary transactions not
being eliminated:

     ÂÂ   Obligations Incurred
     ÂÂ   Less: Spending authority from offsetting collections and recoveries
     ÂÂ   Obligations net of offsetting collections and recoveries
     ÂÂ   Less: Offsetting Receipts
     ÂÂ   Net Obligations
     ÂÂ   Undelivered Orders
     ÂÂ   Unfilled Customer Orders

Budgetary Resources Obligated, Other include (1) other gains and losses and (2) gains and losses on disposition of assets. These latter
gains and losses resulted from adjustments necessary to balance the Army GF’s feeder systems with DoD’s financial reporting system
and to correct inherent limitations of the current financial systems.
74    Fiscal Year 2012 United States Army Annual Financial Report


Other Resources or Adjustments to Net Obligated Resources That Do not Affect Net Cost of Operations, Other include financing
sources transferred in and out without reimbursement, other gains and losses, and gains and losses on disposition of assets.

Components Requiring or Generating Resources in Future Period, Other represent increases in future-funded expenses for
conventional disposal costs and contingent liabilities for contract appeals and tort claims.

Components not Requiring or Generating Resources, Other are comprised of other expenses not requiring budgetary resources for
the Iraqi Relief and Reconstruction Fund—a transfer fund in which the Army GF executes the funding on behalf of the Executive
Office of the President. The U.S. Treasury requires that the execution for this type of transfer is presented on the Army GF financial
statements. This line also includes the current year change in Construction-in-Progress balances.


Note 22.	Disclosures Related to Incidental Custodial
        Collections
The Army General Fund does not collect incidental custodial revenues.


Note 23.	Earmarked Funds
                                                                                                            2012
 BALANCE SHEET                                                                      Medicare-Eligible
 As of September 30                                                    Military      Retiree Health     Other Earmarked
 (Amounts in thousands)                                           Retirement Fund      Care Fund             Funds        Eliminations           Total

ASSETS
Fund Balance with Treasury                                        $             0   $               0   $      35,147     $              0   $     35,147
Investments                                                                     0                   0           2,181                    0          2,181
Accounts and Interest Receivable                                                0                   0               0                    0              0
Other Assets                                                                    0                   0             114                    0            114
Total Assets                                                      $             0   $               0   $      37,442     $              0   $     37,442
LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal Employment
    Benefits                                                      $             0   $               0   $           0     $              0   $          0
Other Liabilities                                                               0                   0           1,230                    0          1,230
Total Liabilities                                                 $             0   $               0   $       1,230     $              0   $      1,230
Unexpended Appropriations                                                       0                   0               0                    0              0
Cumulative Results of Operations                                                0                   0          36,212                    0         36,212
Total Liabilities and Net Position                                $             0   $               0   $      37,442     $              0   $     37,442

STATEMENT OF NET COST
For the period ended September 30
Program Costs                                                     $             0   $               0   $      26,197     $              0   $     26,197
Less: Earned Revenue                                                            0                   0             (44)                   0            (44)
Net Program Costs                                                 $             0   $               0   $      26,153     $              0   $     26,153
Less: Earned Revenue Not Attributable to Programs                               0                   0               0                    0              0
Net Cost of Operations                                            $             0   $               0   $      26,153     $              0   $     26,153

STATEMENT OF CHANGES IN NET POSITION
For the period ended September 30
Net Position Beginning of the Period                              $             0   $               0   $      49,586     $              0   $     49,586
Net Cost of Operations                                            $             0   $               0   $      26,153     $              0   $     26,153
Budgetary Financing Sources                                                     0                   0           4,001                    0          4,001
Other Financing Sources                                                         0                   0           8,778                    0          8,778
Change in Net Position                                            $             0   $               0   $     (13,374)    $              0   $    (13,374)
Net Position End of Period                                        $             0   $               0   $      36,212     $              0   $     36,212
                                                                                                                            Army General Fund 75
                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


                                                                                                              2011
 BALANCE SHEET                                                                        Medicare-Eligible
 As of September 30                                                      Military      Retiree Health     Other Earmarked
 (Amounts in thousands)                                             Retirement Fund      Care Fund             Funds          Eliminations           Total

ASSETS
Fund Balance with Treasury                                           $            0   $               0   $      47,140      $               0   $     47,140
Investments                                                                       0                   0           3,205                      0          3,205
Accounts and Interest Receivable                                                  0                   0               0                      0              0
Other Assets                                                                      0                   0               0                      0              0
Total Assets                                                         $            0   $               0   $      50,345      $               0   $     50,345
LIABILITIES and NET POSITION
Military Retirement Benefits and Other Federal Employment
    Benefits                                                         $            0   $               0   $           0      $               0   $          0
Other Liabilities                                                                 0                   0             759                      0            759
Total Liabilities                                                    $            0   $               0   $         759      $               0   $        759
Unexpended Appropriations                                                         0                   0               0                      0              0
Cumulative Results of Operations                                                  0                   0          49,586                      0         49,586
Total Liabilities and Net Position                                   $            0   $               0   $      50,345      $               0   $     50,345

STATEMENT OF NET COST
For the period ended September 30
Program Costs                                                        $            0   $               0   $      15,559      $               0   $     15,559
Less: Earned Revenue                                                              0                   0            (154)                     0           (154)
Net Program Costs                                                    $            0   $               0   $      15,405      $               0   $     15,405
Less: Earned Revenue Not Attributable to Programs                                 0                   0               0                      0              0
Net Cost of Operations                                               $            0   $               0   $      15,405      $               0   $     15,405

STATEMENT OF CHANGES IN NET POSITION
For the period ended September 30
Net Position Beginning of the Period                                 $            0   $               0   $      58,686      $               0   $     58,686
Net Cost of Operations                                               $            0   $               0   $      15,405      $               0   $     15,405
Budgetary Financing Sources                                                       0                   0           9,137                      0          9,137
Other Financing Sources                                                           0                   0          (2,832)                     0         (2,832)
Change in Net Position                                               $            0   $               0   $      (9,100)     $               0   $     (9,100)
Net Position End of Period                                           $            0   $               0   $      49,586      $               0   $     49,586

Information Related to Earmarked Funds

Earmarked Funds represent funds received from outside sources for specific purposes. The Army General Fund (GF) receives
earmarked funds for the following appropriations:

Sale of Hunting and Fishing Permits. Fees are received from individuals for the issuance of special hunting and fishing permits. The
funds for this account are used for wildlife, fish, and game conservation and rehabilitation on military reservations. Title 10, United
States Code (USC) 670b gives the authority to collect and distribute funds for the intended purposes.

Restoration of Rocky Mountain Arsenal. Funds are received from private industry for the cleanup of contaminated areas of Rocky
Mountain Arsenal. Public Law (PL) 99 661, Section 1367, provides the authority for this explicit use.

Royalties for Use of DoD-Military Insignia and Trademarks. Funds are received from the sale of commemorative memorabilia,
trademarks, and licensing activities. The funds are used to replenish inventory stock for such items and other related commemorative
program expenses. The authority to create expenditures originates from PL 102 484, Section 378.

Forest and Wildlife Conservation, Military Reservations. Funds are received from the sales of forest products harvested from forests
on military installations and distributed to the respective states involved in the sales. Each state is entitled to 40 percent of the sales
of products from its forest after reimbursement of DoD appropriations for the costs of production. Title 10, USC 2665 provides
authority for this fund and for payments to the states.
76    Fiscal Year 2012 United States Army Annual Financial Report


National Science Center. Funds received from the collection of fees are used for the operation and maintenance of the National
Science Center as authorized under PL 99-145, Defense Authorization Act, 1986, Section 1459.

Bequest of Major General Fred C. Ainsworth to Walter Reed Army Medical Center. Funds received from interest on investments are
used for purchasing supplies and equipment for the library at the Walter Reed Army Medical Center. The Army cannot currently
identify the statutory citation that provides authority for the use of this fund. The appropriation for this earmarked fund is 21X8063.

Department of the Army General Gift Fund. Funds are received from private parties and estates and used for various purposes. Title
10, USC 2601 establishes the authority governing the use of this fund.

On June 1, 2012, the Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting Standards
(SFFAS) 43, Funds from Dedicated Collections, which amended SFFAS 27, Identifying and Reporting Earmarked Funds. The SFFAS 43,
which is effective for periods after September 30, 2012, changes the term “earmarked funds” to “funds from dedicated collections.”
In 1st Quarter, FY 2013, the Army GF will report its dedicated collections in accordance with SFFAS 43 requirements.


Note 24.	Fiduciary Activities
 As of September 30                                                            2012                                2011
 (Amounts in thousands)
1.	 Fiduciary Net Assets, beginning of year                      $                          129,380    $                        119,885
2.	 Fiduciary Revenues                                           $                                0    $                              0
3.	Contributions                                                                            126,011                             180,725
4.	 Investment Earnings                                                                       9,624                              11,677
5. 	 Gain (Loss) on Disposition of Investments, Net                                               0                                   0
6.	 Administrative and Other Expenses                                                             0                                   0
7.	 Distributions to and on behalf of beneficiaries                                        (169,594)                           (182,908)
8.	 Increase/Decrease in Fiduciary Net Assets                    $                          (33,959)   $                          9,494
9.	 Fiduciary Net Assets, end of period                          $                           95,421    $                        129,379


 As of September 30                                                            2012                                2011
 (Amounts in thousands)
Fiduciary Assets
1.	 Cash and Cash Equivalents                                    $                          95,421     $                        129,380
2.	Investments                                                                                   0                                    0
3.	 Other Assets                                                                                 0                                    0
Fiduciary Liabilities
4.	 Less: Liabilities                                                                            0                                    0
5.	 Total Fiduciary Net Assets                                   $                          95,421     $                        129,380

Information Related to Fiduciary Activities

Fiduciary activities are those federal government activities that relate to the collection or receipt of cash or other assets in which
nonfederal individuals or entities have an ownership interest that the federal government must uphold. Fiduciary activities also
include managing, protecting, accounting for, investing, and disposing of such cash or other assets. The DoD has a fiduciary duty to
the Savings Deposit Program in which the Army General Fund (GF) participates. Public Law 89-538 authorizes DoD, through the
Savings Deposit Program, to collect a voluntary allotment from the current pay of members of the armed forces deployed outside the
United States or its possessions in designated areas. The Army GF collects the savings and allotments of soldiers, and the collections
and accrued earned interest are transferred to the Navy General Fund, the program’s executive agent. These fiduciary assets are not
assets of the Army GF and are not recognized on its Balance Sheet.
                                                                                          Army General Fund 77
                                       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 25.	Other Disclosures
As of September 30                                                               2012
 (Amounts in thousands)                     Land and Buildings       Equipment             Other                Total

1. ENTITY AS LESSEE-Operating Leases
    Future Payments Due
    Fiscal Year
    2013                                    $              67    $               0   $                0   $              67
    2014                                                   67                    0                    0                  67
    2015                                                   67                    0                    0                  67
    2016                                                   67                    0                    0                  67
    2017                                                   67                    0                    0                  67
    After 5 Years                                      15,084                    0                    0              15,084
Total Future Lease Payments Due             $          15,419    $               0   $                0   $          15,419



Note 26.	Restatements
Not applicable.
78     Fiscal Year 2012 United States Army Annual Financial Report



FY 2012 Required Supplementary Stewardship Information
The following summarizes nonfederal physical property. Investments in non-federal physical property refers to those expenses incurred
by the Army for the purchase, construction, or major renovation of physical property owned by state and local governments, including
major additions, alterations, and replacements; the purchase of major equipment; and the purchase of improvement to other physical
assets. A schedule of estimated investments value of state-owned properties that are used by the federal government is shown below.

                                             Nonfederal Physical Property: Yearly Investments in State and
                                                Local Governments for Fiscal Years 2008 through 2012
(Amounts in millions)
                                      (a)                                             (b)                (c)              (d)               (e)                (f)
                                 Categories                                       FY 2012            FY 2011          FY 2010           FY 2009           FY 2008
Transferred Assets:
1.	 National Defense Mission Related                                                     $32.4             $31.5             $22.2             $26.7             $34.2
Funded Assets:
2.	 National Defense Mission Related                                                          0                 0                 0                 0                 0
Totals                                                                                   $32.4             $31.5             $22.2             $26.7             $34.2


The Army General Fund (GF) incurs investments in nonfederal physical property for the purchase, construction, or major renovation
of physical property owned by state and local governments, including major additions, alterations, and replacements;the purchase of
major equipment; and the purchase or improvement of other nonfederal assets. In addition, nonfederal physical property investments
include federally-owned physical property transferred to state and local governments.

Investment values included in this report are based on nonfederal physical property outlays (expenditures). Outlays are used because
current DoD accounting systems are unable to capture and summarize costs in accordance with federal accounting standards.

The following table summarizes basic research, applied research, and development investments and provides examples of each.

                               Yearly Investments in Research and Development for Fiscal Years 2008 through 2012
(Amounts in millions)
                                      (a)                                             (b)                (c)              (d)               (e)                (f)
                                 Categories                                       FY 2012           FY 20111          FY 2010           FY 2009           FY 2008
Basic Research                                                                          $356.5            $414.4            $405.5            $392.7            $345.9
Applied Research                                                                       1,102.4           1,161.6             728.3           1,191.1           1,147.4
Development
     Advanced Technology Development                                                   1,151.0           1,187.2             941.0           1,341.8           1,336.5
     Advanced Component Development and Prototypes                                       737.3             989.9             781.3           1,023.8             719.8
     Systems Development and Demonstration                                             2,823.8           3,424.0           1,913.7           4,883.9           4,981.4
     Research, Development, Test and Evaluation
                                                                                       1,320.6           1,397.4             726.3           1,387.1           1,317.1
     Management Support
     Operational Systems Development                                                   1,173.4           1,291.0             690.2           1,700.9           1,459.2
Totals                                                                               $8,665.0          $9,865.5          $6,186.3        $11,921.3         $11,307.3

Note 1: The amounts reported at 4th Quarter, FY 2011 for Yearly Investments in Research and Development were incorrect due to calculation errors. The correct numbers are
shown above.

Narrative Statement

Research and development (R&D) programs are classified in the following categories: basic research, applied research, and
development. The definition for each type of R&D category and subcategories is explained below.

Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and observable
facts without specific applications, processes, or products in mind. Basic research involves the gathering of a fuller knowledge or
understanding of the subject under study. Major outputs are scientific studies and research papers.
                                                                                                                   Army General Fund 79
                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


The following are two representative program examples for each of the major categories:

Defense Research Sciences (PE 0601102A): This program fosters fundamental scientific knowledge and contributes to the sustainment
of Army scientific and technological superiority in land warfighting capability; provides new concepts and technologies for the Army’s
future force; and provides the means to exploit scientific breakthroughs and avoid technological surprises. It fosters innovation in Army
niche areas (such as lightweight armor, energetic materials, night vision) and when the commercial incentive to invest is lacking due
to limited markets, e.g., vaccines for tropical diseases. It also focuses universal single investigators on research areas of Army interest,
such as high-density compact power and novel sensor phenomenologies. The in-house portion of the program capitalizes on the Army’s
scientific talent and specialized facilities to expeditiously transition knowledge and technology into the appropriate developmental
activities. The extramural program leverages the research efforts of other government agencies, academia, and industry. This translates
to a coherent, well-integrated program which is executed by four primary contributors: (1) the Army Research, Development,
and Engineering Command; (2) the U.S. Army Engineer Research and Development Center; (3) the Army Medical Research and
Materiel Command laboratories; and, (4) the Army Research Institute for Behavioral and Social Sciences. The basic research program
is coordinated with the other services via Defense Science and Technology Reliance (Defense Basic Research Advisory Group) and
other inter-service working groups. This program responds to the scientific and technological requirements of the DoD Basic Research
Plan by enabling technologies that can significantly improve joint war-fighting capabilities. The projects in this program involve basic
research efforts directed toward providing fundamental knowledge that will contribute to the solution of military problems related to
long-term national security needs.

University and Industry Research Centers (PE 0601104A): A significant portion of the work performed within this program directly
supports future force requirements by providing research that supports enabling technologies for future force capabilities. Broadly, the
work in this project falls into three categories: collaborative technology alliances (CTAs), university centers of excellence (COEs), and
paradigm-shifting centers, university-affiliated research centers (UARCs). The Army has formed CTAs to leverage large investments
by the commercial sector in basic research areas that are of great interest to the Army. The CTAs involve partnerships among industry,
academia, and the Army Research Laboratory (ARL) to incorporate the practicality of industry; the expansion of the boundaries
of knowledge from universities; and the ability of Army scientists to shape, mature and transition technology. The CTAs have been
competitively established in the areas of advanced sensors, advanced decision architecture, communications and networks, power
and energy, and robotics. This program element includes the Army’s COEs, which focus on expanding the frontiers of knowledge
in research areas where the Army has enduring needs, such as rotorcraft, automotive, microelectronics, materials, and information
sciences. The COEs couple state-of-the-art research programs at academic institutions with broad-based graduate education programs
to increase the supply of scientists and engineers in information sciences, materials science, electronics, automotive, and rotary-
wing technology. Also included is eCYBERMISSION, the Army’s national, web-based competition to stimulate interest in science,
math, and technology among middle and high school students. This program also includes the four Army UARCs, which have been
created to exploit opportunities to advance new capabilities through a sustained long-term, multi-disciplinary effort. The Institute of
Advanced Technology funds basic research in electromagnetics and hypervelocity physics. The Institute for Soldier Nanotechnologies
(ISN) focuses on Soldier protection by emphasizing revolutionary materials research for advanced Soldier protection and survivability.
The Institute for Collaborative Biotechnologies, focusing on enabling network-centrictechnologies, will broaden the Army’s use
of biotechnology for the development of bio-inspired materials, sensors, and information processing. The Institute for Creative
Technologies is a partnership with academia and the entertainment and gaming industries to leverage innovative research and concepts
for training and simulation.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by which a
recognized and specific need may be met. It is the practical application of such knowledge or understanding for the purpose of meeting
a recognized need. This research points toward specific military needs with a view toward developing and evaluating the feasibility and
practicability of proposed solutions and determining their parameters. Major outputs are scientific studies, investigations, research
papers, hardware components, software codes, and limited construction of, or part of, a weapon system to include non-system specific
development efforts.

The following are two representative program examples for this category:

Materials Technology (PE 0602105A): This program funds research and evaluation of materials technologies for armor and armaments
that will significantly enhance the survivability and lethality of future force systems and, when feasible, can be exploited to enhance
the current force. This program builds on materials research transitioned from the Defense Research Sciences Materials and Mechanics
80    Fiscal Year 2012 United States Army Annual Financial Report


Project and applies it to specific Army platforms and the individual Soldier. This program is directed toward developing materials
technology that contributes to making heavy forces lighter and more deployable and light forces more lethal and survivable. The
program provides the technology base required for solving materials-related problems in individual Soldier support equipment, armor,
armaments, aircraft, ground and combat vehicles, and combat support. This program also funds collaborative research efforts in
nanomaterials technology among the ARL, the ISN at the Massachusetts Institute of Technology, and the ISN industry partners. The
effort is focused specifically on the improvement in individual Soldier protection.

Combat Vehicle and Automotive Technology (PE 0602601A): This program researches, investigates, and applies combat vehicle
and automotive component technologies that enhance survivability, mobility, sustainability, and maintainability of Army ground
combat and tactical vehicles. As combat vehicle systems become smaller and lighter, and tactical vehicles are more often exposed to
combat conditions, one of the greatest technological and operational challenges is providing adequate crew protection without reliance
on heavy, passive armor. This challenge will be met using a layered approach, including long-range situational awareness, advanced
lightweight opaque and transparent armors, active protection systems, and multi-spectral signature reduction. Another focus of the
program is on designing, fabricating, and evaluating performance of integrated and add-on lightweight armor packages needed to
provide lightweight combat vehicles protection against chemical energy and kinetic energy threats with less than one-fourth the weight
of conventional heavy armor. Additionally, the program is organized to design, fabricate, and evaluate structural and add-on armors for
tactical vehicles. This program funds the National Automotive Center (NAC). The goal of the NAC is to leverage large, commercial
investments in automotive technology, research, and development by pursuing automotive-oriented technology programs that have
potential benefit to military ground vehicles. The research and investigation of a variety of enabling technologies in the areas of hybrid
electric propulsion, mobility, thermal management, intelligent systems, vehicle diagnostics, fuels/lubricants, and water purification is
also part of the program function. Future force vehicles and new tactical vehicles are being designed with hybrid electric architectures,
advanced high-power density engines, and auxiliary power units that provide power for propulsion, control systems, communications,
life support systems, electromagnetic armor, Soldier battery charging, and export to other systems.

Development takes what has been discovered or learned from basic and applied research and uses it to establish technological
feasibility, assessment of operability, and production capability. Development is comprised of the five stages defined below; program
examples follow:

     1.	 Advanced Technology Development is the systematic use of the knowledge or understanding gained from research directed
         toward proof of technological feasibility and assessment of operations and productibility rather than the development of
         hardware for service use. It employs demonstration activities intended to prove or test a technology or method.

     2.	 Advanced Component Development and Prototypes (ACD&P) evaluates integrated technologies in as realistic an operating
         environment as possible to assess the performance or cost reduction potential of advanced technology. Programs in this phase
         are generally system specific. Major outputs of ACD&P are hardware and software components, or complete weapon systems
         ready for operational and developmental testing and field use.

     3.	 System Development and Demonstration concludes the program or project and prepares it for production. It consists
         primarily of pre-production efforts, such as logistics and repair studies. Major outputs are weapons systems finalized for
         complete operational and developmental testing.

     4.	 Research, Development, Test & Evaluation Management Support is support for installations and operations for general R&D
         use. This category includes costs associated with test ranges, military construction maintenance support for laboratories,
         operation and maintenance of test aircraft and ships, and studies and analyses in support of the R&D program.

     5.	 Operational Systems Development is concerned with development projects in support of programs or upgrades still in
         engineering and manufacturing development, which have received approval for production, and for which production funds
         have been budgeted in subsequent fiscal years.

Electronic Warfare Advanced Technology (PE 0603008A): The goal of this program is to provide the Army’s future force enabling
technologies for a secure, mobile, wireless network that will operate reliably in diverse and complex terrain, in all environments, and,
when feasible, to exploit opportunities to enhance current force capabilities. Technologies will be matured and demonstrated to address
this challenge with distributed, mobile, secure, self-organizing communications networks. A key objective is to demonstrate seamlessly
integrated communications technologies across all network tiers, ranging from unattended networks and sensors through maneuver
elements and airborne/space assets. To accomplish the goal, this program will investigate and leverage external communication
technologies and combine technology options in a series of command, control, communications, and computers intelligence,
                                                                                                                  Army General Fund 81
                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


surveillance, and reconnaissance on-the-move experiments to measure the battlefield effectiveness for the future force. This program
also provides (1) protection technologies for tactical wireless networks against modern network attacks; (2) smart communication
technologies to network and control unmanned systems anywhere on the battlefield, enabling timely sensor-decider-engagement
linkage to defeat critical targets; (3) advanced antenna technologies for greater communications mobility, range, and throughput; and,
(4) automated network management aids.

Aviation - Advanced Development (PE 0603801A): This program provides advanced development aviation support of tactical
programs associated with air mobility, advanced maintenance concepts and equipment, and Aircrew Integrated Systems. This program
demonstrates the feasibility and maturity of new technology and gains understanding in order to evaluate utility of this technology
to expedite delivery of new capabilities for Army aviation rotary-wing assets. Additionally, the aviation ground support equipment
assets enhance the functionality of current and future aircraft by (1) improving the effectiveness of maintenance and servicing
operations through validating new maintenance concepts to improve man and machine interfaces; (2) improving aircraft maintenance
processes; (3) reducing operation and support costs; , and, (4) inserting diagnostics technologies to replace obsolete and unsupportable
equipment.

Patriot/Medium Extended Air Defense System Combined Aggregate Program (CAP) (PE 0604869A): The Medium Extended Air
Defense System (MEADS) program is a tri-national, co-development program among the United States, Germany, and Italy to replace
the U.S. Patriot air defense systems, Patriot and Hawk systems in Germany, and Nike Hercules systems in Italy. The North Atlantic
Treaty Organization (NATO) MEADS Management Agency (NAMEADSMA) is the NATO contracting authority that manages
the system acquisition, and the MEADS program, itself, on behalf of participating nations. Within the Patriot/MEADS CAP, there
are two synergistic efforts: (1) an international MEADS development effort managed by NAMEADSMA; and, (2) a U.S. effort to
inject U.S.-specific capability requirements into the MEADS major end items. The MEADS will provide joint and coalition forces
with critical asset and defended area protection against multiple and simultaneous attacks by short- to medium-range ballistic missiles,
cruise missiles, unmanned aerial vehicles and tactical air-to-surface missiles. The Missile Segment Enhancement (MSE) missile has
been accepted as the baseline missile for MEADS. It is being developed for the Patriot system to meet U.S. operational requirements.
The MSE will provide a more agile and lethal interceptor that increases the engagement envelope/defended area of the Patriot and the
MEADS systems. The Patriot Advanced Capability-3 (PAC-3) MSE improves upon the current PAC-3 missile capability by providing
a higher performance solid rocket motor, modified lethality enhancer, more responsive control surfaces, upgraded guidance software,
and insensitive munitions improvements.

Army Test Ranges and Facilities (0605601A): This program funds the indirect test costs associated with rapidly-testing field systems
and equipment needed in support of the War on Terror, such as individual Soldier protection equipment and countermeasures for
improvised explosive devices and up-armoring the Army’s wheeled vehicle fleet. This project sustains the developmental test and
evaluation capability required to support Army as well as joint service or other service systems’ hardware and technologies. Unclassified
systems scheduled for developmental testing encompass the entire spectrum of weapons systems. Capabilities are also required to
support system-of-systems and network-centric systems to include future combat system testing.

This project provides the institutional funding required to operate the developmental test activities required by DoD program executive
officers; program and product managers; and research, development, and engineering centers. This project resources four DoD major
range and test facility bases: White Sands Missile Range, New Mexico; Aberdeen Test Center, Maryland; Electronic Proving Ground,
Arizona; and Yuma Proving Ground, Arizona, and includes management of natural environmental testing at Cold Regions Test Center,
Fort Greely and Fort Wainwright, Alaska, and the Tropic Regions Test Center at various locations. This project also funds the Army’s
developmental test capability at Aviation Technical Test Center and Redstone Technical Test Center, both in Alabama. Test planning
and safety verification at Headquarters, U.S. Army Developmental Test Command, Maryland, is also supported by this program.

Information Systems Security Program (0303140A): The Communications Security Equipment Program develops information
systems security (ISS) equipment and techniques required to combat threat signal intelligence capabilities and to ensure the integrity
of data networks. The Army’s Research, Development, Test, and Evaluation ISS program objective is to implement National Security
Agency-developed security technology in Army information systems. Communications security equipment technology ensures total
signal and data security for all Army information systems to include any operational enhancement and specialized configurations.

National Defense Property, Plant, and Equipment: The Federal Accounting Standards Advisory Board revised the Statement of Federal
Financial Accounting Standards No. 6 to require the capitalization and depreciation of military equipment (formerly National Defense
Property, Plant and Equipment) for Fiscal Year 2003 and beyond, and encouraged early implementation.
82     Fiscal Year 2012 United States Army Annual Financial Report



Fiscal Year 2012 Required Supplementary Information
                                General Property, Plant, and Equipment Real Property Deferred Maintenance
                                            Amounts for Fiscal Year Ended September 30, 2012
                           (Amounts in millions)                       Current Fiscal Year

                                                         Plant               Required Work
                                Property Type                                                        Percentage
                                                   Replacement Value     (deferred maintenance)

                                      Category 1            $231,826                 $32,237                      14%
                                      Category 2             $14,723                   $5,010                     34%
                                      Category 3              $7,702                       $0                     0%

Narrative Statement

In accordance with DoD Financial Management Regulation 7000.14-R (updates through February 2012), Volume 6B, Chapter 12,
Paragraph 120303. B.1., the Army’s FY 2012 deferred maintenance estimates include all facilities in which DoD has ownership interest
under the control of the Army. Previous deferred maintenance estimates did not include nonArmy assets.

The deferred maintenance estimates are based on the facility Q-ratings reported in the Installation Status Report (ISR) for 4th Quarter,
FY 2012 or Q-ratings obtained by application of business rules described below. For FY 2012, the Q-rating values range from 0 to
100. Deferred maintenance is calculated as follows:

                            Deferred Maintenance = (100 – Q-rating) x 0.01 x plant replacement value (PRV).

Q-ratings are determined by the ISR for the majority of facilities, and by business rule for the remaining facilities. During ISR data
collection, facility occupants evaluate the condition of each facility against published standards. The inspection generates a quality
improvement cost estimate for each facility based on the condition rating of each component of the facility, and the component
improvement cost factor. Improvement cost factors are developed using industry standards for each facility component within each
facility type. The business rule assignment of Q-ratings is as follows: 95 if the facility is no more than 5 years old; 85 if the facility
is permanent or semi-permanent construction and between 5 and 15 years old; 70 if the facility is permanent or semi-permanent
construction and more than 15 years old; 40 if the facility is temporary construction and more than 5 years old; 95 if the asset is a
lease. Acceptable operating condition represents facilities with no deferred maintenance.

Facilities with an ownership interest of “FEE” are included in the data set.

Property Categories are as follows:

     ÂÂ Category 1: Buildings, structures, and utilities that are enduring and required to support an ongoing mission including
        multi-use heritage assets. (Facilities with an operational status of Active or Semi-Active are included, less those with a
        disposal code.)

     ÂÂ Category 2: Buildings, structures, and utilities that are excess to requirements or planned for replacement or disposal
        including multi-use heritage assets. (Facilities with an operational status of Caretaker, Disposed, Excess, Non-Functional,
        Outgrant, and Surplus plus Active and Semi-active with disposal codes.)

     ÂÂ Category 3: Buildings, structures, and utilities that are heritage assets. These have an operational status of Closed and are not
        maintained. (Facilities with an operational status of Closed as well as a historical status.)
                                                                                                               Army General Fund 83
                                                            Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report

                         Military Equipment Deferred Maintenance for Fiscal Year Ended September 30, 2012
                       (Amounts in thousands)
                                                        Major Categories 
                        Aircraft                                                                           $27,116
                        Automotive Equipment                                                                 37,910
                        Combat Vehicles                                                                      26,622
                        Construction Equipment                                                                    0
                        Electronics and Communications Systems                                             144,503
                        General Purpose Equipment                                                            20,444
                        Missiles                                                                             27,389
                        Ordnance Weapons and Munitions                                                       10,806
                        Other                                                                                12,600
                        Ships                                                                                     0
                        Grand Total                                                                      $307,390


The OP-30 from the FY 2012 president’s budget was used to compile the deferred depot level maintenance.

The Depot Maintenance Operations and Planning System is the automated system for capturing depot-level deferred maintenance
data. The data is for subactivity group 123, all active components.

Funding provided to support the Program Objective Memorandum (POM) 12-16 for depot maintenance adequately supported the
Army’s most critical modernization and equipping strategies. The program ensured that Soldiers have the equipment needed to execute
their assigned mission as they progress through the Army Force Generation (ARFORGEN) cycle. The bottom-line is that depot
maintenance requirements continue to grow while the Army continues to get fewer resources with reduced budgets.

The funding also provided the resources necessary for land forces depot maintenance to meet the requirements of an Army
transitioning from operations in theater to home station training – an expeditionary Army engaged in full spectrum operation
(FSO) training and poised for future contingency response. In recent years, the Army has leveraged overseas contingency operation
(OCO) dollars to offset depot maintenance through equipment reset for redeploying units. Deployed units and enduring equipment
requirements currently funded by OCO will accelerate their transition into the base budget as operations in Southwest Asia continue
decreasing. Redeployed units will demand greater equipment to support FSO training and future contingencies. To meet the exigencies
of war, Army has generated a digitally dependent force. The digitally integrated Army of today is far different from the analog Army
that went to war at the beginning of the decade. These technologies must now be sustained.

The FY 2012 base budget includes two congressional realignments: approximately $1 billion and $188 million base requirements
to OCO. These realignments funded depot level maintenance for Army weapon systems in support of next deploying units. These
programs were not an OCO requirement in FY 2013 and did not affect deferred maintenance.

Unfunded requirements totaled approximately $1 billion. These amounts include software and cover all validated requirements that
support readiness of the Army in its mission to fight and win the nation’s wars. The development of the Army’s requirements each
year is a zero sum computation, which means that the unfunded requirement in the budget year does not roll into the next fiscal year.
The FY 2012 true deferred maintenance is the difference between the total validated unfunded requirement and the critical unfunded
requirement. These fleet readiness and software shortfalls include:

    a.	 Communication-electronics critical requirements, which address critical intelligence network sustainment and system
        maintenance, sense and warn systems that provide vital force protection.

    b. 	 Post-production software support (PPSS) critical requirements that address the required software maintenance for various
         weapon systems.

    c. 	 Test, Measurement and Diagnostic Equipment (TMDE) that addresses the calibration of TMDE to ensure weapon systems
         meet all of the design performance standards and ensure the health and safety of the Soldier and avoid aircraft and weapon
         system failures; watercraft maintenance is also addressed with this requirement.
84    Fiscal Year 2012 United States Army Annual Financial Report


     d. 	 Combat systems and bridging, which provide the overhaul of the main battle tank, and tactical bridging to restore equipment
          reliability (National Guard).

     e. 	 Tactical wheel vehicles that overhaul the M900 series of 5-ton trucks, the family of medium tactical vehicles, M915/6 and
          heavy, expanded mobility tactical-series trucks to sustain fleet readiness (National Guard and Army Reserve).

The future POM requirements are driven by the following:

     ÂÂ   Increased reliance on software and digital technology.
     ÂÂ   The FSO placing new demands on the industrial base.
     ÂÂ   Support of non-standard equipment which has been identified for sustainment as long-term force capabilities.
     ÂÂ   Legacy and current equipment remaining in-service for longer than anticipated.
     ÂÂ   New equipment and capabilities entering the sustainment phase in their lifecycles.
     ÂÂ   An emerging mine-resistant, ambush-protected vehicle fleet.

Over the course of the last decade, this growing presence of digital technology and its PPSS was heavily funded by OCO dollars. With
limited resources, the Army has to takes risks in depot maintenance and has to balance requirements with available resources. The
Army has to identify critical software requirements and prioritize those that require funding to meet ARFORGEN and unit readiness
requirements. In addition, the Army will rely on available OCO dollars to ensure all critical shortfalls including deferred maintenance
are met.

Heritage Assets and Stewardship Land Condition Information for Fiscal Year Ended September 30, 2012

The conditions of archeological sites across the Army remain varied from poor to excellent based on a number of factors including the
environmental setting and natural disasters, the type of the site, and impacts from Army activities. If an Army activity has the potential
to adversely impact an archeological site eligible for the National Register of Historic Places, the Installation Cultural Resources
Management Plan (ICRMP) contains provisions for how the installation might proceed to avoid, minimize, or mitigate those impacts.
The ICRMPs provide installations the information and tools necessary to manage their cultural resources, including archeological sites,
in compliance with federal requirements. These plans provide for site protection, site condition monitoring, and mitigation procedures
for adverse impacts to sites. Overall, the conditions of sites on Army installations are fair, based on the Army’s cultural resource
management procedures.
                                                                                                                           Army General Fund 85
                                                                       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report




                                                           INSPECTOR GENERAL
                                                        DEPARTMENT OF DEFENSE
                                                       4800 MARK CENTER DRIVE
                                                    ALEXANDRIA, VIRGINIA 22350-1500



                                                                                                                                       November 8, 2012


MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT:	 Independent Auditor’s Report on the Army General Fund FY 2012 and FY 2011 Financial Statements
	         (Report No. DODIG-2013-013)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to audit the
accompanying Army General Fund Consolidated Balance Sheet as of September 30, 2012 and 2011, and the Consolidated Statement
of Net Cost, Consolidated Statement of Changes in Net Position, Combined Statement of Budgetary Resources, and related notes
for the fiscal years then ended. The financial statements are the responsibility of Army management. Management is also responsible
for implementing effective internal control and for complying with laws and regulations. In addition, management is responsible
for implementing and maintaining financial management systems that comply with the requirements of the Federal Financial
Management Improvement Act of 1996 (FFMIA). Our responsibility is to express an opinion on the financial statements based on
our audit.

We are unable to express an opinion on the Army General Fund FY 2012 and FY 2011 Basic Financial Statements because of
limitations on the scope of our work. Thus, the financial statements may be unreliable. In addition to our disclaimer, we are including
the required report on Internal Control and Compliance with Laws and Regulations. The report is an integral part of our disclaimer of
opinion on the financial statements and should be considered in assessing the results of our work.


Disclaimer of Opinion on the Financial Statements
The Deputy Assistant Secretary of the Army (Financial Operations) represented to us that the Army General Fund FY 2012 and
FY 2011 Annual Financial Statements would not substantially conform to accounting principles generally accepted in the United
States of America (U.S. GAAP) and that Army financial management and feeder systems were unable to adequately support material
amounts on the financial statements as of September 30, 2012. Section 1008(d) of the FY 2002 National Defense Authorization
Act limits the Department of Defense Inspector General to performing only those audit procedures required by generally accepted
government auditing standards that are consistent with the management representations made to us. Accordingly, we did not perform
all the auditing procedures required by generally accepted government auditing standards and Office of Management and Budget
(OMB) Bulletin 07-04, “Audit Requirements for Federal Financial Statements,” September 4, 2007, as amended1 to determine whether
material amounts on the financial statements were presented fairly.

Prior audits have identified, and Army management has also acknowledged, the long standing material internal control weaknesses
identified in the Summary of Internal Control. These material internal control weaknesses may affect the reliability of certain
information contained in the annual financial statements – much of which was taken from the same data sources.2 Therefore, we are
unable to express, and we do not express, an opinion on the Basic Financial Statements.




1
 	 OMB Memorandum M-09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial Statement,”
   September 23, 2009.
2
 	 The annual financial statements include the Basic Financial Statements, Management Discussion and Analysis, Required Supplementary Stewardship
   Information, Required Supplementary Information, and Other Accompanying Information.
86    Fiscal Year 2012 United States Army Annual Financial Report


Summary of Internal Control
In planning our work, we considered Army internal control over financial reporting and compliance with applicable laws and
regulations. We did this to determine our audit procedures and to comply with OMB guidance, but our purpose was not to express
an opinion on internal control. Accordingly, we do not express an opinion on internal control over financial reporting and compliance
with applicable laws and regulations. However, previously identified significant deficiencies, all of which are material, continue to exist
in the following areas.

     ÂÂ Financial Management Systems
     ÂÂ Fund Balance with Treasury
     ÂÂ Accounts Receivable
     ÂÂ Inventory and Related Property
     ÂÂ General Property, Plant, and Equipment
     ÂÂ Accounts Payable
     ÂÂ Environmental Liabilities
     ÂÂ Statement of Net Cost
     ÂÂ Statement of Budgetary Resources
     ÂÂ Intragovernmental Eliminations
     ÂÂ Accounting Adjustments
     ÂÂ Abnormal Account Balances
     ÂÂ Reconciliation of Net Cost of Operations to Budget
     ÂÂ Contingency Payment Audit Trails

A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

A control deficiency exists when the design or operation of a control does not allow management or employees, in the normal course
of performing their assigned functions, to prevent or detect misstatements on a timely basis. A significant deficiency is a deficiency or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit attention by
those charged with governance. The following significant deficiency continued to exist:

     ÂÂ Legal Representation Process

Internal control work we conducted as part of our prior audits would not necessarily disclose all deficiencies. Attachment 1 offers
additional details on significant deficiencies, most of which we consider to be material weaknesses.

The Army reported these 14 material weaknesses in its FY 2012 Statement of Assurance.


Compliance with Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and regulations related to financial
reporting because management represented that instances of noncompliance identified in prior audits continued to exist. The Deputy
Assistant Secretary of the Army (Financial Operations) represented to us that the Army General Fund financial management systems
do not substantially comply with Federal financial management system requirements, U.S. GAAP, and the U.S. Government Standard
General Ledger at the transaction level. Therefore, we did not determine whether Army General Fund management complied with all
applicable laws and regulations related to financial reporting. Providing an opinion on compliance with certain provisions of laws and
regulations was not an objective of our audit, and accordingly, we do not express such an opinion. See Attachment 1 for additional
details on compliance with laws and regulations.


Other Information in the Annual Financial Statements
The Army General Fund Management Discussion and Analysis and Required Supplementary Information are not a required part of
the basic financial statements, and we did not audit and do not express an opinion on such information. However, we have applied
                                                                                                                 Army General Fund 87
                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


certain limited procedures prescribed by auditing standards that raised doubts that we were unable to resolve regarding whether
material modifications should be made to the information for it to conform with U.S. GAAP. We compared the information with
the Army General Fund financial statements for consistency. Based on our limited work, we found inconsistencies between the
information and the financial statements and applicable sections of OMB Circular No. A-136 (Revised), “Financial Reporting
Requirements,” August 3, 2012, and DoD 7000.14-R, “Financial Management Regulation,” volume 6B, “Form and Content of DoD
Audited Financial Statements,” June 2012.


Scope and Methodology
Management is responsible for:

     ÂÂ preparing financial statements that conform with U.S. GAAP;
     ÂÂ establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control objectives of
        the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) are met;
     ÂÂ ensuring that the Army financial management systems substantially comply with FFMIA requirements, and;
     ÂÂ complying with applicable laws and regulations.

We are responsible for planning and performing the audit to obtain reasonable assurance and to provide an opinion on whether the
Army General Fund financial statements are presented fairly, in all material respects, in conformity with U.S. GAAP. We are also
responsible for (1) testing whether Army financial management systems substantially comply with the three FFMIA requirements,
(2) testing compliance with selected provisions of laws and regulations that have direct and material effect on the financial statements
and laws for which OMB audit guidance requires testing, and (3) performing limited procedures with respect to certain other
information appearing in the annual financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by FMFIA, such as those controls relevant
to preparing statistical reports and ensuring efficient operations. We limited our internal control testing over financial reporting
and compliance to previously identified significant deficiencies, all of which are material and continue to exist. Because of inherent
limitations in internal controls, misstatements due to error or fraud, losses, or noncompliance may nevertheless occur and not be
detected.

Because of the significance of the limitations on the scope of our work, we were unable to and did not perform our audit of internal
control in accordance with U.S. GAAP and OMB audit guidance. We considered the limitation on the scope of our work in forming
conclusions and in testing the financial statements.

We performed our audit in accordance with U.S. generally accepted government auditing standards. We believe our audit provides a
reasonable basis for our opinions and other conclusions.


Agency Comments and Our Evaluation
On November 5, 2012, we provided a draft of this report to the Deputy Assistant Secretary of the Army (Financial Operations).
The Deputy Assistant Secretary of the Army (Financial Operations) responded in a memorandum dated November 7, 2012, which is
included in its entirety at Attachment 2. The Department’s response was considered in preparing the final version of this report.

This report is intended solely for the information and use of the Department’s management, DoD Office of Inspector of General,
OMB, Government Accountability Office, and Congress and is not intended to be used by anyone other than these specified parties.




		                                                           Richard B. Vasquez, CPA
		                                                           Acting Assistant Inspector General
		                                                           Financial Management and Reporting

Attachments:
As stated
88   Fiscal Year 2012 United States Army Annual Financial Report
                                                                                                                  Army General Fund 89
                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


                                           Report on Internal Control and
                                        Compliance with Laws and Regulations

Internal Control
Management is responsible for implementing and maintaining effective internal control to include providing reasonable assurance
that Army General Fund personnel accumulated, recorded, and reported accounting data properly; met the requirements of applicable
laws and regulations; and safeguarded assets against misappropriation and abuse. Our purpose was not to, and we do not, express an
opinion on internal control over financial reporting. However, the following material weaknesses and significant deficiency exist that
could adversely affect the Army General Fund financial reporting.


Previously Identified Material Weaknesses
Management acknowledged that it is unable to comply with applicable reporting requirements and has identified the following
material weaknesses, all of which are material, that continued to exist in the following areas.

Financial Management Systems
Army accounting systems lacked a single, standard transaction-driven general ledger. The Army also needed to upgrade or replace
many of its nonfinancial feeder systems so it could meet financial statement reporting requirements. The lack of a single, standard
transaction-driven general ledger will continue to prevent the Army from preparing auditable financial statements.

The Army has stated that it has fully deployed the General Fund Enterprise Business System (GFEBS) with the intention of correcting
existing problems and improving current processes in Army financial systems. However, until all of the Army General Fund’s financial
and nonfinancial feeder systems and processes are updated to collect and report financial information as required by U.S. GAAP, some
of the Army General Fund’s financial data will be derived from budgetary transactions, data from nonfinancial feeder systems, and
accruals.

Army managers also stated that GFEBS contained a chart of accounts based on the U.S. Government Standard General Ledger and
created additional GFEBS subsidiary accounts that would track Army General Fund financial activities at a detailed level. However,
DoD Office Inspector General Report No. DODIG-2012-066, “General Fund Enterprise Business System Did Not Provide Required
Financial Information,” March 26, 2012, reported that GFEBS did not contain accurate and complete FY 2010 U.S. Government
Standard General Ledger and Standard Financial Information Structure information as required by FFMIA and Under Secretary
of Defense (Comptroller)/Chief Financial Officer guidance. As a result, GFEBS did not provide DoD management with required
financial information. The report further noted that GFEBS may not resolve the Army General Fund’s long-standing Financial
Management Systems material weakness. The Army does not expect to complete all corrective actions to resolve this material weakness
until FY 2014.

Fund Balance With Treasury
DoD and its Components, including the Army, have had a long-standing problem reconciling transactional activity in their Fund
Balance with Treasury accounts. The appropriation balances recorded in the accounting records do not agree with Treasury balances.
As of September 30, 2012, the Treasury reported $3.8 billion more in Fund Balance with Treasury than reported by the Army General
Fund. The Army stated that the target date for correcting this material weakness is the third quarter of FY 2014.

Accounts Receivable
The Army has acknowledged weaknesses in its management of accounts receivable. The weaknesses are considered to be DoD-wide
and apply to both public and intragovernmental receivables at the Army General Fund level. The Army’s accounts receivable has
weaknesses that include:

     ÂÂ noncompliance with policies and procedures on referrals to the Department of the Treasury’s Debt Management Office and
        on write-offs of 2-year-old debt;
     ÂÂ a lack of controls to ensure that all entitlement system receivables (vendor pay, civilian pay, and interest) are recorded in the
        accounting systems, to include GFEBS; and
     ÂÂ a lack of controls to ensure that accounts receivable balances are supportable at the transaction level.
90    Fiscal Year 2012 United States Army Annual Financial Report


The Army stated that the target date for correcting this material weakness is the third quarter of FY 2014.

Inventory and Related Property
The systems do not maintain the historical cost data necessary to comply with Statement of Federal Financial Accounting Standards
No. 3, “Accounting for Inventory and Related Property.” Army systems are unable to produce financial transactions using the U.S.
Government Standard General Ledger. Statement No. 3 states that Operating Materials and Supplies must be expensed when the
items are consumed. However, significant amounts of Operating Materials and Supplies were expensed when they were purchased
instead of when they were consumed. The Army stated that the target date for correcting this material weakness is the first quarter
of FY 2014.

General Property, Plant, and Equipment
Statement of Federal Financial Accounting Standards No. 6, “Accounting for Property, Plant, and Equipment,” requires the recording
of General Property, Plant, and Equipment at cost and the recognition of depreciation expense. The Army has acknowledged
that they have not recorded real property and Military Equipment at acquisition or historical cost and did not include all the costs
needed to bring these assets to a form and location suitable for their intended use. The Army could not support the reported cost of
Military Equipment in accordance with Statement No. 6. Also, the Army’s financial accountability systems for all its Military Table
of Equipment unit property books do not comply with FFMIA. The Army stated that the target date for correcting this material
weakness is the first quarter of FY 2014.

Accounts Payable
The Army is unable to account for and report Accounts Payable properly. In addition, the Army accounting systems did not capture
trading partner data at the transaction level in a manner that facilitates trading partner aggregations for intra-agency sales. Therefore,
the Army has acknowledged that it was unable to reconcile Intragovernmental accounts payable to the related Intragovernmental
accounts receivable that generated the payable. The Army stated that the target date for correcting this material weakness is the third
quarter of FY 2014.

Environmental Liabilities
The Army had not properly estimated and reported its environmental liabilities. For example, the processes used to report
environmental liabilities for the Defense Environmental Restoration Program, Base Realignment and Closure, and the non-Defense
Environmental Restoration Program on the financial statements were not adequate to establish or maintain sufficient documentation
and audit trails. Although estimators qualified to perform estimates existed, the Army did not document supervisory reviews of
estimates and did not have adequate quality control programs in place to ensure the reliability of data. The Army stated that the target
date for correcting this material weakness is the first quarter of FY 2015.

Statement of Net Cost
The Army did not present financial information contained in the Statement of Net Cost by programs that align with major goals and
outputs described in the DoD strategic and performance plans required by the Government Performance and Results Act of 1993
(GPRA). Because financial processes and systems did not correlate costs with performance measures, the Army reported revenues
and expenses by appropriation categories. The amounts presented in the Statement of Net Cost are based on funding, obligation,
and disbursing transactions, which are not always recorded using accrual accounting. Also, the Army systems did not always record
the transactions on an accrual basis as required by GAAP. To capture all cost and financing sources for the Army, the information
presented also includes data from the nonfinancial feeder systems. In addition, the Army General Fund budgetary and proprietary
information does not correlate. The Army stated that the target date for correcting this material weakness is the third quarter
of FY 2014.

Statement of Budgetary Resources
The Army accounting systems did not provide or capture the data needed for obligations incurred or prior-year obligations recovered
in accordance with OMB Circular No. A-11, “Preparation, Submission, and Execution of the Budget Requirements.” Although the
Army developed an alternative methodology to calculate these items, the amount of distortion cannot be reliably determined. The
information presented in the Army General Fund’s Statement of Budgetary Resources does not completely agree with the information
submitted in the year-end “Reports on Budget Execution and Budgetary Resources” (SFs-133).

On October 13, 2011, the Secretary of Defense directed DoD to accelerate key elements of the Financial Improvement and Audit
Readiness Plan and place greater emphasis on the overall effort of achieving the Financial Improvement and Audit Readiness priorities
                                                                                                                  Army General Fund 91
                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


and auditable financial statements. Specifically, the Secretary called for the Department to achieve Statement of Budgetary Resources
audit readiness by the end of FY 2014. The Army stated that the target date for correcting this material weakness is the third quarter
of FY 2014.

Intragovernmental Eliminations
DoD and Army were unable to collect, exchange, and reconcile buyer and seller Intragovernmental transactions, resulting in
adjustments that cannot be verified. This is primarily because the majority of the systems within DoD do not allow the capture of
buyer-side information for use in reconciliations and eliminations. The DoD and Army accounting systems were unable to capture
trading partner data at the transaction level to facilitate required trading partner eliminations, and DoD guidance did not require
adequate support for eliminations. In addition, DoD procedures required that buyer-side transaction data be forced to agree with
seller side transaction data without performing proper reconciliations. The Army stated that the target date for correcting this material
weakness is the second quarter of FY 2014.

Accounting Adjustments
Because of inadequate financial management systems and processes, journal voucher adjustments and data calls were used to prepare
the Army General Fund financial statements. For the FY 2012 year-end, the Defense Finance and Accounting Service did not
adequately support $110.9 billion in journal voucher adjustments used to prepare the Army General Fund financial statements.
The Army stated that the target date for correcting this material weakness is the second quarter of FY 2013.

Abnormal Account Balances
The Defense Finance and Accounting Service did not detect, report, or take action to eliminate the abnormal balances included in the
Army General Fund accounting records. Abnormal balances not only distort the Army General Fund financial statements, but also
indicate internal control and operational deficiencies and may conceal instances of fraud. The Army stated that the target date for
correcting this material weakness is the second quarter of FY 2013.

Reconciliation of Net Cost of Operations to Budget
The Statement of Federal Financial Accounting Standards No. 7, “Accounting for Revenue and Other Financing Sources and Concepts
for Reconciling Budgetary and Financial Accounting,” requires a reconciliation of proprietary and budgetary information to assist users
in understanding the relationship of the data. Due to the limitations of the Army General Fund financial systems, budgetary data do
not agree with proprietary expenses and capitalized assets. The Army could not reconcile the information reported in Note 21 with
the Army General Fund Statement of Net Cost without preparing $9.6 billion in unsupported adjustments. The Army stated that the
target date for correcting this material weakness is the third quarter of FY 2014.

Contingency Payment Audit Trails
The Army acknowledged that the maintenance of substantiating documents by certifying and entitlement activities creates significant
challenges in tracing audit trails for support of financial statements. DoD Inspector General Report No. D-2008-098, “Internal
Controls Over Payments Made in Iraq, Kuwait and Egypt,” May 22, 2008, reported that the Army made $1.4 billion in commercial
payments that lacked the minimum supporting documentation and information for a valid payment (minimum support would
include such documents as certified vouchers, proper receiving reports, and invoices). In addition, the Army estimated that
$6.3 billion of commercial payments contained the minimum supporting documentation but did not comply with other statutory
and regulatory requirements. Payments that are not properly supported do not provide the necessary assurance that funds were used as
intended.

DoD Inspector General Report No. D-2011-101, “Controls over Army Deployable Disbursing System Payments Need Improvement,”
August 17, 2011, further supports the conclusion that payment audit trails continue to be a weakness. Specifically, the Deployable
Disbursing System did not maintain accurate lines of accounting information, accurate payment method information, or complete
fundamental payment information, such as invoice line item information, contract or requisition numbers, and invoice numbers.
Without accurate and complete data, DoD cannot maintain complete and documented audit trails, and DoD is at increased risk for
improper payments. The Army stated that the target date for correcting this material weakness is the first quarter of FY 2013.
92    Fiscal Year 2012 United States Army Annual Financial Report


Previously Identified Significant Deficiencies
As part of our financial-related audits, we noted the following significant deficiency, which continued to exist.

Legal Representation Process
The Army legal representation process did not provide meaningful assessments of potential liabilities and was not linked to the Army
process for reporting and disclosing contingent legal liabilities on the financial statements. This financial management deficiency may
cause inaccurate management information. As a result, Army General Fund management decisions based in whole or in part on this
information may be adversely affected. DoD financial information may also contain misstatements resulting from this deficiency.

These financial management deficiencies may cause inaccurate management information. As a result, DoD management decisions
based in whole or in part on this information may be adversely affected. DoD reported that financial information may also contain
misstatements resulting from these deficiencies.


Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial reporting. We limited our work to
determining compliance with selected provisions of the applicable laws and regulations because management acknowledged instances
of noncompliance, and previously reported instances of noncompliance continue to exist. Therefore, we did not determine whether
the Army was in compliance with selected provisions of all applicable laws and regulations related to financial reporting. Our objective
was not to, and we do not, express an opinion on compliance with applicable laws and regulations.


Federal Financial Management Improvement Act of 1996
FFMIA requires DoD to establish and maintain financial management systems that comply substantially with the Federal financial
management systems requirements, applicable Federal accounting standards, and the U.S. Government Standard General Ledger at the
transaction level.

For FY 2012, the Army did not fully comply with FFMIA. The Deputy Assistant Secretary of the Army (Financial Operations)
acknowledged that many of its critical financial management and feeder systems did not substantially comply with the Federal
financial management systems requirements, Federal accounting standards, and the U.S. Government Standard General Ledger at the
transaction level as of September 30, 2012.


Government Performance and Results Act of 1993
Congress enacted GPRA to establish strategic planning and performance measurement in the Federal Government. Strategic plans,
annual performance plans, and annual program performance reports are the main elements of GPRA. The financial information
contained in the Statement of Net Cost is not presented by programs that align with major goals and outputs described in the DoD
strategic and performance plans required by GPRA. Because financial processes and systems do not correlate costs with performance
measures, revenues and expenses are reported by appropriation categories. The Army did not comply with GPRA because it did not
have cost accounting systems in place to collect, process, and report operating costs. This resulted in the Army being unable to present
cost-of-operations data on the Army General Fund Statement of Net Cost that were consistent with the GPRA goals and measures.


Antideficiency Act
Section 1341, title 31, United States Code (31. U.S.C. § 1341) limits the Army and its agents to making or authorizing expenditures
or obligations that do not exceed the available appropriations or funds. Additionally, the Army or its agents may not contract or
obligate for the payment of money before an appropriation is made available for that contract or obligation unless otherwise authorized
by law. According to 31 U.S.C. § 1351, if an officer or employee of an executive agency violates the Antideficiency Act (ADA), the
head of the agency must report immediately to the President and Congress all relevant facts and a statement of actions taken. During
FY 2012, the Army reported seven ADA violations. Therefore, the Army did not comply with 31 U.S.C. §§ 1341.

DoD 7000.14-R, “Financial Management Regulation,” volume 14, chapter 7, “Antideficiency Act Report,” November 2010, limits
the time from identification to reporting of ADA violations to 15 months. The Army did not close five of the seven ADA violations
within 15 months.
                                                                                                                Army General Fund 93
                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Audit Disclosures
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us on March 30, 2012, that the Army General
Fund financial management and feeder systems could not provide adequate evidence supporting various material amounts on the
financial statements and that previously identified material weaknesses continued to exist. Therefore, we did not perform detailed
testing related to previously identified material weaknesses. In addition, we did not perform audit work related to the following
selected provisions of laws and regulations: Federal Credit Reform Act of 1990, Pay and Allowance System for Civilian Employees,
Prompt Payment Act, Improper Payments Information Act, and Provisions Governing Claims of the United States (including
provisions of the Debt Collection Improvement Act of 1996).


Recommendations
This report does not include recommendations to correct the material weaknesses and instances of noncompliance with laws and
regulations because previous audit reports contained recommendations for corrective actions or because audit projects currently in
process will include appropriate recommendations.
94   Fiscal Year 2012 United States Army Annual Financial Report



Department of the Army Comments


                                             Department of the Army
                                        Office of the Assistant Secretary of the Army
                                           Financial Management and Comptroller
                                                      109 Army Pentagon
                                                   Washington DC 20310-0109




                                                    7 November 2012



              MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDITING,
              DEPARTMENT OF DEFENSE

              SUBJECT: Management Response to the Fiscal Year 2012 Army General Fund Financial
              Statement Audit Report

              1.	 Please accept our thanks for your efforts on behalf of Army. We appreciate the
                  professionalism exhibited by your staff during the audit and the opportunity to
                  comment on the draft reports provided to us on November 5, 2012.

              2.	 We generally concur with the findings identified in the draft Report on Internal Control.
                  We will begin corrective actions regarding the contingency payment audit trails
                  material weakness, which has a current target date of 1st Quarter, FY 2013. We will
                  follow up with the US Army Audit Agency to determine whether it can validate that the
                  Army has implemented recommendations from three previous audit reports conducted
                  in fiscal years (FY) 2009, 2010, and 2011.

              3.	 Regarding the accounting adjustments material weakness, the Army has fully
                  deployed the General Fund Enterprise Business System (GFEBS) which will enable
                  the Army to submit a General Fund trial balance directly to the Defense Finance and
                  Accounting Service (DFAS) using the Standard Financial Information Structure. This
                  functionality will reduce the number of unsupported accounting adjustments that
                  DFAS needs to process. This material weakness has a target date for correction of
                  2nd Quarter, FY 2013.

              4.	 Regarding abnormal account balances, the deployment of GFEBS enables the Army
                  to detect and correct abnormal balances through routine general ledger tie point
                  reconciliations and other processes. This material weakness has a target date for
                  correction of 2nd Quarter, FY 2013.

              5.	 My point of contact for this action is                                can be reached by
                  telephone at                       , or by e-mail at




                                                   James J. Watkins
                                            Deputy Assistant Secretary Army
                                                (Financial Operations)
                                                      Army Working Capital Fund 95
               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report




Limitations

Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and results
of operations for the entity, pursuant to the requirements of Title 31, United States
Code, Section 3515(b).

While the statements have been prepared from the books and records of the entity, in
accordance with the formats prescribed by the Office of Management and Budget, the
statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity.




                                                          Fiscal Year 2012 United States Army Annual Financial Report
96    Fiscal Year 2012 United States Army Annual Financial Report


Department of Defense - Army Working Capital Fund

CONSOLIDATED BALANCE SHEET
As of September 30, 2012 and 2011 (Amounts in thousands)                                             2012 Consolidated             2011 Consolidated

ASSETS (Note 2)
   Intragovernmental:
        Fund Balance with Treasury (Note 3)                                                    $                   1,334,455   $              1,900,483
        Accounts Receivable (Note 5)                                                                                 294,764                    424,667
        Other Assets (Note 6)                                                                                              0                     22,519
        Total Intragovernmental Assets                                                         $                   1,629,219   $              2,347,669

   Accounts Receivable, Net (Note 5)                                                                                  24,233                     15,684
   Inventory and Related Property, Net (Note 9)                                                                   22,096,521                 25,211,515
   General Property, Plant and Equipment, Net (Note 10)                                                            1,748,773                  1,564,390
   Other Assets (Note 6)                                                                                             307,744                    446,028
TOTAL ASSETS                                                                                   $                  25,806,490   $             29,585,286
STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)

LIABILITIES (Note 11)
   Intragovernmental:
        Accounts Payable (Note 12)                                                             $                    109,060    $                125,110
        Other Liabilities (Note 15 & 16)                                                                             88,239                      85,997
        Total Intragovernmental Liabilities                                                    $                    197,299    $                211,107

   Accounts Payable (Note 12)                                                                                       392,970                     658,288
   Military Retirement and Other Federal                                                                            215,104                     221,632
   Employment Benefits (Note 17)
   Other Liabilities (Note 15 and Note 16)                                                                           439,834                    558,526
TOTAL LIABILITIES                                                                              $                   1,245,207   $              1,649,553

COMMITMENTS AND CONTINGENCIES (NOTE 16)
NET POSITION
   Unexpended Appropriations - Other Funds                                                     $                     127,825   $                      0
   Cumulative Results of Operations - Other Funds                                                                 24,433,458                 27,935,733
TOTAL NET POSITION                                                                             $                  24,561,283   $             27,935,733

TOTAL LIABILITIES AND NET POSITION                                                             $                  25,806,490   $             29,585,286

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                                                  Army Working Capital Fund 97
                                                                       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Department of Defense - Army Working Capital Fund

CONSOLIDATED STATEMENT OF NET COST
As of September 30, 2012 and 2011 (Amounts in thousands)                                             2012 Consolidated              2011 Consolidated

Program Costs
   Gross Costs                                                                                 $                   33,365,902 $                 29,629,581
        Operations, Readiness & Support                                                        $                   33,365,902 $                 29,629,581
   (Less: Earned Revenue)                                                                                         (30,792,842)                 (33,261,795)
   Net Cost before Losses/(Gains) from Actuarial Assumption
        Changes for Military Retirement Benefits                                               $                   2,573,060   $                (3,632,214)
   Net Program Costs Including Assumption Changes                                              $                   2,573,060   $                (3,632,214)
Net Cost of Operations                                                                         $                   2,573,060   $                (3,632,214)

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
98    Fiscal Year 2012 United States Army Annual Financial Report


Department of Defense - Army Working Capital Fund

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2012 (Amounts in thousands)                2012 Earmarked Funds 2012 All Other Funds          2012 Eliminations       2012 Consolidated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                              $                   0   $        27,935,733       $                   0   $      27,935,733
Beginning balances, as adjusted                                 $                   0   $        27,935,733       $                   0   $      27,935,733
Budgetary Financing Sources:
   Appropriations used                                                              0                27,369                           0              27,369
   Transfers-in/out without reimbursement                                           0            (1,140,194)                          0          (1,140,194)
Other Financing Sources:
   Transfers-in/out without reimbursement (+/-)                                     0               (91,948)                          0             (91,948)
   Imputed financing from costs absorbed by others                                  0               178,843                           0             178,843
   Other (+/-)                                                                      0                96,715                           0              96,715
Total Financing Sources                                         $                   0   $          (929,215) $                        0   $        (929,215)
Net Cost of Operations (+/-)                                                        0             2,573,060                           0           2,573,060
Net Change                                                      $                   0   $        (3,502,275) $                        0   $      (3,502,275)
Cumulative Results of Operations                                $                   0   $        24,433,458 $                         0   $      24,433,458

UNEXPENDED APPROPRIATIONS
Budgetary Financing Sources:
   Appropriations received                                      $                   0   $           155,194       $                   0   $         155,194
   Appropriations used                                                              0               (27,369)                          0             (27,369)
Total Budgetary Financing Sources                               $                   0   $           127,825       $                   0   $         127,825
Unexpended Appropriations                                       $                   0   $           127,825       $                   0   $         127,825
Net Position                                                    $                   0   $        24,561,283       $                   0   $      24,561,283

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                                                  Army Working Capital Fund 99
                                                                       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Department of Defense - Army Working Capital Fund

CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
As of September 30, 2012 (Amounts in thousands)                2011 Earmarked Funds     2011 All Other Funds          2011 Eliminations           2011 Consolidated

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                              $                   0   $        25,074,279       $                       0   $          25,074,279
Beginning balances, as adjusted                                 $                   0   $        25,074,279       $                       0   $          25,074,279
Budgetary Financing Sources:
   Appropriations used                                                              0                54,636                               0                  54,636
   Transfers-in/out without reimbursement                                           0              (700,000)                              0                (700,000)
Other Financing Sources:
   Transfers-in/out without reimbursement (+/-)                                     0              (394,625)                              0                (394,625)
   Imputed financing from costs absorbed by others                                  0               208,360                               0                 208,360
   Other (+/-)                                                                      0                60,869                               0                  60,869
Total Financing Sources                                         $                   0   $          (770,760) $                            0   $            (770,760)
Net Cost of Operations (+/-)                                                        0            (3,632,214)                              0              (3,632,214)
Net Change                                                      $                   0   $         2,861,454 $                             0   $           2,861,454
Cumulative Results of Operations                                $                   0   $        27,935,733 $                             0   $          27,935,733

UNEXPENDED APPROPRIATIONS
Budgetary Financing Sources:
   Appropriations received                                      $                   0   $            54,636       $                       0   $              54,636
   Appropriations used                                                              0               (54,636)                              0                 (54,636)
Total Budgetary Financing Sources                               $                   0   $                 0       $                       0   $                   0
Unexpended Appropriations                                       $                   0   $                 0       $                       0   $                   0
Net Position                                                    $                   0   $        27,935,733       $                       0   $          27,935,733

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
100     Fiscal Year 2012 United States Army Annual Financial Report


Department of Defense - Army Working Capital Fund

COMBINED STATEMENT OF BUDGETARY RESOURCES
As of September 30, 2012 and 2011 (Amounts in thousands)                                2012 Combined                   Restated 2011 Combined

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance brought forward, Oct 1                                 $                            2,150,010 $                       1,022,350
   Unobligated balance brought forward, Oct 1, as adjusted                 $                            2,150,010 $                       1,022,350
Recoveries of prior year unpaid obligations                                                             1,528,463                         3,183,324
Other changes in unobligated balance (+/-)                                                             (1,994,513)                       (2,436,566)
Unobligated balance from prior year budget authority, net                  $                            1,683,960 $                       1,769,108
Appropriations (discretionary and mandatory)                                                              155,194                                 0
Contract authority (discretionary and mandatory)                                                        5,979,778                         8,598,144
Spending authority from offsetting collections (discretionary and
   mandatory)                                                                                           5,382,359                         6,731,182
Total Budgetary Resources                                                  $                           13,201,291   $                    17,098,434

STATUS OF BUDGETARY RESOURCES
Obligations incurred
Unobligated balance, end of year                                           $                           12,766,482   $                    14,948,424
   Apportioned                                                                                            434,809                         2,150,010
Total unobligated balance, end of year                                     $                              434,809   $                     2,150,010
Total Budgetary Resources                                                  $                           13,201,291   $                    17,098,434

Change in Obligated Balance
Unpaid obligations, brought forward, October 1 (gross)                     $                            8,229,298   $                     9,468,963
Uncollected customer payments from federal sources, brought
   forward, October 1 (-)                                                                              (7,077,240)                       (5,374,558)
Obligated balance start of year (net), before adjustments (+/-)                                         1,152,058                         4,094,405
Obligated balance, start of year (net), as adjusted                        $                            1,152,058 $                       4,094,405
Obligations incurred                                                                                   12,766,482                        14,948,424
Outlays (gross) (-)                                                                                   (12,478,188)                      (13,004,763)
Change in uncollected customer payments from federal
   sources (+/-)                                                                                        1,000,241                        (1,702,683)
Recoveries of prior year unpaid obligations (-)                                                        (1,528,463)                       (3,183,324)
Subtotal                                                                   $                              912,130 $                       1,152,059
Obligated balance, end of year
   Unpaid obligations, end of year (gross)                                                              6,989,129                         8,229,300
   Uncollected customer payments from federal sources, end of
       year (-)                                                                                        (6,076,999)                       (7,077,241)
Obligated balance, end of year                                             $                              912,130 $                       1,152,059

Budget Authority and Outlays, Net
Budget authority, gross (discretionary and mandatory)                      $                           11,517,331 $                      15,329,326
Actual offsetting collections (discretionary and mandatory) (-)                                       (12,897,161)                      (13,742,529)
Change in uncollected customer payments from federal sources
   (discretionary and mandatory) (+/-)                                                                  1,000,241                        (1,702,683)
Budget authority, net (discretionary and mandatory)                        $                             (379,589) $                       (115,886)
Outlays, gross (discretionary and mandatory)                               $                           12,478,188 $                      13,004,763
Actual offsetting collections (discretionary and mandatory) (-)                                       (12,897,161)                      (13,742,529)
Outlays, net (discretionary and mandatory)                                                               (418,973)                         (737,766)
Agency Outlays, Net (Discretionary and Mandatory)                          $                             (418,973) $                       (737,766)

The accompanying notes are an integral part of these financial statements. Amounts may not sum due to rounding.
                                                                                                    Army Working Capital Fund 101
                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 1.	Significant Accounting Policies

1.A.	Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Army Working Capital
Fund (WCF), as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of
1994, and other appropriate legislation. The financial statements have been prepared from the books and records of the Army WCF
in accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP) promulgated by the Federal
Accounting Standards Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting
Requirements; and the Department of Defense (DoD) Financial Management Regulation. The accompanying financial statements
account for all resources for which the Army WCF is responsible unless otherwise noted.

The Army WCF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136, due to limitations of
financial and nonfinancial management processes and systems that support the financial statements. Although the Army WCF
now derives most reported values and information for major asset and liability categories from the Logistics Modernization Program
(LMP) system, LMP contains some system and posting deficiencies related to items such as source-accepted procurements, budgetary
transactions, continuing resolutions, cash balances, and undeposited collections. In addition, LMP relies on some data from systems
such as entitlement systems and property systems that compromise the ability to fully meet all USGAAP standards. The Army WCF
continues to implement process and system improvements addressing these limitations. The Army WCF will continue to use generally
accepted accounting principles to address functionality and processes for items such as constructive receipts, funds certification,
outgoing military interdepartmental procurement requests (MIPR), and compensating controls for off-line systems.

The Army WCF currently has ten auditor identified financial statement material weaknesses: (1) Financial Management Systems;
(2) Inventory; (3) General Property, Plant and Equipment; (4) Accounts Payable; (5) Statement of Net Cost; (6) Intragovernmental
Eliminations; (7) Accounting Adjustments; (8) Reconciliation of Net Cost of Operations to Budget; (9) Abnormal Account Balances
and (10) Statement of Budgetary Resources.


1.B.	Mission of the Reporting Entity
The Army WCF is part of the Defense Working Capital Fund and is divided into two separate business areas: Supply Management
and Industrial Operations. These business areas ensure delivery of critical items, such as petroleum products, repair parts, consumable
supplies, depot maintenance services, munitions, and weapons to support the deployment and projection of lethal force as required by
the nation.


1.C.	Appropriations and Funds
Working capital funds receive funding to establish an initial corpus through an appropriation or a transfer of resources from existing
appropriations or funds. The corpus finances operations and transactions that flow through the fund. A working capital fund
maintains the corpus by selling goods and services to customers on a reimbursable basis. Reimbursable receipts fund future operations
and generally are available in their entirety for use without further congressional action. At various times, the Congress provides
additional appropriations as an infusion of cash when revenues are inadequate to cover costs within the corpus.

The Army WCF receives appropriations and funds as defense working capital (revolving) funds and uses the appropriation and funds
to execute its mission and subsequently report on resource usage.


1.D.	Basis of Accounting
The Army WCF’s financial management systems are unable to meet all full accrual accounting requirements. Some of the Army
WCF’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance of USGAAP.
These systems were not designed to collect and record financial information on the full accrual accounting basis as required
by USGAAP.
102    Fiscal Year 2012 United States Army Annual Financial Report


The financial statements are compiled from the underlying financial data and trial balances of the Army WCF sub-entities. The
underlying data is partially derived from budgetary transactions (obligations, disbursements, and collections), reported on budgetary
status reports and accruals made from nonfinancial feeder systems such as Mechanization of Contract Administrative Services System,
the Defense Payroll System, and from Federal Employees’ Compensation Act (FECA) liabilities.

Some of the sub-entity level trial balances may reflect known abnormal balances resulting largely from business and system processes.
At the consolidated Army WCF level, these abnormal balances may not be evident. Disclosures of abnormal balances are made in the
applicable footnotes, but only to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into compliance
with USGAAP. One such action is the current revision of accounting systems to record transactions based on the United States
Standard General Ledger (USSGL). The Army has implemented the LMP at all of the Army Materiel Command’s activities except
for Non-Army Managed Items (NAMI) and the U.S. Army Medical Material Agency, which is expected to transition to Operation
and Maintenance, Army funding in FY 2013. The NAMI will transition to LMP in July 2014. Until LMP functionality is fully
implemented, and all of the processes are updated to collect and report financial information as required by USGAAP, some of the
Army WCF’s financial data will be derived from a combination of budgetary transactions, nonfinancial feeder systems, and accruals.


1.E.	Revenues and Other Financing Sources
The Army WCF industrial operations activities recognize revenue according to the percentage-of-completion method. Supply
management activities recognize revenue when an inventory item is sold.


1.F.	Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. The Army
WCF now derives the majority of its reported data from LMP which is designed to collect and record financial information for
accruals. However, estimates are made for some major items such as payroll expenses, entitlement systems accruals, unbilled
revenue, transportation expenses and MIPRs. The Army WCF continues to implement process and system improvements to address
these limitations.


1.G.	Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from consolidated financial statements in order
to prevent overstatement for business with itself. However, the Army WCF cannot accurately identify intragovernmental transactions
by customer because LMP does not capture the correct buyer and seller data at the transaction level.

Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts receivable, and unearned revenue
to the buyer-side internal accounting offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances
and are then eliminated. The LMP is implementing a standard financial information structure in FY 2013 that will incorporate the
necessary elements that will enable the Army WCF to correctly report, reconcile, and eliminate intragovernmental balances.

The Treasury Financial Manual Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States
Government, and related appendices, provide guidance for reporting and reconciling intragovernmental balances. While the Army
WCF is unable to fully reconcile intragovernmental transactions with all federal agencies, the Army WCF is able to reconcile
balances pertaining to FECA transactions with the Department of Labor and benefit program transactions with the Office of
Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the federal government is not included. The federal government
does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do not report any public debt, interest
or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury does not
allocate such costs to DoD.
                                                                                                    Army Working Capital Fund 103
                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


1.H.	Transactions with Foreign Governments and International Organizations
Each year, the Army WCF sells defense articles and services to foreign governments and international organizations under the
provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense articles and
services to foreign countries and international organizations generally at no profit or loss to the federal government. Payment in U.S.
dollars is required in advance.


1.I.	 Funds with the U.S. Treasury
The Army WCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the Defense Finance and
Accounting Service (DFAS), the military services, and the U.S. Army Corps of Engineers (USACE), and the financial service centers of
the Department of State process the majority of the Army WCF’s cash collections, disbursements, and adjustments worldwide. Each
disbursing station prepares monthly reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency transfers,
and deposits.

In addition, DFAS sites and the USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency transfers,
collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable Fund Balance with
Treasury (FBWT) account. On a monthly basis, Army WCF’s FBWT is adjusted to agree with the U.S. Treasury accounts.


1.J.	 Cash and Other Monetary Assets
Not applicable.


1.K.	Accounts Receivable
Accounts receivable from other federal entities or the public include accounts receivable, claims receivable, and refunds receivable.
The allowance for uncollectible accounts due to the public is based upon an analysis of collection experience grouped by age
categories. The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims
against other federal agencies are to be resolved between the agencies in accordance with dispute resolution procedures defined in the
Intragovernmental Business Rules published in the Treasury Financial Manual.


1.L.	Direct Loans and Loan Guarantees
Not applicable.


1.M.	Inventories and Related Property
The Army WCF has transitioned approximately 94 percent of its resale inventory to LMP which includes moving average cost (MAC)
functionality. However, the on-hand, transitioned balances were not properly baselined to MAC. Accordingly, the Army WCF cannot
confirm the actual historical cost of this inventory and recognizes that a portion may not be compliant with Statement of Federal
Financial Accounting Standards (SFFAS) No. 3, Accounting for Inventory and Related Property.

The Army WCF reports the remaining 6 percent of resale inventories representing NAMI and the United States Army Medical
Materiel Agency (USAMMA) at the latest Defense Logistics Agency (DLA) price or an approximation of historical cost using latest
acquisition cost (LAC) adjusted for holding gains and losses. The latest DLA price and the LAC method are used because legacy
inventory systems were designed for materiel management rather than financial accounting. Although these systems provide visibility
and accountability over inventory items, they do not maintain historical cost data necessary to comply with SFFAS No. 3. Additionally,
these systems cannot produce financial transactions using the USSGL, as required by the Federal Management Improvement Act of
1996 (PL 104-208). The USAMMA will transfer from the Army WCF to Operation and Maintenance, Army funding in FY 2013.
The NAMI will transition to LMP and MAC valuation during FY 2014.

The Army WCF manages only military- or government-specific materiel under normal conditions. Materiel is a unique term
that relates to military force management and includes items such as ships, tanks, self-propelled weapons, aircraft, etc., and related
spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are not managed in
104    Fiscal Year 2012 United States Army Annual Financial Report


Army WCF materiel management activities. Operational cycles are irregular and the military risks associated with stock-out positions
have no commercial parallel. The Army WCF holds materiel based on military need and support for contingencies. The DoD is
currently developing a methodology to be used to account for inventory held for sale and inventory held in reserve for future sale.

The Army WCF is in agreement with SFFAS No 3, Interpretation 7, Items Held for Remanufacture, that inventory held for repair
should be accounted for as “inventory held for remanufacture.” Inventory held for remanufacture capitalizes repair and rebuild costs,
values unrepaired carcasses at cost, and provides for exchange pricing concepts for customer returns. The Army WCF is unable to
comply with some of the accounting requirements for remanufacturing until such time that all LMP functionality is fully implemented
and all inventory-related tasks in the Army Financial Improvement Plan have been addressed.

The Army WCF recognizes excess, obsolete, and unserviceable inventory at net realizable value of $0 pending development of an
effective means of valuing such materiel.

Contractor-acquired inventory may not be properly accounted for due to system limitation.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and managed by
Army WCF. This inventory is retained to support military or national contingencies. Inventory held for repair is damaged inventory
that requires repair to make it suitable for sale. Often, it is more economical to repair these items rather than to procure them. The
Army WCF often relies on weapon systems and machinery no longer in production. As a result, the Army WCF supports a process
that encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and armed
military force. Work in process balances include (1) costs related to the production or servicing of items, including direct materiel,
labor, applied overhead; (2) the value of finished products or completed services that are yet to be placed in service; and (3) munitions
in production and depot maintenance work with its associated costs incurred in the delivery of maintenance services.


1.N.	Investments in U.S. Treasury Securities
Not applicable.


1.O.	 General Property, Plant and Equipment
The DoD’s general property, plant & equipment (PP&E) capitalization threshold is $100 thousand except for real property, which is
$20 thousand. The Army WCF has fully implemented the threshold for all property.

The Army WCF capitalizes all PP&E used in the performance of its mission. These assets are capitalized as general PP&E, whether or
not they meet the definition of any other PP&E category.

When it is in the best interest of the government, the Army WCF provides government property to contractors to complete contract
work. The Army WCF either owns or leases such property, or it is purchased directly by the contractor for the government based on
contract terms. When the value of contractor-procured general PP&E meets or exceeds the DoD capitalization threshold, federal
accounting standards require that it be reported on Army WCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government-furnished equipment that provides appropriate
general PP&E information for financial statement reporting. The DoD requires the Army WCF to maintain, in their property
systems, information on all property furnished to contractors. These actions are structured to capture and report the information
necessary for compliance with federal accounting standards. The Army WCF has not fully implemented this policy primarily due to
system limitations.


1.P.	Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances and
prepayments in accordance with USGAAP. Payments made in advance of the receipt of goods and services should be reported as an
asset on the Balance Sheet. The DoD’s policy is to expense and properly classify assets when the related goods and services are received.
The Army WCF has implemented this policy for advances identified as military and civil service employee pay advances, travel
advances, and advances in contract feeder systems.
                                                                                                      Army Working Capital Fund 105
                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


1.Q.	Leases
Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease), and the value equals or exceeds the current capitalization
threshold, the Army WCF records the applicable asset as though purchased, with an offsetting liability, and depreciates it. The Army
WCF records the asset and the liability at the lesser of the present value of the rental and other lease payments during the lease term
(excluding portions representing executory costs paid to the lessor) or the asset’s fair market value. The discount rate for the present
value calculation is either the lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception of the lease.
The Army WCF, as the lessee, receives the use and possession of leased property; for example real estate or equipment from a lessor in
exchange for a payment of funds. An operating lease does not substantially transfer all the benefits and risk of ownership. Payments
for operating leases are expensed over the lease term as they become payable.


1.R.	Other Assets
The Army WCF’s other assets include credits due for returns and estimated future payments to contractors upon delivery and
government acceptance of satisfactory products.

The Army WCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the Army WCF may
provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as authorized
disbursements to a contractor prior to acceptance of supplies or services by the government. Contract financing payments clauses
are incorporated in the contract terms and conditions and may include (1) advance payments, (2) performance-based payments,
(3) commercial advance and interim payments, (4) progress payments based on cost, and (5) interim payments under certain cost-
reimbursement contracts. It is DoD policy to record certain contract financing payments as Other Assets. The Army WCF has fully
implemented this policy. Estimated future payments to contractors are offset by a contingent liability.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or progress
payments based on a percentage- or stage-of-completion. The Defense Federal Acquisition Regulation Supplement authorizes progress
payments based on a percentage- or stage-of-completion only for construction of real property, shipbuilding, and ship conversion,
alteration, or repair. Progress payments based on percentage- or stage-of-completion are reported as construction-in-progress.


1.S.	 Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of Contingent
Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The Army
WCF recognizes contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount
can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least a
reasonable possibility of incurring a loss or additional losses. The Army WCF’s risk of loss and resultant contingent liabilities arise
from pending or threatened litigation or claims and assessments due to events such as aircraft, ship and vehicle accidents; medical
malpractice; property or environmental damages; and contract disputes.


1.T.	Accrued Leave
The Army WCF reports liabilities for accrued compensatory and annual leave for civilians. Sick leave for civilians is expensed as taken.
The liabilities are based on current pay rates.


1.U.	Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations represent
the amounts of budget authority that are unobligated and have not been rescinded or withdrawn. Unexpended appropriations also
represent amounts obligated for which legal liabilities for payments have not been incurred.
106    Fiscal Year 2012 United States Army Annual Financial Report


Prior to FY 2012, the Army WCF treated appropriations as fully expended at the end of the fiscal year in which the appropriation
was received. For FY 2012 year-end reporting, the Army WCF will identify and report obligations and disbursements to the
original appropriation. Unobligated and unexpended amounts will be carried forward into the FY 2013 and beyond until the
applicable appropriation is fully expended. In addition, functionality has been implemented in LMP during 2012 to facilitate this
reporting process.

Cumulative Results of Operations represent the net difference between expenses and losses, and financing sources (including
appropriations, revenue, and gains), since inception. The cumulative results of operations also include donations and transfers in and
out of assets that were not reimbursed.


1.V.	 Treaties for Use of Foreign Bases
Not applicable.


1.W.	Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the transaction
level to specific obligations, payables, or receivables in the source systems and those reported by the U.S. Treasury.

Supported disbursements and collections may be evidenced by the availability of corroborating documentation that would generally
support the summary level adjustments made to accounts payable and accounts receivable. Unsupported disbursements and
collections do not have supporting documentation for the transactions and most likely would not meet audit scrutiny. However,
both supported and unsupported adjustments may have been made to the Army WCF accounts payable and accounts receivable
trial balances before validating underlying transactions that established the accounts payable and accounts receivable. As a result,
misstatements of reported accounts payable and accounts receivable are likely present in the Army WCF financial statements.

Due to noted material weakness in current accounting and financial feeder systems, the DoD is generally unable to determine whether
undistributed disbursements and collections should be applied to federal or nonfederal accounts payables and accounts receivable
at the time accounting reports are prepared. Accordingly, the DoD policy is to allocate supported undistributed disbursements and
collections between federal and nonfederal categories based on the percentage of distributed federal and nonfederal accounts payable
and accounts receivable. Both supported and unsupported undistributed disbursements and collections are then applied to reduce
accounts payable and accounts receivable accordingly.


1.X.	Fiduciary Activities
Not applicable.


1.Y.	Military Retirement and Other Federal Employment Benefits
Not applicable.


1.Z.	Significant Events
Not applicable.
                                                                                                      Army Working Capital Fund 107
                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 2.	Nonentity Assets
 As of September 30                                                                 2012                                      2011
(Amounts in thousands)
1. 	 Intragovernmental Assets
     A. 	 Fund Balance with Treasury                                $                                    0   $                                     0
     B. 	 Accounts Receivable                                                                            0                                         0
     C. 	 Other Assets                                                                                   0                                         0
     D. 	 Total Intragovernmental Assets                            $                                    0   $                                     0
2. 	 Nonfederal Assets
     A. 	 Cash and Other Monetary Assets                            $                                   0    $                                   0
     B. 	 Accounts Receivable                                                                       1,858                                        0
     C. 	 Other Assets                                                                                  0                                        0
     D. 	 Total Nonfederal Assets                                   $                               1,858    $                                   0
3. 	 Total Nonentity Assets                                         $                               1,858    $                                   0
4. 	 Total Entity Assets                                            $                          25,804,632    $                          29,585,286
5. 	 Total Assets                                                   $                          25,806,490    $                          29,585,286

Information Related to Nonentity Assets

Assets are categorized as either entity or nonentity. Entity assets consist of resources that are available for use in the operations of
the entity.

Nonentity assets are assets for which the Army Working Capital Fund (WCF) maintains stewardship accountability and reporting
responsibility, but are not available for the Army WCF normal operations.

These nonentity assets are for interest, penalties and administrative fees to be collected for out-of-service debts into a receipt account
and then forwarded to the U.S. Treasury.


Note 3.	 Fund Balance with Treasury
 As of September 30                                                                 2012                                      2011
(Amounts in thousands)
1.	 Fund Balances
    A. 	 Appropriated Funds                                         $                                   0    $                                    0
    B. 	 Revolving Funds                                                                        1,334,455                                 1,900,483
    C. 	 Trust Funds                                                                                    0                                         0
    D. 	 Special Funds                                                                                  0                                         0
    E. 	 Other Fund Types                                                                               0                                         0
    F. 	 Total Fund Balances                                        $                           1,334,455    $                            1,900,483
2.	 Fund Balances Per Treasury Versus Agency
    A. 	 Fund Balance per Treasury                                  $                           1,334,455    $                            1,900,483
    B. 	 Fund Balance per Army WCF                                                              1,334,455                                 1,900,483
3.	 Reconciling Amount                                              $                                   0    $                                    0

Status of Fund Balance with Treasury
 As of September 30                                                                 2012                                      2011
(Amounts in thousands)
1.	 Unobligated Balance
    A. 	 Available                                                  $                             434,809 $                               2,150,010
    B. 	 Unavailable                                                                                    0                                         0
2.	 Obligated Balance not yet Disbursed                                                         6,989,129                                 8,229,300
3.	 Nonbudgetary FBWT                                                                                   0                                         0
4.	 NonFBWT Budgetary Accounts                                                                 (6,089,483)                               (8,478,827)
5.	Total                                                            $                           1,334,455 $                               1,900,483
108     Fiscal Year 2012 United States Army Annual Financial Report


Information Related to Fund Balance with Treasury

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a reconciliation between
budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary
authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority that has not
been set aside to cover outstanding obligations. Certain unobligated balances are restricted for future use and are not apportioned for
current use.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and those received
but not paid.

Non-FBWT Budgetary Accounts reduces the Status of FBWT. For the Army Working Capital Fund, these include unfilled orders
without advances, reimbursements earned receivable, and contract authority.


Note 4.	Investments and Related Interest
Not applicable.


Note 5.	Accounts Receivable
As of September 30                                                                                   2012
                                                                                            Allowance For Estimated
 (Amounts in thousands)                                               Gross Amount Due           Uncollectibles          Accounts Receivable, Net
1.	 Intragovernmental Receivables                                 $               294,764                         N/A    $               294,764
2.	 Nonfederal Receivables (From the Public)                                       39,050   $                 (14,817)                    24,233
3.	 Total Accounts Receivable                                     $               333,814   $                 (14,817)   $               318,997


As of September 30                                                                                   2011
                                                                                            Allowance For Estimated
 (Amounts in thousands)                                               Gross Amount Due           Uncollectibles          Accounts Receivable, Net
1.	 Intragovernmental Receivables                                 $               424,667                         N/A    $               424,667
2.	 Nonfederal Receivables (From the Public)                                       30,130   $                 (14,446)                    15,684
3.	 Total Accounts Receivable                                     $               454,797   $                 (14,446)   $               440,351

Information Related to Accounts Receivable

The accounts receivable represent the Army Working Capital Fund (WCF) claim for payment from other entities. The Army WCF
only recognizes an allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance
with the Intragovernmental Business Rules.


Note 6.	Other Assets
 As of September 30                                                              2012                                        2011
 (Amounts in thousands)
1.	 Intragovernmental Other Assets
    A.	 Advances and Prepayments                                 $                                   0    $                                    3
    B.	 Other Assets                                                                                 0                                    22,516
    C.	 Total Intragovernmental Other Assets                     $                                   0    $                               22,519
2.	 Nonfederal Other Assets
    A.	 Outstanding Contract Financing Payments                  $                              307,652   $                              409,748
    B.	 Advances and Prepayments                                                                     92                                   36,280
    C.	 Other Assets (With the Public)                                                                0                                        0
    D.	 Total Nonfederal Other Assets                            $                              307,744   $                              446,028
3.	 Total Other Assets                                           $                              307,744   $                              468,547
                                                                                                       Army Working Capital Fund 109
                                                               Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Information Related to Other Assets

Other Assets (Intragovernmental) consist of the turn-in of unserviceable and obsolete inventory awaiting credit dispositions from
federal resources, e.g., Defense Logistics Agency.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the government that protect
the contract work from state or local taxation, liens or attachments by the contractor’s creditors, transfer of property, or disposition in
bankruptcy. However, these rights should not be misconstrued to mean that ownership of the contractor’s work has transferred to the
federal government. The federal government does not have the right to take the work, except as provided in contract clauses related
to termination or acceptance, and the Army Working Capital Fund is not obligated to make payment to the contractor until delivery
and acceptance.

The balance of Outstanding Contract Financing Payments includes $293.1 million in contract financing payments and an additional
$14.6 million in estimated future payments to contractors upon delivery and government acceptance of a satisfactory product. See
additional discussion in Note 15, Other Liabilities.


Note 7.	 Cash and Other Monetary Assets
Not Applicable.


Note 8.	Direct Loan and Loan Guarantees
Not Applicable.


Note 9.	Inventory and Related Property
 As of September 30                                                                 2012                                              2011
 (Amounts in thousands)
1. 	   Inventory, Net                                              $                            22,096,521       $                            25,211,515
2.	    Operating Materiel & Supplies, Net                                                                0                                             0
3.	    Stockpile Materiel, Net                                                                           0                                             0
4.	    Total                                                       $                            22,096,521       $                            25,211,515

Information Related to Inventory and Related Property

As a result of audit readiness efforts, adjustments were made to the Army Working Capital Fund’s (WCF) mission critical assets. These
accounting adjustments were recognized in current year cost accounts when auditable data was not available to support restatement of
prior period financial statements.


Inventory, Net
As of September 30                                                                             2012
 (Amounts in thousands)                                           Inventory, Gross Value Revaluation Allowance       Inventory, Net      Valuation Method
1.	 Inventory Categories
    A.	 Available and Purchased for Resale                          $    15,739,274       $     (1,644,253)      $       14,095,021      MAC,FIFO,LAC
    B.	 Held for Repair                                                   6,592,703                 56,202                6,648,905       LAC, MAC
    C.	 Excess, Obsolete, and Unserviceable                                 154,138               (154,138)                       0          NRV
    D.	 Raw Materiel                                                      1,352,562                      0                1,352,562      MAC, SP, LAC
    E.	 Work in Process                                                          33                      0                       33          AC
    F.	 Total                                                       $    23,838,710       $     (1,742,189)      $       22,096,521
110    Fiscal Year 2012 United States Army Annual Financial Report



As of September 30                                                                             2011
 (Amounts in thousands)                                           Inventory, Gross Value Revaluation Allowance       Inventory, Net   Valuation Method
1.	 Inventory Categories
    A.	 Available and Purchased for Resale                          $    16,571,240       $       (224,934)      $       16,346,306    LAC, MAC
    B.	 Held for Repair                                                   7,204,345                151,630                7,355,975    LAC, MAC
    C.	 Excess, Obsolete, and Unserviceable                                 313,385               (313,385)                       0      NRV
    D.	 Raw Materiel                                                      1,373,697                      0                1,373,697   MAC, SP, LAC
    E.	 Work in Process                                                     135,537                      0                  135,537       AC
    F.	 Total                                                       $    25,598,204       $       (386,689)      $       25,211,515

Legend for Valuation Methods:
LAC = Latest Acquisition Cost                                     NRV = Net Realizable Value
SP = Standard Price                                               LCM = Lower of Cost or Market
AC = Actual Cost                                                  FIFO = First In, First Out
MAC = Moving Average Cost


Inventory Held for Repair Revaluation Allowance has an abnormal balance of $56.2 million as a result of postings in the Logistics
Modernization Program carried forward from the FY 2009 migration from Commodity Command Standard System. The issue is
being addressed with a system change request.

There are restrictions on the use, sale, and disposition of inventory classified as war reserve materiel valued at moving average cost of
$1.2 billion which includes petroleum products, subsistence items, spare parts, and medical materiel.

The categories listed comprise Inventory, Net. The Army WCF assigns inventory items to a category based upon the type and
condition of the asset. Inventory Available and Purchased for Resale includes spare and repair parts, clothing, textiles, and petroleum
products. Inventory Held for Repair consists of damaged materiel held as inventory that is more economical to repair than to dispose.
Excess, Obsolete, and Unserviceable Inventory consists of scrap materiel or items that cannot be economically repaired and are awaiting
disposal. Raw Materiel consists of items consumed in the production of goods for sale or in the provision of services for a fee.

Work-in-Process includes costs related to producing or servicing of items, including direct material, direct labor, applied overhead and
other direct costs. Work-in-Process also includes the value of the finished products or completed services pending the submission of
bills to the customer. The work-in-process designation may also be used to accumulate the amount paid to the contractor under cost
reimbursable contracts, including amounts withheld from payment to ensure performance, and amounts paid to other government
plants for accrued costs of end items of materiel ordered but not delivered. Work-in-Process includes munitions in production and
depot maintenance work and its associated labor, applied overhead, and supplies used in the delivery of maintenance services.


Operating Materiel and Supplies, Net
Not Applicable.


Stockpile Materiel, Net
Not Applicable.
                                                                                                              Army Working Capital Fund 111
                                                                   Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 10.	General PP&E, Net
As of September 30                                                                                   2012
                                                   Depreciation/                                                   (Accumulated
                                                   Amortization                                                    Depreciation/
 (Amounts in thousands)                              Method           Service Life       Acquisition Value         Amortization)          Net Book Value
1.	 Major Asset Classes
    A.	Land                                            N/A               N/A         $               9,693                     N/A    $             9,693
    B. 	 Buildings, Structures, and Facilities         S/L             20 or 40                  2,096,918     $        (1,514,600)               582,318
    C. 	 Leasehold Improvements                        S/L            lease term                         0                       0                      0
    D. 	 Software                                      S/L             2-5 or 10                 1,064,497                (599,089)               465,408
    E. 	 General Equipment                             S/L              5 or 10                  1,645,126              (1,241,441)               403,685
    F. 	 Military Equipment                            S/L              various                          0                       0                      0
    G. 	 Shipbuilding (Construction-in-Progress)       N/A               N/A                             0                       0                      0
    H. 	 Assets Under Capital Lease                    S/L            lease term                         0                       0                      0
    I. 	 Construction-in-Progress (excludes
                                                       N/A               N/A
         Military Equipment)                                                                        287,669                    N/A                 287,669
    J. 	 Other                                                                                            0                      0                       0
    K.	 Total General PP&E                                                           $            5,103,903    $        (3,355,130)   $          1,748,773


As of September 30                                                                                   2011
                                                   Depreciation/                                                   (Accumulated
                                                   Amortization                                                    Depreciation/
 (Amounts in thousands)                              Method           Service Life       Acquisition Value         Amortization)          Net Book Value
1.	 Major Asset Classes
    A.	Land                                            N/A               N/A         $                   0                     N/A    $                 0
    B. 	 Buildings, Structures, and Facilities         S/L             20 or 40                  1,852,835     $        (1,435,177)               417,658
    C. 	 Leasehold Improvements                        S/L            lease term                         0                       0                      0
    D. 	 Software                                      S/L             2-5 or 10                 1,001,228                (473,998)               527,230
    E. 	 General Equipment                             S/L              5 or 10                  1,547,279              (1,212,537)               334,742
    F. 	 Military Equipment                            S/L              various                          0                       0                      0
    G. 	 Shipbuilding (Construction-in-Progress)       N/A               N/A                             0                       0                      0
    H. 	 Assets Under Capital Lease                    S/L            lease term                         0                       0                      0
    I. 	 Construction-in-Progress (excludes
                                                       N/A               N/A
         Military Equipment)                                                                        284,760                    N/A                 284,760
    J. 	 Other                                                                                            0                      0                       0
    K.	 Total General PP&E                                                           $            4,686,102    $        (3,121,712)   $          1,564,390


Assets Under Capital Lease
Not Applicable.
112    Fiscal Year 2012 United States Army Annual Financial Report



Note 11.	Liabilities Not Covered by Budgetary Resources
 As of September 30                                                              2012                                          2011
 (Amounts in thousands)
1.	 Intragovernmental Liabilities
    A.	 Accounts Payable                                          $                                   0      $                                      0
    B. 	 Debt                                                                                         0                                             0
    C. 	 Other                                                                                   60,762                                        63,765
    D. 	 Total Intragovernmental Liabilities                      $                              60,762      $                                 63,765
2.	 Nonfederal Liabilities
    A. 	 Accounts Payable                                         $                                     0    $                                     0
    B. 	 Military Retirement and Other Federal Employment
         Benefits                                                                             215,104                                       221,632
    C. 	 Environmental Liabilities                                                                  0                                             0
    D. 	 Other Liabilities                                                                      2,544                                             0
    E. 	 Total Nonfederal Liabilities                             $                           217,648        $                              221,632
3.	 Total Liabilities Not Covered by Budgetary Resources          $                           278,410        $                              285,397
4.	 Total Liabilities Covered by Budgetary Resources                                          966,797                                     1,364,156
5.	 Total Liabilities                                             $                         1,245,207        $                            1,649,553

Information Related to Liabilities Not Covered by Budgetary Resources

Liabilities Not Covered by Budgetary Resources include liabilities for which congressional action is needed before budgetary resources
can be provided.

Intragovernmental Other Liabilities represent future-funded Federal Employees’ Compensation Act (FECA) liabilities billed to the
Army Working Capital Fund by the Department of Labor (DOL) for payment made by DOL to Army beneficiaries.

Military Retirement and Other Federal Employment Benefits consists of various employee actuarial liabilities not due and payable
during the current fiscal year. These liabilities primarily consist of $215.1 million for the FECA actuarial reserve. Refer to Note 17,
Military Retirement and Other Federal Employment Benefits, for additional details and disclosures.

Nonfederal Other Liabilities consist of material returns of non-Army managed items in the amount of $2.5 million.


Note 12.	Accounts Payable
As of September 30                                                                                      2012
                                                                                                Interest, Penalties, and
 (Amounts in thousands)                                               Accounts Payable            Administrative Fees                 Total
1. 	 Intragovernmental Payables                                   $               109,060                            N/A   $                  109,060
2. 	 Nonfederal Payables (to the Public)                                          392,970   $                          0                      392,970
3. 	 Total                                                        $               502,030   $                          0   $                  502,030


As of September 30                                                                                      2011
                                                                                                Interest, Penalties, and
 (Amounts in thousands)                                               Accounts Payable            Administrative Fees                 Total
1. 	 Intragovernmental Payables                                   $               125,110                            N/A   $                  125,110
2. 	 Nonfederal Payables (to the Public)                                          658,288   $                          0                      658,288
3. 	 Total                                                        $               783,398   $                          0   $                  783,398

Information Related to Accounts Payable

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by the Army Working
Capital Fund (WCF). The Army WCF’s systems do not track intragovernmental transactions by customer at the transaction level.
Buyer-side accounts payable are adjusted to agree with interagency seller-side accounts receivable. Accounts payable was adjusted by
reclassifying amounts between federal and nonfederal accounts payable and recorded as supported undistributed.
                                                                                                          Army Working Capital Fund 113
                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Note 13.	Debt
Not applicable.


Note 14.	Environmental Liabilities and Disposal Liabilities
Not applicable.


Note 15.	Other Liabilities
As of September 30                                                                              2012                                  2011
 (Amounts in thousands)                                               Current Liability   Noncurrent Liability       Total             Total

1.	Intragovernmental
    A.	 Advances from Others                                      $              5,887    $                0     $        5,887   $         2,543
    B. 	 Deposit Funds and Suspense Account Liabilities                              0                     0                  0                 0
    C. 	 Disbursing Officer Cash                                                     0                     0                  0                 0
    D. 	 Judgment Fund Liabilities                                                   0                     0                  0                 0
    E. 	 FECA Reimbursement to the Department of Labor                          18,696                42,065             60,761            63,765
    F. 	 Custodial Liabilities                                                   1,857                     0              1,857                 0
    G. 	 Employer Contribution and Payroll Taxes Payable                        19,734                     0             19,734            19,689
    H. 	 Other Liabilities                                                           0                     0                  0                 0
    I. 	 Total Intragovernmental Other Liabilities                $             46,174    $           42,065     $       88,239   $        85,997
2.	Nonfederal
    A. 	 Accrued Funded Payroll and Benefits                      $            217,041    $                 0 $         217,041   $       241,428
    B. 	 Advances from Others                                                   65,781                     (1)           65,780            94,166
    C. 	 Deferred Credits                                                            0                      0                 0                 0
    D. 	 Deposit Funds and Suspense Accounts                                         0                      0                 0                 0
    E. 	 Temporary Early Retirement Authority                                        0                      0                 0                 0
    F. 	 Nonenvironmental Disposal Liabilities
          (1) 	Military Equipment (Nonnuclear)                                       0                     0                  0                 0
          (2) 	Excess/Obsolete Structures                                            0                     0                  0                 0
          (3) 	Conventional Munitions Disposal                                       0                     0                  0                 0
    G. 	 Accrued Unfunded Annual Leave                                               0                     0                  0                 0
    H. 	 Capital Lease Liability                                                     0                     0                  0                 0
    I. 	 Contract Holdbacks                                                     16,262                     0             16,262            30,769
    J. 	 Employer Contribution and Payroll Taxes Payable                        30,418                     0             30,418            31,620
    K. 	 Contingent Liabilities                                                      0                14,582             14,582           118,177
    L. 	 Other Liabilities                                                      95,751                     0             95,751            42,366
    M. 	 Total Nonfederal Other Liabilities                       $            425,253    $           14,581     $      439,834   $       558,526
3.	 Total Other Liabilities                                       $            471,427    $           56,646     $      528,073   $       644,523

Information Related to Other Liabilities

Nonfederal Other Liabilities primarily consist of $93.2 million for industrial operations service accruals.

Contingent Liabilities

Contingent liabilities include $14.6 million related to contracts authorizing payments based on cost as defined in the Federal
Acquisition Regulation (FAR). In accordance with contract terms, specific rights to a contractor’s work vests with the federal
government when a specific type of contract financing payment is made. This action protects taxpayer funds in the event of contractor
nonperformance. It is DoD policy that these rights not be misconstrued as rights of ownership. The Army Working Capital
Fund (WCF) is under no obligation to pay contractors for amounts greater than the amounts of progress payments authorized in
contracts until delivery and government acceptance. Due to the probability the contractors will complete their efforts and deliver
114    Fiscal Year 2012 United States Army Annual Financial Report


satisfactory products, and because the amount of contractor costs incurred but yet unpaid are estimable, the Army WCF has
recognized a contingent liability for the estimated unpaid costs that are considered conditional for payment pending delivery and
government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs incurred to date
by contractors and amounts authorized to be paid under progress payments based on cost provisions within the FAR. Estimated
contractor-incurred costs are calculated by dividing the cumulative unliquidated progress payments based on costs by the contractor-
authorized progress payment rate. The balance of unliquidated progress payments based on cost is deducted from the estimated total
contractor-incurred costs to determine the contingency amount.


Capital Lease Liability
Not applicable.


Note 16.	Commitments and Contingencies
Information Related to Commitments and Contingencies

The Army Working Capital Fund (WCF) is a party in various administrative proceedings and legal actions related to claims for
environmental damage, equal opportunity matters, and contractual bid protests. We are not aware of any contingent liabilities for legal
actions.

Additionally, the Army WCF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
payments, or dispute resolution, that may result in a future outflow of budgetary resources. Currently, Army WCF has limited
automated system processes by which it captures or assesses these potential liabilities; therefore, the amounts reported may not fairly
present Army WCF’s commitments and contingencies. The Army WCF records contingent liabilities in Note 15, Other Liabilities.


Note 17.	Military Retirement and Other Federal Employment
         Benefits
As of September 30                                                                             2012                                          2011
                                                                                        (Less: Assets Available
 (Amounts in thousands)                                               Liabilities          to Pay Benefits)     Unfunded Liabilities   Unfunded Liabilities
1.	 Pension and Health Benefits
    A.	 Military Retirement Pensions                              $                 0    $                 0    $                 0    $                 0
    B. 	 Military Pre Medicare Retiree Health Benefits                              0                      0                      0                      0
    C. 	 Military Medicare-Eligible Retiree Health Benefits                         0                      0                      0                      0
    D. 	 Total Pension and Health Benefits                        $                 0    $                 0    $                 0    $                 0
2.	 Other Actuarial Benefits
    A. 	 FECA                                                     $         215,104      $                 0    $         215,104      $         221,632
    B. 	 Voluntary Separation Incentive Programs                                  0                        0                    0                      0
    C. 	 DoD Education Benefits Fund                                              0                        0                    0                      0
    D. 	 Other                                                                    0                        0                    0                      0
    E. 	 Total Other Actuarial Benefits                           $         215,104      $                 0    $         215,104      $         221,632
3.	 Total Military Retirement and Other Federal Employment
    Benefits:                                                     $         215,104      $                 0    $         215,104      $         221,632

Information Related to Military Retirement and Other Federal Employment Benefits

Federal Employees’ Compensation Act

Actuarial liabilities are computed for employee compensation benefits as mandated by the Federal Employees’ Compensation Act
(FECA). The Office of Personnel Management provides updated Army actuarial liabilities during the 4th quarter of each fiscal year.
                                                                                                     Army Working Capital Fund 115
                                                              Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


The Army Working Capital Fund (WCF) computes its portion of the total Army actuarial liability based on the percentage of Army
WCF FECA expense to the total Army FECA expense.

The Army WCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and provided to Army
WCF at the end of each fiscal year. The liability includes the estimated liability for death, disability, medical, and miscellaneous costs
for approved compensation cases, plus a component for incurred-but-not-reported claims. The liability is determined using a method
that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate payments related to that
period. The projected annual benefit payments are discounted to present value using the Office of Management and Budget’s (OMB)
economic assumptions for 10-year Treasury notes and bonds. Cost-of-living adjustments (COLAs) and consumer price index medical
(CPIM) factors are applied to the calculation of projected future benefits. The actuarial liability for FECA decreased $6.5 million
between FY 2011 and FY 2012.

The estimate for future workers’ compensation (FWC) benefits includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred-but-not-reported claims. Consistent with past
practice, these projected annual benefits payments have been discounted to present value using OMB’s economic assumptions for
10-year Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:

Discount Rates
2.293% in Year 1;
3.138% in Year 2, and thereafter

To provide more specifically for the effects of inflation on the liability for FWC benefits, COLAs and CPIMs were applied to the
calculation of projected future benefits. The actual rates for the above factors applied to charge back year (CBY) 2012 were also used to
adjust the historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                                              CBY                    COLA               CPIM
                                              2012                     N/A                N/A
                                              2013                   2.83%              3.65%
                                              2014                   2.03%              3.66%
                                              2015                   1.93%              3.72%
                                              2016                   2.00%              3.73%
                                              2017+                  2.03%              3.80%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on four tests:
(1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the liability amount to
the percentage change in the actual incremental payments, (3) a comparison of the incremental paid losses per case (a measure of case-
severity) in CBY 2012 to the average pattern observed during the most current three charge back years, and (4) a comparison of the
estimated liability per case in the 2012 projection to the average pattern for the projections of the most recent three projections.
116    Fiscal Year 2012 United States Army Annual Financial Report



Note 18.	General Disclosures Related to the Statement of
         Net Cost
Intragovernmental Costs and Exchange Revenue
 As of September 30                                                            2012                                 2011
 (Amounts in thousands)
Operations, Readiness & Support
1. 	 Gross Cost
     A. 	 Intragovernmental Cost                                  $                       3,136,647    $                      3,315,509
     B. 	 Nonfederal Cost                                                                30,229,255                          26,314,072
     C. 	 Total Cost                                              $                      33,365,902    $                     29,629,581
2. 	 Earned Revenue
     A. 	 Intragovernmental Revenue                               $                     (14,099,933)   $                    (14,497,643)
     B. 	 Nonfederal Revenue                                                            (16,692,909)                        (18,764,152)
     C. 	 Total Revenue                                           $                     (30,792,842)   $                    (33,261,795)
3. 	 Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits                                                          0                                   0
4. 	 Costs Not Assigned to Programs                                                               0                                   0
5. 	 (Less: Earned Revenues) Not Attributed to Programs                                           0                                   0
Total Net Cost                                                    $                       2,573,060    $                     (3,632,214)

Information Related to the Statement of Net Cost

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the federal government that are supported
by appropriations or other means. The intent of the SNC is to provide gross and net cost information related to the amount of output
or outcome for a given program or organization administered by a responsible reporting entity. The DoD’s current processes and
systems do not capture and report accumulated costs for major programs based upon the performance measures as required by the
Government Performance and Results Act. The DoD is in the process of reviewing available data and developing a cost reporting
methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government, as amended by SFFAS No. 30, Inter-entity Cost Implementation.

Intragovernmental costs and revenue represent transactions made between two reporting entities within the Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The Army Working Capital Fund (WCF) systems do not track intragovernmental transactions by customer at the transaction level.
Buyer-side expenses are adjusted to agree with internal seller-side revenues. Expenses were adjusted by reclassifying amounts between
federal and nonfederal expenses. Intradepartmental revenues and expenses are then eliminated.

While Army WCF activities generally record transactions on an accrual basis, as is required by federal generally accepted accounting
principles, the systems do not always capture actual costs. Some of the information presented on the Consolidated SNC is based on
non-financial feeder systems, including property accountability and logistics systems.


Note 19.	Disclosures Related to the Statement of Changes in
         Net Position
Information Related to the Statement of Changes in Net Position

Other Financing Sources, Other on the Statement Changes in Net Position (SCNP) consist of other gains and other losses from
nonexchange activity primarily attributable to intragovernmental transfers-in or out for which trading partners could not be identified.
                                                                                                       Army Working Capital Fund 117
                                                                Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Appropriations Received on the SCNP do not agree with Appropriations on the Statement of Budgetary Resources for FY 2011. In
FY 2011, the appropriation was recorded as a cash infusion and the appropriations used represented a liquidation of contract authority
that was recorded as fully expended. During FY 2012, the appropriations received did not liquidate contract authority and are,
therefore, consistent on both statements. Refer to Note 20, Disclosures Related to the Statement of Budgetary Resources, for additional
details and disclosures.


Note 20.	Disclosures Related to the Statement of Budgetary
        Resources
 As of September 30                                                                 2012                                      2011
 (Amounts in thousands)
1. 	 Net Amount of Budgetary Resources Obligated for
     Undelivered Orders at the End of the Period                    $                           6,087,248    $                            7,452,394
2. 	 Available Borrowing and Contract Authority at the End of the
     Period                                                         $                                    0   $                                     0

Information Related to the Statement of Budgetary Resources

Allotments - Realized Resources have an abnormal balance of $5.0 billion on the consolidated trial balance as a result of legacy system
migration issues and current Logistics Modernization Program posting logic. Research is being performed to resolve this issue by the
end of 1st Quarter, FY 2013.

The Army Working Capital Fund (WCF) obligations represent reimbursable obligations of $12.7 billion and direct obligations of
$27.4 million in apportionment category B, apportioned by project or activity.

The Army WCF Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented
as combined.

There are no legal arrangements affecting the use of unobligated balances of budgetary authority.

The Army WCF received appropriations in FY 2012 in the amount of $155.2 million to fund war reserve materiel.

During FY 2012, the appropriations received did not liquidate contract authority and were, therefore, consistent on both statements.
For FY 2011, appropriations on the SBR did not agree with Appropriations Received on the Statement of Changes in Net Position.
The appropriation was recorded as a cash infusion and the appropriations used represented a liquidation of contract authority that was
recorded as fully expended.

Additionally, the SBR was revised during FY 2012 and now displays spending and appropriation authority, net of any contract
authority substitutions or liquidations. Accordingly, the Appropriations and Spending Authority balances in the prior year column do
not correspond with the prior year published statements. For FY 2011, appropriations received and spending authority realized, before
any liquidations or substitutions, were $54.6 million and $15.4 billion, respectively.
118   Fiscal Year 2012 United States Army Annual Financial Report



Note 21.	Reconciliation of Net Cost of Operations to Budget
 As of September 30                                                       2012                      2011
(Amounts in thousands)
Resources Used to Finance Activities:
Budgetary Resources Obligated:
1.	 Obligations incurred                                              $          12,766,482     $          14,948,424
2.	 Less: Spending authority from offsetting collections and
     recoveries (-)                                                              (13,425,383)              (18,628,537)
3.	 Obligations net of offsetting collections and recoveries          $             (658,901)   $           (3,680,113)
4.	 Less: Offsetting receipts (-)                                                          0                         0
5.	 Net obligations                                                   $             (658,901)   $           (3,680,113)
Other Resources:
6.	 Donations and forfeitures of property                             $                   0     $                    0
7.	 Transfers in/out without reimbursement (+/-)                                    (91,948)                  (394,625)
8.	 Imputed financing from costs absorbed by others                                 178,843                    208,360
9.	 Other (+/-)                                                                      96,715                     60,869
10.	 Net other resources used to finance activities                   $             183,610     $             (125,396)
11.	 Total resources used to finance activities                       $            (475,291)    $           (3,805,509)
Resources Used to Finance Items Not Part of the Net Cost of
     Operations:
12.	 Change in budgetary resources obligated for goods, services
     and benefits ordered but not yet provided:
     12a.	 Undelivered Orders (-)                                     $           1,365,146     $           1,694,505
     12b.	 Unfilled Customer Orders                                                (976,031)                1,611,879
13.	 Resources that fund expenses recognized in prior periods (-)                    (9,532)                        0
14.	 Budgetary offsetting collections and receipts that do not
     affect Net Cost of Operations                                                         0                         0
15.	 Resources that finance the acquisition of assets (-)                         (4,395,874)               (7,249,639)
16.	 Other Resources or Adjustments to Net Obligated Resources
     That Do Not Affect Net Cost of Operations:
     16a.	 Less: Trust or Special Fund Receipts Related to exchange
           in the Entity’s Budget (-)                                                      0                        0
     16b.	 Other (+/-)                                                                (4,767)                 333,756
17.	 Total resources used to finance items not part of the Net Cost
     of Operations                                                    $           (4,021,058)   $           (3,609,499)
18.	 Total resources used to finance the Net Cost of Operations       $           (4,496,349)   $           (7,415,008)
                                                                                                    Army Working Capital Fund 119
                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report




 As of September 30                                                              2012                                      2011
 (Amounts in thousands)
Components of the Net Cost of Operations That Will Not Require or Generate Resources in the Current Period
Components Requiring or Generating Resources in Future
     Period:
19.	 Increase in annual leave liability                           $                            0 $                                             0
20.	 Increase in environmental and disposal liability                                          0                                               0
21.	 Upward/Downward reestimates of credit subsidy expense (+/-)                               0                                               0
22.	 Increase in exchange revenue receivable from the public (-)                               0                                               0
23.	 Other (+/-)                                                                           2,544                                          19,857
24.	 Total Components of Net Cost of Operations That Will Require
     or Generate Resources in Future Periods                      $                        2,544 $                                        19,857
Components Not Requiring or Generating Resources:
25.	 Depreciation and amortization                                $                     255,811 $                                        214,143
26.	 Revaluation of assets or liabilities (+/-)                                        (833,774)                                      (3,562,869)
27.	 Other (+/-)
     27a.	 Trust Fund Exchange Revenue                                                         0                                              0
     27b.	 Cost of Goods Sold                                                        14,113,747                                      12,758,695
     27c.	 Operating Material and Supplies Used                                                0                                              0
     27d.	Other                                                                      (6,468,919)                                     (5,647,032)
28.	 Total Components of Net Cost of Operations That Will Not
     Require or Generate Resources                                $                    7,066,865 $                                     3,762,937
29.	 Total Components of Net Cost of Operations That Will Not
     Require or Generate Resources in the Current Period                               7,069,409                                       3,782,794
30.	Net Cost of Operations                                        $                    2,573,060 $                                    (3,632,214)

Information Related to the Reconciliation of Net Cost of Operations to Budget

Due to Army Working Capital Fund’s financial systems limitations, budgetary data do not agree with proprietary expenses and
capitalized assets. The difference between budgetary and proprietary data is a previously identified deficiency.

Resources that finance the acquisition of assets were adjusted by a net of $214.1 million to bring the note schedule into agreement with
the Statement of Net Cost.

Reconciliation of net cost of operations to budget lines are presented as combined instead of consolidated due to intraagency budgetary
transactions not being eliminated:

     ÂÂ   Obligations Incurred
     ÂÂ   Less: Spending Authority from Offsetting Collections and Recoveries
     ÂÂ   Obligations Net of Offsetting Collections and Recoveries
     ÂÂ   Less: Offsetting Receipts
     ÂÂ   Net Obligations
     ÂÂ   Undelivered Orders
     ÂÂ   Unfilled Customer Orders

Other Resources, Other consist of other gains and other losses from non exchange activity primarily attributable to intragovernmental
transfers-in/out for which trading partners could not be identified.

Other Resources or Adjustments to Net Obligated Resources That Do Not Affect Net Cost of Operations, Other consist of other gains
and losses from nonexchange activity primarily attributable to intragovernmental transfers-in or out for which trading partners could
not be identified and the correction of prior-period adjustments that did not meet the materiality thresholds.
120    Fiscal Year 2012 United States Army Annual Financial Report


Components Requiring or Generating Resources in Future Period, Other consist of FECA expense.

Components Not Requiring or Generating Resources, Other consist of cost capitalization offsets. Agencies must first record all
expenses to Operating Expenses/Program Costs. These expenses are then offset using the Cost Capitalization Offset account when the
costs are capitalized to the appropriate “in-process type” account.


Note 22.	Disclosures Related to Incidental Custodial
        Collections
Not applicable.


Note 23.	Earmarked Funds
Not applicable.


Note 24.	Fiduciary Activities
Not applicable.


Note 25.	Other Disclosures
Not applicable.


Note 26.	Restatements
Not applicable.
                                                                                                              Army Working Capital Fund 121
                                                                       Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report




                                                           INSPECTOR GENERAL
                                                        DEPARTMENT OF DEFENSE
                                                       4800 MARK CENTER DRIVE
                                                    ALEXANDRIA, VIRGINIA 22350-1500



                                                                                                                                       November 8, 2012


MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT:	Independent Auditor’s Report on the Army Working Capital Fund FY 2012 and FY 2011 Financial Statements
	        (Report No. DODIG-2013-011)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to audit the
accompanying Army Working Capital Fund Consolidated Balance Sheet as of September 30, 2012 and 2011, and the Consolidated
Statement of Net Cost, Consolidated Statement of Changes in Net Position, Combined Statement of Budgetary Resources, and
related notes for the fiscal years then ended. The financial statements are the responsibility of Army management. Management is
also responsible for implementing effective internal control and for complying with laws and regulations. In addition, management
is responsible for implementing and maintaining financial management systems that comply with the requirements of the Federal
Financial Management Improvement Act of 1996 (FFMIA). Our responsibility is to express an opinion on the financial statements
based on our audit.

We are unable to express an opinion on the Army Working Capital Fund FY 2012 and FY 2011 Basic Financial Statements because of
limitations on the scope of our work. Thus, the financial statements may be unreliable. In addition to our disclaimer, we are including
the required report on Internal Control and Compliance with Laws and Regulations. This report is an integral part of our opinion
report on the financial statements and should be considered in assessing the results of our work.


Disclaimer of Opinion on the Financial Statements
The Deputy Assistant Secretary of the Army (Financial Operations) represented to us that the Army Working Capital Fund FY 2012
and FY 2011 Annual Financial Statements would not substantially conform to accounting principles generally accepted in the United
States of America (U.S. GAAP) and that Army financial management and feeder systems were unable to adequately support material
amounts on the financial statements as of September 30, 2012. Section 1008(d) of the FY 2002 National Defense Authorization Act
limits the Department of Defense Inspector General to performing only those audit procedures required by generally accepted auditing
standards that are consistent with the management representations made to us. Accordingly, we did not perform all the auditing
procedures required by generally accepted government auditing standards and Office of Management and Budget (OMB) Bulletin 07-
04, “Audit Requirements for Federal Financial Statements,” September 4, 2007, as amended,1 to determine whether material amounts
on the financial statements were presented fairly.

Prior audits have identified, and Army management has also acknowledged, the long-standing material internal control weaknesses
identified in the Summary of Internal Control. These material internal control weaknesses may affect the reliability of certain
information contained in the annual financial statements – much of which is taken from the same data sources.2 Therefore, we are
unable to express, and we do not express, an opinion on the Basic Financial Statements.




1
 	 OMB Memorandum M-09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,”
   September 23, 2009.
2
 	 The annual financial statements include the basic statements, Management Discussion and Analysis, Required Supplementary Stewardship Information, Required
   Supplementary Information, and Other Accompanying Information.
122     Fiscal Year 2012 United States Army Annual Financial Report


Summary of Internal Control
In planning our work, we considered Army Working Capital Fund internal control over financial reporting and compliance with
applicable laws and regulations. We did this to determine our audit procedures and to comply with OMB guidance, but our purpose
was not to express an opinion on internal control. Accordingly, we do not express an opinion on internal control over financial
reporting and compliance with applicable laws and regulations. However, previously identified significant deficiencies, all of which are
material, continue to exist in the following areas:

      ÂÂ Financial Management Systems
      ÂÂ Inventory
      ÂÂ General Property, Plant, and Equipment
      ÂÂ Accounts Payable
      ÂÂ Abnormal Account Balances
      ÂÂ Statement of Net Cost
      ÂÂ Statement of Budgetary Resources
      ÂÂ Intragovernmental Eliminations
      ÂÂ Other Accounting Entries
      ÂÂ Reconciliation of Net Cost of Operations to Budget

A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented or detected and corrected on a timely basis.3

Internal control work we conducted as part of our prior audits would not necessarily disclose all deficiencies. Attachment 1 offers
additional details on significant deficiencies, all of which we consider to be material weaknesses.

The Army reported these 10 material weaknesses in its FY 2012 Statement of Assurance.


Compliance with Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and regulations related to financial
reporting because management represented that instances of noncompliance identified in prior audits continue to exist. The Deputy
Assistant Secretary of the Army (Financial Operations) represented to us that Army financial management systems do not substantially
comply with Federal financial management systems requirements, U.S. GAAP, and the U.S. Government Standard General Ledger at
the transaction level. Therefore, we did not determine whether the Army Working Capital Fund complied with all applicable laws and
regulations related to financial reporting. Providing an opinion on compliance with certain provisions of laws and regulations was not
an objective of our audit and, accordingly, we do not express such an opinion. See Attachment 1 for additional details on compliance
with laws and regulations.


Other Information in the Annual Financial Statements
The Army Working Capital Fund Management Discussion and Analysis and Required Supplementary Information are not a required
part of the basic financial statements, and we did not audit and do not express an opinion on such information. However, we have
applied certain limited procedures prescribed by auditing standards that raised doubts that we were unable to resolve regarding whether
material modifications should be made to the information for it to conform with U.S. GAAP. We compared the information with
the Army Working Capital Fund financial statements for consistency. Based on our limited work, we found inconsistencies between
the information and the financial statements and applicable sections of OMB Circular No. A 136 (Revised), “Financial Reporting
Requirements,” August 3, 2012, and DoD 7000.14 R, “Financial Management Regulation,” volume 6B, “Form and Content of DoD
Audited Financial Statements,” June 2012.



	 A control deficiency exists when the design or operation of a control does not allow management or employees, in the normal course of performing their assigned
3

  functions, to prevent or detect misstatements on a timely basis. A significant deficiency is a deficiency or a combination of deficiencies, in internal control that is
  less severe than a material weakness, yet important enough to merit attention by those charged with governance.
                                                                                                   Army Working Capital Fund 123
                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Scope and Methodology
Management is responsible for:

     ÂÂ preparing financial statements that conform with U.S. GAAP;
     ÂÂ establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control objectives of
        the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) are met;
     ÂÂ ensuring that the Army Working Capital Fund financial management systems substantially comply with FFMIA
        requirements; and
     ÂÂ complying with applicable laws and regulations.

We are responsible for planning and performing the audit to obtain reasonable assurance and to provide an opinion on whether the
Army Working Capital Fund financial statements are presented fairly, in all material respects, in conformity with U.S. GAAP. We are
also responsible for (1) testing whether Army financial management systems substantially comply with the three FFMIA requirements,
(2) testing compliance with selected provisions of laws and regulations that have direct and material effect on the financial statements
and laws for which OMB audit guidance requires testing, and (3) performing limited procedures with respect to certain other
information appearing in the annual financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by FMFIA, such as those controls relevant
to preparing statistical reports and ensuring efficient operations. We limited our internal control testing over financial reporting
and compliance to previously identified significant deficiencies, all of which are material and continue to exist. Because of inherent
limitations in internal controls, misstatements due to error or fraud, losses, or noncompliance may nevertheless occur and not
be detected.

Because of the significance of the limitations on the scope of our work, we were unable to and did not perform our audit of internal
control in accordance with U.S. GAAP and OMB audit guidance. We considered the limitation on the scope of our work in forming
conclusions and in testing the financial statements.

We performed our audit in accordance with U.S. generally accepted government auditing standards. We believe our audit provides a
reasonable basis for our opinions and other conclusions.


Agency Comments and Our Evaluation
On November 5, 2012, we provided a draft of this report to the Deputy Assistant Secretary of the Army (Financial Operations).
The Deputy Assistant Secretary of the Army (Financial Operations) responded in a memorandum dated November 7, 2012, which is
included in its entirety at Attachment 2. The Department’s response was considered in preparing the final version of this report.

This report is intended solely for the information and use of the Department’s management, DoD Office of Inspector General, OMB,
Government Accountability Office, and Congress and is not intended to be used by anyone other than these specified parties.




		                                                          Richard B. Vasquez, CPA
		                                                          Acting Assistant Inspector General
		                                                          Financial Management and Reporting

Attachments:
As stated
124    Fiscal Year 2012 United States Army Annual Financial Report


                                            Report on Internal Control and
                                         Compliance with Laws and Regulations

Internal Control
Management is responsible for implementing and maintaining effective internal control to include providing reasonable assurance
that Army Working Capital Fund personnel accumulated, recorded, and reported accounting data properly; met the requirements of
applicable laws and regulations; and safeguarded assets against misappropriation and abuse. Our purpose was not to, and we do not,
express an opinion on internal control over financial reporting. However, the following material weaknesses exist that could adversely
affect the Army Working Capital Fund financial reporting.


Previously Identified Material Weaknesses
Management acknowledged that it is unable to comply with applicable reporting requirements and has identified the following
material weaknesses, all of which are material, that continued to exist in the following areas.

Financial Management Systems
The Army Working Capital Fund systems do not meet the requirements for full accrual accounting. The systems do not collect and
record financial information as required by U.S. GAAP. The financial and nonfinancial feeder systems do not contain the required
system integration to provide a transaction-level audit trail for the amounts reported in the proprietary and budgetary general
ledger accounts.

The Army continues to derive a portion of its financial information for the Army Working Capital Fund from budgetary transactions
and data from nonfinancial feeder systems, such as the Commodity Command Standard System. The Army has implemented the
Logistics Modernization Program system at all Army Materiel Command’s activities except for TACOM Non-Army Managed Items
and U.S. Army Medical Material Agency. These activities will continue to use the Commodity Command Standard System to report
financial information until FY 2014 and FY 2013, respectively.

In DoD policy memorandum, “DoD Standard Chart of Accounts in Standard Financial Information Structure (SFIS),”
August 13, 2007, the Deputy Chief Financial Officer directed the implementation of a DoD Standard Chart of Accounts in target
general ledger systems. This memorandum also required that target system account values be internally crosswalked to the DoD
Standard Chart of Accounts and transmitted using the standard format to the Defense Departmental Reporting System and other users
of the data. The Logistics Modernization Program system is the Army Working Capital Fund’s target general ledger system. However,
the Army relied on crosswalks within Defense Departmental Reporting System to crosswalk Logistics Modernization Program system
trial balance data to the DoD Standard Chart of Accounts format.

DoD Inspector General Report No. D-2012-087, “Logistics Modernization Program System Procure-to-Pay Process Did Not
Correct Material Weaknesses,” May 29, 2012, reported that the Army financial and system managers did not reengineer the Logistics
Modernization Program system to perform Procure-to-Pay functions correctly or correct known material weaknesses. The Logistics
Modernization Program system developers did not identify the system requirements needed to correct the root causes of material
weaknesses, and Army managers did not review control activities to assess internal control effectiveness. As a result, Army managers
continued the use of legacy business processes and the Logistics Modernization Program system failed to provide reliable financial data.
This audit also identified data integrity issues associated with weak system access controls and the use of incorrect data attributes due to
the lack of a single source for vendor data.

In December 2011, Increment 1 of the Logistics Modernization Program system entered into sustainment phase, and all new
functionality for the system will be added as part of Increment 2. Increment 2 is in the planning stages and the implementation of
this increment will continue through at least FY 2015, when the Logistics Modernization Program system will also transfer from a
contractor-owned to a government-owned system. The Government Accountability Office, DoD Office of Inspector General, and
U.S. Army Audit Agency continue to issue audit reports that identify significant data integrity and system integration problems,
questioning whether the Logistics Modernization Program system will record transaction-level data correctly to support the financial
statements. The Army does not expect to complete all corrective actions to resolve the financial management systems weakness
until FY 2015.
                                                                                                   Army Working Capital Fund 125
                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


Inventory
As of September 30, 2012, the Army reported 94 percent of its resale inventory in the Logistics Modernization Program system, which
is capable of recording inventory using moving average cost. Consequently, the inventory valuation method used for 6 percent of
the Army Working Capital Fund inventory does not produce an auditable approximation of historical cost as required by Statement
of Federal Financial Accounting Standards No. 3, “Accounting for Inventory and Related Property.” The Army uses the latest
acquisition cost method of valuing this inventory because the Army designed the Commodity Command Standard System for materiel
management, rather than for accounting in conformance with U.S. GAAP.

Further, the Army reported that it did not properly baseline the transitioning of on-hand balances into the Logistics Modernization
Program system using moving average cost. However, recent internal audit reports stated that the method used within the Logistics
Modernization Program system to calculate the moving average cost was correct at the initial deployment site. Therefore, inventory
valuations over time should have changed to comply with the Statement of Federal Financial Accounting Standards No. 3. However,
further audit work is required to confirm this change. Additionally, since the majority of the sites were added during subsequent
system deployments, the Army Working Capital Fund could not confirm the actual historical cost of this inventory and recognized
that a significant portion may not be currently valued in compliance with Statement of Federal Financial Accounting Standards No. 3.
The Army does not expect to complete all corrective actions to resolve this material weakness until FY 2015.

General Property, Plant, and Equipment
The reported value of Army Working Capital Fund General Property, Plant, and Equipment is unreliable because the Army lacks the
documentation needed to support the historical acquisition costs of its assets. In addition, the Army has not fully implemented DoD
policy that requires an entity to maintain information in its property systems on all property furnished to contractors due to system
limitations. The Army is working with the Office of the Under Secretary of Defense (Comptroller) to develop a methodology to
baseline acquisition costs for all property, plant, and equipment.

DoD Financial Management Regulation, volume 4, chapter 6, “Property, Plant, and Equipment,” June 2009, requires the recording
of the acquisition value of real property assets and associated depreciation on the financial statements of the DoD entity that funded
the acquisition. Entities that use assets they did not fund must recognize their share of the assets’ depreciation and sustainment and
maintenance costs by either reimbursing the entity which records the asset on its financial statements or recording the imputed costs
incurred on their financial statements. The Army has not yet taken actions to assess the assets reported in the Army Working Capital
Fund real property accounts to determine whether the Army Working Capital Fund funded the assets reported on the financial
statements. The Army expects to complete all corrective actions to resolve this material weakness in FY 2015.

Accounts Payable
Statement of Federal Financial Accounting Standards No. 1, “Accounting for Selected Assets and Liabilities,” required
intragovernmental transactions to be reported separately from amounts owed to the public and the establishment of an Account
Payable upon acceptance of goods or services. The Army acknowledged that Army Working Capital Fund’s systems do not track
intragovernmental transactions by customer at the transaction level. As a result, the Army relies on unsupported adjustments processed
by Defense Finance and Accounting Service personnel to report accounts payable balances. Additionally, DoD Inspector General
Report No. D-2012-087 reaffirmed that the Logistics Modernization Program system could not generate an Account Payable upon
acceptance of goods until they actually arrived at their final destination.

Additionally, Defense Finance and Accounting Service personnel adjusted Accounts Payable with the Public downward by
$149.0 million for undistributed disbursements. Army Working Capital Fund activities also could not reconcile their Accounts
Payable transactions with the corresponding Intragovernmental Accounts Receivable that generated the payables. Therefore, Defense
Finance and Accounting Service personnel made $206.7 million in unsupported adjustments, which increased Intragovernmental
Accounts Payable, forcing the amounts to agree with Army Working Capital Fund trading partners.

Abnormal Account Balances
In FY 2012, the Army Working Capital Fund Industrial Operations and Supply Management activities (limit-level) reported
19 abnormal account balances, valued at $161.9 million. Army and Defense Finance and Accounting Service personnel used
the 19 abnormal balances to compute the amounts reported on the Balance Sheet for such items as General Property, Plant, and
Equipment; Inventory; Intragovernmental Accounts Payable; and Intragovernmental Other Assets. In addition, the posting accounts
used to develop the proprietary trial balances in the Logistics Modernization Program system contained at least 542 abnormal account
126    Fiscal Year 2012 United States Army Annual Financial Report


balances valued at $63.5 billion. The roll-up of limit-level account balances to produce amounts on the financial statements hid
abnormal account balances in posting accounts.

Statement of Net Cost
The Army did not present the Army Working Capital Fund’s Statement of Net Cost by major program, as required by OMB Circular
No. A-136 (Revised). The Army Working Capital Fund’s programs should align with the major goals and outputs described in the
strategic and performance plans required by the Government Performance and Results Act of 1993. Army Working Capital Fund
financial management systems did not accurately account for intragovernmental transactions or capture actual costs. Therefore, some
of the information presented in the Army Working Capital Fund’s Statement of Net Cost is based on non financial feeder systems.
The Army plans to resolve this material weakness by FY 2015.

Statement of Budgetary Resources
OMB Circular No. A-136 (Revised) states that the entity should develop the Statement of Budgetary Resources predominantly from
the budgetary general ledger accounts in accordance with budgetary accounting rules. The Army did not use data from the Army
Working Capital Fund budgetary general ledger accounts reported by the Logistics Modernization Program system to populate the
Statement of Budgetary Resources. Instead, Defense Finance and Accounting Service personnel continued to use budget execution
data contained in status reports. In addition, Defense Finance and Accounting Service personnel made $147.7 million in adjustments
to the budgetary accounts because the accounting systems did not correctly record budgetary transactions related to Advances and
Prepayments. The Army’s target date to correct this material weakness is FY 2015.

Intragovernmental Eliminations
DoD was unable to collect, exchange, and reconcile buyer and seller intragovernmental transactions, resulting in adjustments that were
not verifiable. DoD Inspector General Report No. D-2012-087 reported that the Logistics Modernization Program system did not
capture the correct Standard Financial Information Structure business partner information at the transaction level needed to facilitate
reconciling and eliminating intragovernmental transactions. DoD procedures require that the Army adjust its buyer-side transaction
data to agree with seller-side transaction data from other Government entities, without the entities performing proper reconciliations.
As a result, Defense Finance and Accounting Service personnel made $724.1 million in adjustments to Army Working Capital Fund
accounts to force the accounts to agree with the corresponding records of intragovernmental trading partners.

Other Accounting Entries
Defense Finance and Accounting Service personnel made additional unsupported accounting adjustments, valued at $92.2 million,
to force amounts to agree with other sources of information and records used in preparing the FY 2012 Army Working Capital Fund
Financial Statements. The unsupported accounting adjustments represent a material uncertainty regarding the line item balances on
the FY 2012 Army Working Capital Fund Financial Statements.

Reconciliation of Net Cost of Operations to Budget
Statement of Federal Financial Accounting Standards No. 7, “Accounting for Revenues and Other Financing Sources and Concepts
for Reconciling Budgetary and Financial Accounting,” requires a reconciliation of proprietary and budgetary information to assist
users in understanding the relationship of the data. The Army could not reconcile the information reported in Note 21 with the Army
Working Capital Fund’s Statement of Net Cost without preparing $557.1 million in unsupported adjustments to the general ledger
accounts to force costs to match obligation information. To resolve this material weakness, the Army identified the implementation
of tie point analysis capability within the Logistics Modernization Program system; however, the identified solution remained an
unfunded requirement in FY 2012.

These financial management deficiencies may cause inaccurate management information. As a result, Army management decisions
based in whole or in part on this information may be adversely affected. The Army reported that financial information may also
contain misstatements resulting from these deficiencies.


Compliance with Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial reporting. We limited our work to
determining compliance with selected provisions of the applicable laws and regulations because management acknowledged instances
of noncompliance, and previously reported instances of noncompliance continue to exist. Therefore, we did not determine whether
                                                                                                   Army Working Capital Fund 127
                                                             Principal Financial Statements, Notes, Supplementary Information, and Auditor’s Report


the Army was in compliance with selected provisions of all applicable laws and regulations related to financial reporting. Our objective
was not to, and we do not, express an opinion on compliance with applicable laws and regulations.


Federal Financial Management Improvement Act of 1996
FFMIA requires DoD to establish and maintain financial management systems that comply substantially with the Federal financial
management systems requirements, applicable Federal accounting standards, and the U.S. Government Standard General Ledger at
the transaction level. FFMIA also requires DoD to develop a remediation plan when its financial management systems do not comply
with Federal financial management systems requirements. The remediation plan is to include remedies, resources required, and
milestones. Army Audit Readiness personnel stated that the Army Working Capital Fund portion of the Army Financial Improvement
Plan is currently under development.

For FY 2012, the Army did not fully comply with FFMIA. Army managers acknowledged that many of their critical financial
management and feeder systems did not substantially comply with the Federal financial management systems requirements, Federal
accounting standards, and the U.S. Government Standard General Ledger at the transaction level as of September 30, 2012.


Antideficiency Act
Section 1341, title 31, United States Code (31 U.S.C. § 1341) limits the Army and its agents to making or authorizing expenditures or
obligations that do not exceed the available appropriations or funds. Additionally, the Army or its agents may not contract or obligate
for the payment of money before an appropriation is made available for that contract or obligation unless otherwise authorized by law.
According to 31 U.S.C. § 1351, if an officer or employee of an executive agency violates the Antideficiency Act, the head of the agency
must report immediately to the President and Congress all relevant facts and a statement of actions taken. During FY 2012, the Army
Working Capital Fund reported no potential or actual Antideficiency Act violations.


Audit Disclosures
The Deputy Assistant Secretary of the Army (Financial Operations) acknowledged to us on March 30, 2012, that the Army financial
management and feeder systems could not provide adequate evidence supporting various material amounts on the financial statements
and that previously identified material weaknesses continued to exist. Therefore, we did not perform detailed testing related to
previously identified material weaknesses. In addition, we did not perform audit work related to the following laws and regulations:
Government Performance and Results Act, Prompt Payment Act, Provisions Governing Claims of the United States Government
(including provisions of the Debt Collection Improvement Act), Federal Credit Reform Act, Improper Payments Information Act, and
the Pay and Allowance System for Civilian Employees.


Recommendations
This report does not include recommendations to correct the material weaknesses and instances of noncompliance with laws and
regulations because previous audit reports contained recommendations for corrective actions or because audit projects currently in
process will include appropriate recommendations.
128   Fiscal Year 2012 United States Army Annual Financial Report



Department of the Army Comments


                                               Department of the Army
                                          Office of the Assistant Secretary of the Army
                                             Financial Management and Comptroller
                                                        109 Army Pentagon
                                                     Washington DC 20310-0109

                           Reply to
                           Attention of



                                                      7 November 2012



              MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDITING,
              DEPARTMENT OF DEFENSE

              SUBJECT: Management Response to the Fiscal Year 2012 Army Working Capital Fund
              Financial Statement Audit Report

              1.	 Please accept our thanks the Office of Inspector General for your efforts on behalf of
                  Army and the professionalism exhibited by your staff during the audit. We appreciate
                  the opportunity to comment on the draft reports provided to us on November 5, 2012.

              2.	 We generally concur with the findings identified in the draft Report on Internal Control.
                  We will prepare corrective action plans to address the identified findings as part of
                  our audit readiness effort. Our audit readiness contractor will begin examination of
                  the inventory line item for existence and completeness (E&C) in the near future.
                  During the upcoming year, they will continue work on developing a complete Army
                  Working Capital Fund Financial Improvement Plan with obtainable milestones that
                  encompasses the remaining open OSD 23 issues and the procure-to-pay plan of
                  actions and milestones.

              3.	 With Standard Financial Information Structure implementation and improved Army
                  Enterprise Systems Integration Program governance, we anticipate obtaining waivers
                  for our intragovernmental eliminations material weakness in Fiscal Year 2014.
                  lntragovernmental transactions will include specific Federal trading partner codes.
                  This will enable reconciliation of intragovernmental transactions between Federal
                  agencies, elimination of intragovernmental transactions in the financial statements,
                  and supportable quarterly reporting to Treasury and OMB of US Standard General
                  Ledger account balances related to transactions with other Federal agencies.

              4.	 My point of contact for this action is                                  can be reached by
                  telephone at                       , or by e-mail at




                                                     James J. Watkins
                                              Deputy Assistant Secretary Army
                                                  (Financial Operations)
     We are interested in your feedback regarding the content of this report.
  Please feel free to e-mail your comments to AAFS@hqda.army.mil or write to:


                   Department of the Army
               Office of the Deputy Assistant Secretary of the Army
                     (Financial Management and Comptroller)
                   Office of the Financial Reporting Directorate
                         Room 3A312, 109 Army Pentagon
                           Washington, DC 20310-0109

Additional copies of this report can be obtained by sending a written request to the
                       e-mail or mailing address listed above.

                      You may also view this document at:
                  http://www.asafm.army.mil/fo/fod/cfo/cfo.asp
The Soldier’s Creed
I am an American Soldier.
I am a Warrior and a member of a team.
I serve the people of the United States
and live the Army Values.

I will always place the mission first.
I will never accept defeat.
I will never quit.
I will never leave a fallen comrade.

I am disciplined, physically and mentally tough,
trained and proficient in my warrior tasks and
drills. I always maintain my arms,
my equipment and myself.

I am an expert and I am a professional.

I stand ready to deploy, engage, and
destroy the enemies of the United States
of America in close combat.

I am a guardian of freedom and the
American way of life.

I am an American Soldier.

United States Army : 1500 Army Pentagon : Washington, DC, 20310-1500 : www.army.mil
